                             Iraq




                          IRAQ




                        September 30, 2011

                        Washington, DC
1300 PENNSYLVANIA AVENUE NW, SUITE 6.6.101, WASHINGTON, DC 20523
                                                             Iraq
                                           September 2011

                                                        Contents
Tab                                                                                                                                    Page

1. Executive Summary ............................................................................................................... 1

2. Office of Inspector General—Overview ................................................................................. 3

3. Introduction .......................................................................................................................... 5

4. Performance Audit Findings and Recommendations ........................................................... 7

5. Financial Audit Findings ..................................................................................................... 19

6. Planned Performance Audits USAID/Iraq-Funded
   Activities—Fiscal Year 2012 ................................................................................................. 33

                                                     Performance Audits

7. Fiscal Year 2011

           USAID/Iraq’s Microfinance Activity Under Its Provincial Economic Growth Program
           (August 4, 2011) ............................................................................................................. 37

           USAID/Iraq’s Agribusiness Program (May 16, 2011) ........................................................ 39

           USAID/Iraq’s Contractors’ Compliance With the Trafficking Victims Protection
           Reauthorization Act of 2008 (December 12, 2010) ............................................................ 45

           Security Incidents Reported by Private Security Contractors of USAID/Iraq’s Contractors and
           Grantees (November 29, 2010) ......................................................................................... 46

           USAID/Iraq’s Payroll Payments to Foreign Service Nationals, Third-Country Nationals, and
           U.S. Personal Services Contractors (November 22, 2010) .................................................... 49

8. Fiscal Year 2010

           USAID/Iraq’s Implementation of the Iraq Financial Management Information System (July
           19, 2010)........................................................................................................................ 53
       USAID’s Internally Displaced Persons Activities in Iraq (March 31, 2010) .......................... 55

9. Fiscal Year 2009

       USAID/Iraq’s Rapid Assistance Program (August 16, 2009) .............................................. 59

       USAID/Iraq’s Economic Governance II Program (June 3, 2009) ........................................ 61

       USAID/Iraq’s Local Governance Program II (May 31, 2009) ............................................ 64

       USAID/Iraq’s Oversight of Private Security Contractors in Iraq
       (March 4, 2009) .............................................................................................................. 66

       USAID/Iraq’s National Capacity Development Program (November 25, 2008) ................... 68

10. Fiscal Year 2008

       USAID/Iraq’s Agribusiness Program (September 30, 2008) ................................................ 71

       USAID/Iraq’s Community Action Program II (August 5, 2008) ......................................... 75

       USAID/Iraq’s Monitoring and Evaluation Performance Program (July 3, 2008) .................. 78

       USAID/Iraq’s Management of Its Official Vehicle Fleet (June 24, 2008) ............................ 80

       USAID/Iraq’s Management of the Marla Ruzicka Iraqi War Victims Fund
       (April 3, 2008) ................................................................................................................ 82

       USAID/Iraq’s Community Stabilization Program (March 18, 2008) .................................. 84

11. Fiscal Year 2007

       USAID/Iraq’s Participation in Provincial Reconstruction Teams in Iraq (September 27,
       2007) ..............................................................................................................................89

       USAID/Iraq’s Local Governance Activities (July 31, 2007) ............................................... 91

       Office of Foreign Disaster Assistance Program in Iraq (July 11, 2007) .................................. 92

       USAID/Iraq’s Activity Planning and Its Reporting Process Under Section 2207
       of Public Law 108-106 (June 6, 2007) .............................................................................. 94

       USAID/Iraq’s Telecommunications Activities (May 3, 2007) ............................................. 96




                                                                  ii
        USAID/Iraq’s Education Activities (February 4, 2007)...................................................... 97

        USAID/Iraq’s Agriculture Reconstruction and Development Program
        (January 22, 2007) .......................................................................................................... 99

        USAID/Iraq’s Civil Society Activities (November 5, 2006)...............................................100

12. Fiscal Year 2006

        USAID Transition Initiatives in Iraq (August 16, 2006) ..................................................103

        USAID/Iraq’s Local Governance Activities (July 10, 2006) .............................................105

        USAID/Iraq’s Nonexpendable Property (February 16, 2006) ............................................107

        USAID/Iraq’s Basic Education Activities (December 20, 2005) .......................................110

        Accuracy of Biographical Datasheets Provided by International Resource
        Group to USAID for Contracts in Iraq (November 6, 2005) .............................................111

13. Fiscal Year 2005

        USAID/Iraq’s Cash Control Procedures (September 27, 2005) .........................................113

        USAID/Iraq’s Water and Sanitation Rehabilitation Activities (June 30, 2005) .................115

        USAID/Iraq’s Electrical Power Sector Activities (June 29, 2005) ......................................116

        USAID/Iraq’s Health System Strengthening Contract Activities
        (February 28, 2005) .......................................................................................................117

        USAID/Iraq’s Community Action Program (January 31, 2005) .......................................118

        USAID’s Compliance with Federal Regulations in Awarding the Contract for Services Security
        in Iraq to Kroll Government Services International, Inc.
         (January 6, 2005) .........................................................................................................119

14. Fiscal Year 2004

        USAID’s Compliance with Federal Regulations in Awarding the Iraq Basic Education Phase
        II Contract (September 23, 2004) ...................................................................................121

        USAID/Iraq’s Economic Reform Program (September 20, 2004) ......................................122




                                                                iii
          USAID’s Compliance with Federal Regulations in Awarding the Iraq Phase II Reconstruction
          and Rehabilitation, Program Advisors, and Oversight Contract (August 6, 2004) ...............124

          USAID/Iraq’s Infrastructure Reconstruction and Rehabilitation Program
          (June 3, 2004) ...............................................................................................................125

          USAID’s Compliance with Federal Regulations in Awarding the Iraq Phase 1 Contracts (May
          19, 2004)......................................................................................................................127

          USAID’s Compliance with Federal Regulations in Awarding Iraq Infrastructure
          Reconstruction Program Phase II Contract (April 20, 2004) ..............................................129

          USAID’s Results Data for Its Education Activities in Iraq (March 19, 2004) ....................130


                                                  Investigative Activity

15. Investigative Case Work and Fraud Prevention Briefings ................................................131

16. Investigative Summaries ....................................................................................................137




                                                                   iv
                                 Executive Summary
Overview

The Office of Inspector General (OIG) has                         will support their efforts with audit and
been providing oversight of U.S. Agency for                       investigative resources based in Cairo.
International Development (USAID) activities
in Iraq since April 2003. Our work has                            Trends
paralleled the evolution of USAID’s programs                      OIG’s performance audit work in Iraq has
from relief and stabilization to reconstruction                   also indicated that security conditions have
to sustainable development. OIG’s activities                      either hindered program accomplishment or
help USAID to ensure that tax dollars are                         had the potential to create implementation
being spent wisely and effectively.                               problems. Of the 56 performance audits,
                                                                  reviews and memorandums issued to date, the
Prompted by USAID program reductions in                           majority cited concerns about security
Iraq, OIG has begun to scale back staffing                        conditions. Our audits also identified trends
levels in Iraq. We plan to continue to reduce                     in inadequate contract oversight or activities
the size of our Iraq office to four staff                         management (31 percent), shortcomings in
members by the end of fiscal year 2012 and                        adherence to contract procedures (10
                                                                  percent), and internal controls that needed
                                                                  improvement (19 percent).

Results—Fiscal Year 2003 through Fiscal Year 2011


                                   Activities                                   Results
                        Performance audits/reviews                                 56
                        Recommendations made1                                     179
                        Recommendations closed                                    158
                        Recommendations open                                       21
                        Financial audits conducted                                144
                        Sustained costs2                                      $17 million
                        Investigations opened                                     103
                        Investigations closed                                      85
                        Investigations pending                                     18
                        Referrals for prosecution                                  36
                        Indictments/criminal complaints                            11
                        Convictions/pleas                                          10
                        Arrests                                                    14
                        Administrative actions                                     36
                        Recoveries and savings                                $123 million
                        Fraud awareness briefings                                  57
                        Attendees at briefings                                   1,045




1
    Performance audits and reviews only
2
    Includes sustained amounts of recommended funds to be put to better use



                                                            1
Highlights—FY 2011 Third/Fourth Quarter

Audit of USAID/Iraq’s Agribusiness Program

In May 2007, USAID/Iraq awarded a $343 million contract to Louis Berger Group (LBG) to
expand the competitiveness of the private sector in the agriculture and agribusiness sectors.
Despite its contractual obligations, LBG fell short on all of its goals. These goals included:
increasing agricultural sector productivity; increasing total sales of USAID-assisted enterprises by
at least $300 million; increasing and monitoring the value of financial resources raised by
assisted enterprises (i.e., agribusiness loans); and generating at least 40,000 new agricultural and
agribusiness jobs—20,000 full-time and 20,000 part-time.

In almost all cases, LBG did either not measure results, report results, or show adequate
documentation. The lack of supportable agribusiness program results was attributed to several
factors, foremost among them was mismanagement.

Although USAID/Iraq did propose—through the contract and through approval of the
contractor’s performance monitoring plan—a rigorous methodology for measuring results of the
program, the mission and the contractor did not use it and simply did not focus on managing
for results. This was evident through numerous problems with program implementation. For
instance, USAID officials did not regularly receive results, did not enforce the requirement for
reporting results and did not monitor the results that were reported.

Although over the three-year period this contract had more than five different contracting officer
technical representatives (COTRs), USAID could not explain why the performance monitoring
plan was not used. Documentation that was essential to project oversight—such as proof of any
of the COTR’s inspection and receipt or acceptance of deliverables and copies of other
performance records, were not included in any program files.

Because of these problems, USAID/Iraq did not track whether the agribusiness program goals
were on or behind schedule. Additionally, subcontracts lacked adequate documentation and
were susceptible to fraud. Grants with special conditions as well as grants awarded to
microfinance institutions were not monitored and also were susceptible to fraud.




                                                 2
                    Office of Inspector General
                                          Overview
The mission of the Office of Inspector                 technology systems.         OIG’s criminal
General (OIG) is to protect and enhance the            investigators are special agents who work
integrity of the U.S. Government’s                     diligently to ensure that those who would
approximately $30 billion foreign assistance           illegally divert U.S. Government funds are
program administered in over 100 countries             detected. Our special agents are sworn law
by the U.S. Agency for International                   enforcement officers who have authority to
Development (USAID), the United States                 carry firearms, execute search warrants, and
African Development Foundation (USADF),                make arrests. Investigations of criminal, civil,
the Inter-American Foundation (IAF), and the           and administrative violations cover all facets
Millennium Challenge Corporation (MCC).                of these worldwide operations.

Who We Are                                             OIG Priorities

OIG is an independent oversight organization           Much of OIG’s work is mandated by statute
within USAID that derives its primary                  or regulation. Other work is performed at our
authorities and independence from the                  discretion after considering the risks
Inspector General Act of 1978 (IG Act),                associated with the agencies’ programs and
Public Law 95–452, as amended.                         assessing potential vulnerabilities in internal
                                                       controls. OIG’s top oversight priorities are:
OIG’s staff of approximately 200 employees—
both Foreign Service and Civil Service—                •     Pakistan
includes      auditors,      certified    public       •     Afghanistan
accountants, investigators, and program                •     HIV/AIDS, malaria, and tuberculosis
analysts, as well as specialists in management,        •     Iraq
budget,     information       technology,   and        •     Haiti
personnel operations. Our fiscal year 2011
appropriation was $45 million.                         Joint Work and Partners

What We Do                                             Interagency coordination is an important
                                                       element of the oversight process. OIG is a key
OIG is responsible for conducting and                  participant in the Southwest Asia Joint
supervising audits and investigations involving        Planning Group, led by the Department of
the programs and operations of USAID,                  Defense Office of Inspector General. Other
USADF, IAF, and MCC. Auditors, certified               members of the group include representatives
public accountants, and program analysts join          from the Office of Inspector General for the
forces to design and conduct audits and                Department of State, the Defense Contract
reviews to determine whether agency                    Audit      Agency,       the      Government
programs and operations are working as                 Accountability Office (GAO), and the Special
envisioned.       Audit activities include             Inspector     General      for    Afghanistan
performance audits of programs, financial              Reconstruction, and the Special Inspector
statement audits required under the Chief              General for Iraq Reconstruction.
Financial Officers Act of 1990, Public Law
101–576, as amended, audits related to                 As a member of the National Procurement
financial accountability of grantees and               Fraud Task Force, OIG assists the
contractors, and audits of information                 Department of Justice in addressing


                                                   3
procurement and grant fraud—especially in            OIG has overseas offices in Baghdad, Cairo,
Iraq, Afghanistan, and Pakistan.                     Dakar, Kabul, Islamabad, Manila, Pretoria,
                                                     San Salvador, Tel Aviv, and Port-au-Prince.
Where We Work
                                                     OIG General Information
Approximately 70 direct-hire auditor, program
analyst, and special agent positions are based       To learn more about USAID/OIG and its
overseas, and the remaining workforce is             work, visit our Web site at www.usaid.gov/oig
stationed in Washington, DC.                         or contact us at 202–712–1150.




                                                 4
                                      Introduction


Background. The goals of U.S. assistance to            Starting on page 37 are narrative summaries
Iraq are to help the Iraqi Government                  of the audits, arranged by fiscal year.
improve delivery of critical services; build
strong political and civil society institutions;       Financial Audits. By federal law (31 U.S.C.
expand economic reforms; bolster Iraq’s                chapter 75), nonfederal entities that expend
private sector economy; implement key                  $500,000 or more in federal awards annually
measures to decrease sectarian and ethnic              are required to have audits conducted in
violence; strengthen the foundation for rule           accordance with Office of Management and
of law and human rights; and transfer power            Budget (OMB) Circular A–133.           OMB’s
and autonomy to regions, provinces, and local          requirement applies to audits of States, local
municipalities.                                        governments, and nonprofit organizations
                                                       based in the United States, and audits
USAID obligations in Iraq for fiscal years (FY)        conducted pursuant to Circular A–133 are
2002 through FY 2011 totaled $8.0 billion.             sometimes referred to as “nonfederal audits.”
OIG has obligated $23.9 million from FY
2003 through FY 2011 in base appropriations            USAID requires nonprofit organizations not
and supplemental funding to provide                    based in the United States who expend
oversight to USAID activities in Iraq.                 $300,000 or more in Federal funds per year to
                                                       undergo an annual financial audit. These
Performance Audits. Our performance                    audits follow the rules and procedures
audits in Iraq have noted the mission’s                contained in the USAID-produced Guidelines
success in completing intended activities,             for Financial Audits Contracted by Foreign
performing timely reporting, and effectively           Recipients (generally called recipient-contracted
complying with congressional and USAID                 audits).
requirements in a number of instances.
OIG’s performance audit work in Iraq has               Firms selected to perform nonfederal audits
also indicated that security conditions have           and recipient-contracted audits must be
either hindered program accomplishment or              approved by OIG, which then reviews the
had the potential to create implementation             audits, summarizes the findings and
problems. Of the 56 performance audits,                recommendations, and performs quality-
reviews and memorandums issued to date,                control reviews on a limited basis.
the majority cited concerns about security
conditions. Our audits also identified trends          The agency-contracted audit (ACA) program is
in inadequate contract oversight or activities         implemented by USAID on its implementing
management (31 percent), shortcomings in               partners. Financial audits conducted under
adherence to contract procedures (10                   this program accomplish numerous goals,
percent), and internal controls that needed            such as improving accountability and internal
improvement (19 percent).         The chart            control over funds and commodities and
beginning on page 7 reflects the findings and          ensuring compliance with agreements and
recommendations of each of these audits.               applicable laws and regulations. USAID
                                                       normally requests an ACA to provide needed




                                                   5
audit coverage or to address real or perceived         The USAID Agreement Officer makes a final
problems in financial management.                      determination on the questioned costs and
                                                       seeks reimbursement from the implementing
ACAs are usually performed by independent              partner for any costs sustained.
public accounting firms that are located in the
United States but which have overseas                  Investigations. OIG’s investigative goals are
affiliates. USAID contracts to have ACA                to eliminate fraud in contracts, grants, and
audits conducted, but OIG approves the                 cooperative agreements and to prevent serious
statement of work used to procure the audit            misconduct by USAID employees.              To
services, monitors the audits, reviews the audit       accomplish these goals, special agents conduct
reports, summarizes the findings and                   investigations into possible violations of
recommendations, and performs quality-                 Federal laws, rules, and regulations. If agents
control reviews on a limited basis. OIG may            uncover reasonable suspicion to believe a
also initiate an ACA to address problems               criminal or civil crime has occurred, they
concerning a contract, grant, or cooperative           consult with the Department of Justice to
agreement, and it may enlist the services of the       determine its interest in pursuing the matter.
Defense Contract Audit Agency (DCAA) to                Investigative findings on administrative
conduct incurred audits on for-profit entities         matters are referred to Agency management
that are not based in the United States.               for action. Special agents also conduct fraud
However, DCAA performs all financial audits            awareness briefings to alert participants
on U.S.-based, for-profit entities.                    (employees,     contractors,    grantees)    to
                                                       fraudulent practices and schemes and to
Financial audits performed on USAID’s                  provide guidance on how to report fraud if it
implementing partners in Iraq are reflected in         is encountered. The chart on page 131
the chart on page 19. Questioned costs are             summarizes      OIG’s     investigative   work
costs that are questioned for reasons such as          involving Iraq.
an alleged violation of a requirement, a
finding that the cost is not supported by
adequate documentation, or a finding that the
expenditure of funds for the intended purpose
is unnecessary or unreasonable.




                                                   6
                                                                                             Iraq Performance Audit Findings and Recommendations
                                                     Report                                                                                             Total # of    Total #
          No.             Report Title                                                      Summary of Findings                                                                 Open Recommendations   USAID Response
                                                      Date                                                                                          Recommendations   Closed
FY 2003




                 Iraq Seaport Administration and
                                                                 The review found that USAID needs to improve its internal controls and process
           1    Airports Administration Contracts    25-Apr-03
                                                                 for considering security requirements of the request for proposal (RFP).
                                                                                                                                                            2           2              None.
                       (No report number)


                                                                 USAID complied with applicable federal regulations for authorizing other than
                                                                 full and open competition and with applicable federal regulations in its
                                                                 assessment and review of the contractor's ability to perform under the contract.
                 USAID's Compliance with federal
                                                                 USAID did not have a clear methodology and did not adequately document the
                 Regulations in Awarding the Iraq
           2
                   Education Sector Contract
                                                     6-Jun-03    decisions made for market research in identifying the prospective contractors.             4           4              None.
                                                                 Furthermore, USAID could not adequately demonstrate that certain events that
                      (AIG/A Memo 03-001)
                                                                 occurred during the presolicitation phase were in compliance with regulations
                                                                 and procedures addressing compliance on exchanges of information with
                                                                 prospective contractors.

                 USAID's Compliance with federal
                 Regulations in Awarding the Iraq
                                                                 USAID complied with applicable federal regulations for awarding a sole-source
           3       Personnel Support Services        20-Jun-03
                                                                 contract.
                                                                                                                                                            0           0              None.
                            Contract
                      (AIG/A Memo 03-002)

                                                                 USAID complied with applicable federal regulations for authorizing other than
                 USAID's Compliance with federal                 full and open competition and with applicable federal regulations in its
                 Regulations in Awarding the Iraq                assessment and review of the contractor's ability to perform under the contract,
           4      Infrastructure Reconstruction      23-Jul-03   except that it did not follow Federal Acquisition Regulation (FAR) requirements            2           2              None.
                             Contract                            for notification and timely debriefings to offerors who were not awarded the
                       (AIG/A Memo 03-003)                       contract. In addition, a USAID project officer did not document presolicitation
                                                                 meetings in writing.


                                                                 USAID complied with applicable federal regulations for authorizing other than
                 USAID's Compliance with federal
                                                                 full and open competition, assessing the contractor's ability to perform and
                 Regulations in Awarding the Iraq
                                                                 conducting the presolicitation, selection, and negotiation processes. However,
           5    Sub-National Governance and Civic    9-Sep-03
                                                                 in making its award USAID did not prepare and use adequate needs-based
                                                                                                                                                            1           1              None.
                   Institution Support Contract
                                                                 support for determining the level of effort or technical assistance procured
                        (AIG/I Memo 03-004)
                                                                 under the contract.


                                                               USAID complied with applicable federal regulations for authorizing other than
                 USAID's Compliance with federal
FY 2004




                                                               full and open competition; in assessing the contractor's ability to perform; in
                Regulations in Awarding the Health
                                                               conducting the presolicitation, selection, and negotiation processes; and in
           6      System Strengthening in Post-      17-Oct-03
                                                               making the award. However, in making its award, USAID did not obtain the
                                                                                                                                                            2           2              None.
                      Conflict Iraq Contract
                                                               advice of legal counsel to exclude a firm that met invitation criteria from the
                      (AIG/A Memo 03-005)
                                                               solicitation.


                 USAID's Compliance with federal               USAID, in making its award, complied with federal regulations. However, OIG
                 Regulations in Awarding the Iraq              suggested improvements in the award process to ensure (1) that adequate cost
           7    Monitoring and Evaluation Program    14-Jan-04 estimates are prepared for services and (2) that any discrepancy in the winning              1           1              None.
                     Performance Task Order                    proposal is documented in the contracts file to ensure that it is considered
                       (AIG/A Memo 04-001)                     before final selection is made.




                                                                                                                                                        7
                                                                                      Iraq Performance Audit Findings and Recommendations
                                              Report                                                                                             Total # of    Total #
No.              Report Title                                                        Summary of Findings                                                                 Open Recommendations   USAID Response
                                               Date                                                                                          Recommendations   Closed

       USAID's Compliance with federal
         Regulations in Awarding the
       Agriculture Reconstruction and
 8
        Development Program for Iraq
                                             14-Jan-04 USAID complied with applicable federal regulations for awarding the contract.                 0           0              None.
                  Contract
            (AIG/A Memo 04-002)


                                                       USAID complied with applicable federal regulations, except for the need to
                                                       document market research described in the negotiation memorandum.
       USAID's Compliance with federal                 However, OIG noted the following: (1) the contractor’s incorporation status had
       Regulations in Awarding the Iraq                lapsed before it was asked to participate in the bidding process; however, this
 9
       Airport Administration Contract
                                             27-Jan-04
                                                       lapse was corrected several days before the final contract was signed. (2)
                                                                                                                                                     1           1              None.
            (AIG/A Memo 04-003)                        USAID had not reviewed the contractor’s newly implemented cost accounting
                                                       system and provisional indirect cost rates. (3) USAID had not determined
                                                       whether the contractor needed a facilities clearance.


       USAID's Compliance with federal                 USAID complied with applicable federal regulations, except for the need to
       Regulations in Awarding the Iraq                document market research described in the negotiation memorandum. OIG
10    Seaport Assessment and Operation       27-Jan-04 noted, however, that although there was no issue of noncompliance with                        0           0              None.
                  Contract                             procurement regulations, USAID changed the facilities clearance requirements
            (AIG/A Memo 04-004)                        of the requests for proposals during the procurement process.


      Audit of USAID's Results Data for Its
11        Education Activities in Iraq      19-Mar-04 The majority of results were underreported.                                                    1           1              None.
                (E-266-04-001-P)


       USAID's Compliance with federal
         Regulations in Awarding the
                                                       USAID, in making its award, complied with applicable federal regulations
       Contract for Economic Recovery,
12
       Reform and Sustained Growth in
                                             22-Mar-04 except for the requirements to document and explain the significant                           3           3              None.
                                                       appearance of conflicts of interest.
                      Iraq
            (AIG/A Memo 04-005)


       USAID's Compliance with federal
       Regulations in Awarding the Iraq
                                                         USAID complied with the applicable federal regulations for awarding the
13      Infrastructure Reconstruction        20-Apr-04
                                                         contract.
                                                                                                                                                     0           0              None.
          Program Phase II Contract
             (AIG/A Memo 04-006)


                                                       USAID complied with federal regulations in authorizing the expedited award of
        Capping Report on the Audit of
                                                       contracts using other than full and open competition, except that it did not (1)
       USAID's Compliance with federal
                                                       adequately document market research; (2) obtain a legal analysis for conflict of
14     Regulations in Awarding the Iraq      19-May-04
                                                       interest situations; (3) notify and debrief offerors, in one contract, who were not
                                                                                                                                                     2           2              None.
              Phase I Contracts
                                                       awarded the contract; and (4) document the mitigation of an unfair competitive
               (A-000-04-003-P)
                                                       advantage.

      Audit of USAID/Iraq's Infrastructure
      Reconstruction and Rehabilitation                  USAID/Iraq's activities were on schedule to achieve all but 11 percent of the
15
                    Program
                                             3-Jun-04
                                                         planned outputs.
                                                                                                                                                     4           4              None.
                (E-266-04-002-P)




                                                                                                                                                 8
                                                                                               Iraq Performance Audit Findings and Recommendations
                                                        Report                                                                                              Total # of    Total #
          No.               Report Title                                                      Summary of Findings                                                                   Open Recommendations   USAID Response
                                                         Date                                                                                           Recommendations   Closed

                Audit of USAID/Iraq's Cash Control                 USAID/Iraq generally managed its cashiering operations in accordance with
          16                Procedures                  9-Jun-04   applicable criteria. However, it did not consider the most economical and                    5           5              None.
                          (E-266-04-001-F)                         efficient ways to operate its cashiering functions.



                 Audit of USAID's Compliance with
                federal Regulations in Awarding the
                  Iraq Phase II Reconstruction and                 USAID complied with applicable regulations in awarding the International
          17
                  Rehabilitation, Program Advisors
                                                       6-Aug-04
                                                                   Resources Group contract.
                                                                                                                                                                0           0              None.
                       and Oversight Contract
                          (E-266-04-003-P)



                  Audit of USAID/Iraq's Economic                 USAID/Iraq's activities partially achieved their intended outputs: 10 out of 38
          18             Reform Program                20-Sep-04 activities were complete, 6 were cancelled, and 22 were still in progress at the               2           2              None.
                          (E-266-04-004-P)                       time of the audit.


                 Audit of USAID's Compliance with
                federal Regulations in Awarding the                USAID complied with the applicable federal regulations for awarding the
          19
                   Iraq Basic Education Phase II
                                                       23-Sep-04
                                                                   contract.
                                                                                                                                                                0           0              None.
                   Contract     (A-000-04-004-P)




              Audit of USAID's Compliance with                     USAID (1) did not adequately document the use of less than full and open
FY 2005




             federal Regulations in Awarding the                   competition or explain its contractor choice, (2) obtained security services using
          20 Contract for Security Services in Iraq     6-Jan-05   a letter contract that did not meet FAR requirements, (3) incurred multiple                  4           4              None.
                to Kroll Government Services                       potential funds control violations, and (4) purchased armored vehicles that did
             International Inc. (A-267-05-005-P)                   not meet U.S. Government armoring standards.


                 Audit of USAID/Iraq's Community
                                                                   USAID/Iraq's Community Action Program (CAP) activities achieved 98 percent
          21              Action Program               31-Jan-05
                                                                   of their intended outputs.
                                                                                                                                                                1           1              None.
                          (E-267-05-001-P)

                Audit of USAID/Iraq's Health System
          22     Strengthening Contract Activities  28-Feb-05 USAID/Iraq's activities did not achieve 60 percent of their intended outputs.                     1           1              None.
                          (E-267-05-002-P)


                                                                 Among USAID/Iraq's electrical power sector activities, 7 of the 22 projects had
                  Audit of USAID/Iraq's Electrical               not achieved or were not achieving planned outputs. Additionally, although the
          23         Power Sector Activities           29-Jun-05 mission was addressing institutional capacity building through training and                    1           1              None.
                         (E-267-05-003-P)                        manuals, much more needs to be done to address the existing problems and
                                                                 challenges in this area.

                                                                 Among USAID/Iraq's water and sanitation rehabilitation activities, 4 out of 43
                 Audit of USAID/Iraq's Water and                 projects were not achieving planned outputs. Also, although the mission was
          24    Sanitation Rehabilitation Activities   30-Jun-05 addressing the issue of capacity building through training and manuals, its                    0           0              None.
                         (E-267-05-004-P)                        efforts encountered barriers such as the lack of local skilled personnel and
                                                                 financial resources.




                                                                                                                                                            9
                                                                                              Iraq Performance Audit Findings and Recommendations
                                                       Report                                                                                            Total # of    Total #
          No.             Report Title                                                       Summary of Findings                                                                 Open Recommendations   USAID Response
                                                        Date                                                                                         Recommendations   Closed

                                                                  USAID/Iraq properly managed its cashiering operations, and it properly
                Audit of USAID/Iraq's Cash Control
                                                                  calculated and disbursed its Foreign Service national cash payroll payments.
          25               Procedures                 27-Sep-05
                                                                  However, the mission did not require its regional representatives to sign a form
                                                                                                                                                             1           1              None.
                         (E-267-05-005-P)
                                                                  to confirm that they had received the petty cash funds sent to them.


                   Audit of the Accuracy of
FY 2006




              Biographical Datasheets Provided
          26 by International Resources Group to      6-Nov-05    No significant discrepancies were noted.                                                   0           0              None.
                  USAID for Contracts in Iraq
                       (9-267-06-001-P)

                                                                USAID's basic education activities progressed toward 33 of the 82 intended
                                                                outputs. Of the intended outputs, 27 were deleted in a revised implementation
                   Audit of USAID/Iraq's Basic                  plan due to lack of funding, and 22 had related activities planned to take place
          27          Education Activities            20-Dec-05 before the end of the contract in June 2006. USAID/Iraq lacked a plan to                     1           1              None.
                        (E-267-06-001-P)                        ensure that computer equipment would be in place to operate the education
                                                                management information system (EMIS) database the contractor was
                                                                developing.


                                                                USAID/Iraq did not manage its nonexpendable property in accordance with
                                                                USAID guidance, and the nonexpendable property database was inaccurate.
                                                                The recorded purchase value of a projected $21.3 million out of $23.5 million of
                                                                nonexpendable property could not be verified, and the mission was unable to
                    Audit of USAID/Iraq's Non-
                                                                account for a projected $2.9 million of nonexpendable property. In addition,
          28          Expendable Property             16-Feb-06
                                                                mission vehicles valued at $2.3 million were not properly safeguarded, and
                                                                                                                                                             7           7              None.
                         (E-267-06-002-P)
                                                                questions of ownership existed regarding nonexpendable property shared with
                                                                another U.S. Government agency. The audit report contained seven
                                                                recommendations, and management decisions were reached on all
                                                                recommendations.


                                                                  It was not possible to determine whether USAID/Iraq’s local governance
                                                                  activities had achieved their intended outputs because USAID/Iraq did not
                   Audit of USAID/Iraq's Local
                                                                  require the contractor to submit quarterly work plans and semiannual
          29         Governance Activities            10-Jul-06
                                                                  performance monitoring reports. Furthermore, USAID/Iraq did not properly
                                                                                                                                                             5           5              None.
                        (E-267-06-003-P)
                                                                  approve all rapid response grants, prepare contractor performance evaluations,
                                                                  or review payment vouchers submitted by the contractor.


                                                             The audit could not determine whether USAID's Transition Initiatives in Iraq had
                                                             achieved their intended outputs because of security restrictions that limited the
                                                             number of site visits auditors could make and because of insufficient
                                                             documentation maintained by the Office of Transition Initiatives in Iraq and its
             Audit of USAID Transition Initiatives
                                                             implementing partner. The audit found that a projected $146 million in grants
          30                in Iraq                16-Aug-06
                                                             did not have supporting documentation to verify the achievement of intended
                                                                                                                                                             0           0              None.
                       (E-267-06-004-P)
                                                             outputs, and a projected $294 million in grants did not have sufficient
                                                             documentation of monitoring. However, for the site visits and interviews that
                                                             auditors were able to perform for 32 selected activities, intended outputs were
                                                             met for 31 activities.



                                                                  Of the 35 intended outputs included in America's Development Foundation's
                                                                  (ADF) performance monitoring plan, USAID/Iraq's civil society activities
                                                                  achieved 17 intended outputs while 8 were reported as not met. In addition, 10
FY 2007




                Audit of USAID/Iraq's Civil Society               were not determinable because of a lack of sufficient documentation and
          31                 Activities               5-Nov-06    nonspecific reported outputs. ADF's performance monitoring plan was neither                2           2              None.
                         (E-267-07-001-P)                         complete nor achievable. The performance monitoring plan did not have
                                                                  intended outputs listed for all indicators, and security issues caused delays in
                                                                  the implementation of the program. In addition, the audit found that some
                                                                  reported outputs were not specific, accurate, and documented.




                                                                                                                                                        10
                                                                                     Iraq Performance Audit Findings and Recommendations
                                            Report                                                                                               Total # of    Total #
No.              Report Title                                                      Summary of Findings                                                                   Open Recommendations   USAID Response
                                             Date                                                                                            Recommendations   Closed

                                                      Of the 29 program activities reviewed, 16 achieved their intended outputs, 12
                                                      were on schedule to do so, and 1 will likely not achieve its intended outputs.
       Audit of USAID/Iraq's Agriculture
                                                      USAID/Iraq did not properly administer its contract with Development
       Reconstruction and Development
32
                    Program
                                            22-Jan-07 Alternatives, Inc., with regard to proper review of payment vouchers,                          1           1              None.
                                                      documentation of key events, and annual evaluations of contractor performance
                (E-267-07-002-P)
                                                      reporting. Operational requirements were given priority, and administrative
                                                      requirements were not always accomplished.


                                                        Of 16 selected intended outputs, 7 (44 percent) were achieved and had
                                                        appropriate documentation to support the achievements. The status of 2
       Follow-Up Audit of USAID/Iraq's
                                                        outputs (12 percent) could not be determined because they lacked supporting
33           Education Activities           4-Feb-07
                                                        documentation. The remaining 7 intended outputs (44 percent) were not
                                                                                                                                                     1           1              None.
              (E-267-07-003-P)
                                                        achieved. In addition, actions taken to address the recommendation from the
                                                        previous audit were not satisfactory.



                                                     Although USAID provided equipment, employed some Iraqis, and expanded
                                                     some telecommunications facilities, the $46.1 million project has yet to benefit
                                                     the millions of Iraqis as intended. Although Bechtel National Inc. completed its
             Audit of USAID/Iraq's                   work on June 30, 2006, the project had not yet achieved all intended results
34      Telecommunications Activities       3-May-07 because the U.N. Development Program and the Ministry of Electricity had not                    2           2              None.
               (E-267-07-004-P)                      completed their portions. OIG believed that Iraqis may not receive the full
                                                     benefit of a consolidated fiber network because the effort lacked staff to
                                                     oversee and coordinate the project. Also, the Iraq Ministry of Electricity
                                                     disagreed with the project from the outset.



                                                        USAID/Iraq followed the applicable guidance when planning and reporting on
                                                        selected activities. USAID/Iraq followed the 12 (Automated Directives System)
         Audit of USAID/Iraq's Activity                 ADS preobligation requirements when planning its activities and completed the
      Planning and Its Reporting Process                5 required steps for activity planning. For example, USAID/Iraq ensured that
35     under Section 2207 of Public Law     6-Jun-07    (1) there was an illustrative budget for the activity, providing a reasonably firm           0           0              None.
                    108-106                             estimate of the cost to the U.S. Government; and (2) there was a plan for
               (E-267-07-005-P)                         monitoring the performance of the activity. USAID/Iraq also ensured that it had
                                                        a procurement plan and an activity approval document and that the activity was
                                                        formally approved.



                                                        For the 4 years ending September 2006, the Office of Foreign Disaster
                                                        Assistance (OFDA) provided $190.7 million of humanitarian assistance to
                                                        internally displaced persons (IDPs) and other vulnerable populations such as
                                                        returnee communities (e.g., former IDPs in Iraq). The majority of OFDA's
         Audit of the Office of Foreign                 activities achieved their intended outputs. The audit reviewed 61 OFDA
36    Disaster Assistance Program in Iraq   11-Jul-07   activities initiated between October 1, 2004, and September 30, 2006, in four                2           2              None.
                (E-267-07-006-P)                        categories--water and sanitation, health, livelihood support, and emergency
                                                        relief commodities--and determined that 38 activities had achieved their
                                                        intended outputs, 1 activity had not fully achieved its intended output, and 22
                                                        activities lacked sufficient supporting documentation to allow the audit to
                                                        assess whether intended outputs had been achieved.



                                                        Local governance activities did not have intended outputs or baselines against
                                                        which to measure progress because USAID/Iraq failed to enforce contract
          Audit of USAID/Iraq's Local
                                                        requirements that the contractor submitted for approval, quarterly
37          Governance Activities           31-Jul-07
                                                        implementation plans detailing planned activities, or a performance monitoring
                                                                                                                                                     3           3              None.
               (E-267-07-007-P)
                                                        plan that would have set forth baselines and targets. The audit also found that
                                                        USAID/Iraq failed to perform the required contractor performance evaluations.




                                                                                                                                                11
                                                                                             Iraq Performance Audit Findings and Recommendations
                                                      Report                                                                                             Total # of    Total #
          No.             Report Title                                                      Summary of Findings                                                                  Open Recommendations   USAID Response
                                                       Date                                                                                          Recommendations   Closed


                                                              This audit was conducted to determine whether (1) USAID/Iraq coordinated the
                                                              area expertise of USAID field officers and (Provincial Reconstruction Teams)
                                                              PRTs with the technical expertise of its sector specialists, including in the
                                                              design and implementation of activities, and (2) USAID/Iraq programs were
             Audit of USAID/Iraq's Participation in           benefiting from participation in the PRTs. The audit found that although some
             Provincial Reconstruction Teams in               coordination had taken place between the USAID PRT representatives and the
          38
                             Iraq
                                                    27-Sep-07
                                                              USAID/Iraq sector specialists (its CTOs) in Baghdad, this coordination was not
                                                                                                                                                             2           2              None.
                       (E-267-07-008-P)                       sufficient. USAID PRT representatives were not being consulted regarding the
                                                              design and implementation of activities in their areas, and sometimes they were
                                                              not aware of USAID activities in their areas. Further, two out of six CTOs in
                                                              Baghdad noted that they were receiving little information from the USAID PRT
                                                              representatives.




                                                               The audit could not determine whether the Community Stabilization Program
                                                               (CSP) was achieving its intended result--to help defeat the insurgency by
                                                               reducing the incentives for participating in it--because auditors could not rely on
                                                               one of the major measurements of the program (employment generation).
FY 2008




                Audit of USAID/Iraq's Community                Further, the audit found evidence of potential fraud in CSP projects, resulting in
          39          Stabilization Program          18-Mar-08 the suspension of projects in one district of Baghdad. The lack of regular,                   14          14             None.
                         (E-267-08-001-P)                      independent site monitoring and the inadequate vetting of CSP contractors
                                                               were major factors contributing to the program's vulnerability to fraud.
                                                               Estimates of potential fraud in the district in which projects were suspended
                                                               ranged from $6.7 to $8.4 million. Evidence suggests that similar problems may
                                                               exist elsewhere in Iraq.



                Audit of USAID/Iraq's Management                 Although USAID/Iraq was complying with provisions contained in public laws to
                  of the Marla Ruzicka Iraqi War                 help ensure that funds appropriated for the Marla Ruzicka Iraqi War Victims
          40
                           Victims Fund
                                                      3-Apr-08
                                                                 Fund were used as intended, USAID/Iraq could increase the positive impact of
                                                                                                                                                             4           4              None.
                         (E-267-08-002-P)                        the Fund.


                                                                 Although USAID/Iraq managed many aspects of its vehicle fleet in accordance
                Audit of USAID/Iraq's Management
                                                                 ADS, it did not always maintain vehicle records, dispose of excess vehicles,
          41       of Its Official Vehicle Fleet     24-Jun-08
                                                                 report missing vehicles, use authorized armoring technicians, train drivers, or
                                                                                                                                                             7           7              None.
                         (E-267-08-003-P)
                                                                 equip vehicles with operable security radios in accordance with agency policy.


                                                                 USAID/Iraq's monitoring and evaluation program is generally producing
                                                                 evaluation reports that are timely, relevant, punctual, and useful for
             Audit of USAID/Iraq's Monitoring and                performance management. The reports addressed the inquiries posed by
          42  Evaluation Performance Program          3-Jul-08   USAID officials and contained recommendations that provided meaningful                      6           6              None.
                       (E-267-08-004-P)                          opportunities for enhancing program effectiveness. However, in the
                                                                 monitoring of one USAID/Iraq program, several weaknesses were found that
                                                                 diminished confidence in the reliability of some monitoring reports.


                                                                 USAID/Iraq's Community Action Program (CAP) II had accomplished many
                                                                 projects designed to create a foundation for sustainable development.
                                                                 However, regarding the achievement of planned results and impact, the audit
                                                                 found that USAID/Iraq did not ensure that baseline values for performance
                                                                 indicators designed to measure progress were determined at the beginning of
                Audit of USAID/Iraq's Community
                                                                 the program. This sometimes resulted in the establishment of unrealistic
          43            Action Program II             5-Aug-08
                                                                 targets. Also, targets for program performance indicators varied from one
                                                                                                                                                             4           4              None.
                         (E-267-08-005-P)
                                                                 source to another in such a manner that auditors could not determine
                                                                 definitively which targets were in effect during the time of the audit. Although
                                                                 USAID/Iraq has taken steps to improve the quality of performance data,
                                                                 following a prior audit of the predecessor Iraq CAP that noted data quality
                                                                 issues, data quality problems continued in the current program.




                                                                                                                                                        12
                                                                                                 Iraq Performance Audit Findings and Recommendations
                                                        Report                                                                                              Total # of    Total #
          No.              Report Title                                                         Summary of Findings                                                                 Open Recommendations   USAID Response
                                                         Date                                                                                           Recommendations   Closed

                                                                 Because of delays in the startup of the program, it was too early to determine
                                                                 whether 10 of 12 activities were achieving planned results. Further, it was too
                                                                 soon to determine the degree of impact of the program as a whole in Iraq. The
                Audit of USAID/Iraq's Agribusiness
                                                                 program only recently completed its first year of activities and has not yet
          44                 Program                   30-Sep-08
                                                                 yielded performance data for the entire first year. The program has produced
                                                                                                                                                                8           8              None.
                         (E-267-08-006-P)
                                                                 interim reports indicating that some program activities are making early
                                                                 progress toward achieving their targets. However, 2 of 12 agribusiness
                                                                 activities reviewed by the audit were not achieving intended results.



                                                                 OIG found that the program is achieving its intended results in 14 of its 20
                                                                 results indicators. However, the Ministry of Oil needed a capacity development
                                                                 plan to better focus on the achievement of the program’s long-term objective
FY 2009




                  Audit of USAID/Iraq's National                 for strengthening the ministry’s core administrative functions. Additionally, the
          45     Capacity Development Program          25-Nov-08 response rates of post-training surveys from training participants were too low                4           4              None.
                         (E-267-09-001-P)                        to ensure the validity of the survey results. USAID could improve this by
                                                                 increasing these response rates. OIG also determined that USAID could better
                                                                 demonstrate program results by including a measure for the number of study
                                                                 abroad scholarships utilized.


                                                                   USAID's implementing partners were not adequately overseeing the private
                                                                   security contractors' reporting of serious incidents to ensure that such incidents
                Audit of USAID/Iraq's Oversight of                 were reported properly. As a result, partners were not in a position to detect
          46    Private Security Contractors in Iraq   4-Mar-09    reporting deficiencies such as the ones identified by the audit, allowing some               2           2              None.
                         E-(267-09-002-P)                          incidents to be reported improperly or, in one case, not reported at all. In
                                                                   addition, incident reports issued by the security contractors were often not
                                                                   being received by USAID/Iraq.


                                                                 USAID/Iraq did not establish criteria for selecting recipients of training and,
                                                                 moreover, approved a demand-driven and decentralized approach that
                                                                 essentially allowed Iraqi officials to enroll in whatever training courses they felt
                  Audit of USAID/Iraq's Local
                                                                 would benefit them. The success or short-term impact of that significant
          47    Governance Programs II Activities      31-May-09
                                                                 amount of training on improving local governance was not measured. Officials
                                                                                                                                                                5           5              None.
                       (E-267-09-003-P)
                                                                 misused the training program by taking some courses multiple times. Also,
                                                                 progress in training Iraqi officials to use the Geographic Information System
                                                                 software to produce city maps was slow.


                                                                   After 4 years the program has not been successful in providing the foundation
                                                                   for an open, modern, mixed-market economy, and it has not made a significant
                 Audit of USAID/Iraq's Economic                    impact upon the economic environment in Iraq. USAID officials did not
          48        Governance II Program              3-Jun-09    establish a systematic mechanism to monitor the myriad tasks and thus could                  12          12             None.
                         (E-267-09-004-P)                          not track whether the tasks had been performed, were on schedule, or were
                                                                   behind schedule. As a result, fewer than half of the originally planned 398 tasks
                                                                   had been performed.




                                                                                                                                                           13
                                                                                               Iraq Performance Audit Findings and Recommendations
                                                        Report                                                                                           Total # of    Total #
          No.              Report Title                                                       Summary of Findings                                                                                 Open Recommendations                                                   USAID Response
                                                         Date                                                                                        Recommendations   Closed


                                                              The Iraq Assistance Program (IRAP) is designed to provide provincial
                                                              reconstruction teams (PRTs) in Iraq with a flexible mechanism to make funding
                                                              available to support community-based leaders and local Iraqi organizations and
                                                              institutions in their efforts to improve access to public services, education, and
                                                              economic opportunities. Grants awarded under the program, ranging from
                                                              $25,000 to $2 million, fund a variety of activities, with the overarching goal of
                 Audit of USAID/Iraq's Iraq Rapid
                                                              strengthening ties between Iraqi citizens, civil society, and governmental
          49    Assistance Program              (E- 12-Aug-09
                                                              bodies. USAID/Iraq awarded a $200 million contract to its implementing
                                                                                                                                                             3           3                                    None.
                          267-09-005-P)
                                                              partner, Development Alternatives, Inc., to manage the grants and to support
                                                              the PRTs in developing grant proposals for new projects. The performance
                                                              period for this contract covers September 28, 2007, to September 30, 2010. As
                                                              of March 31, 2009, cumulative obligations and expenditures under the program
                                                              totaled approximately $165.0 million and $64.2 million, respectively. USAID had
                                                              awarded 566 grants, valued at $75.9 million.



                                                                                                                                                                                 (2) OFDA's agreement officer should determine the allowability
                                                                                                                                                                                                                                                     OFDA’s agreement officer determined that $46,980 in
                                                                                                                                                                                 and collect, as appropriate, the $46,980 in questioned ineligible
                                                                                                                                                                                                                                                     questioned ineligible costs is disallowed. OFDA provided a
                                                                                                                                                                                 costs billed by International Medical Corps for Implementation
                                                                                                                                                                                                                                                     target date of 9/30/11 to collect the unallowable amount .
                                                                                                                                                                                 Plan No. 11 under Cooperative Agreement No. DFD-A-00-05-
                                                                                                                                                                                                                                                     This recommendation remains open.
                                                                                                                                                                                 00030-00.
                                                                 According to USAID's ADS, chapter 303.3.17, responsibilities for administering
                                                                 grants and cooperative agreements include reviewing and analyzing                                               (3) OFDA's agreement officer should determine the allowability      OFDA's agreement officer determined that $168,080 in
                                                                 performance reports, performing site visits, or other appropriate means.                                        and collect, as appropriate, the $168,080 in questioned             questioned ineligible costs is disallowed. OFDA provided a
                                                                 However, Office of Foreign Disaster Assistance (OFDA) officials did not review                                  ineligible costs billed by Mercy Corps for Project Code DY/145      target date of 9/30/11, to collect of the unallowable amount.
                                                                 or analyze partner performance reports, nor did they carry out their oversight                                  under Grant No. DFD-G-00-05-00027-00.                               This recommendation remains open.
FY 2010




                    Audit of USAID's Internally                  responsibilities to ensure that the reported number of beneficiaries was
          50 Displaced Persons Activities in Iraq      31-Mar-10 accurate. Instead, OFDA officials largely relied on their partners to ensure that           12          8
                          (E-267-10-001-P)                       the activities were undertaken diligently. Consequently, the audit team found                                   (4) OFDA's agreement officer should determine the allowability      OFDA's agreement officer determined that $373,021 in
                                                                 indications of possible fraud, which led them to question $766,490 in costs                                     and collect, as appropriate, the $373,021 in questioned             questioned ineligible costs is disallowed. OFDA provided a
                                                                 incurred by OFDA's partners, as well as numerous documentation issues with                                      ineligible costs billed by Mercy Corps for Project Cost DY/161      target date of 9/30/11, to collect of the unallowable amount.
                                                                 the number of reported beneficiaries for 35 of 73 tested activities. The level of                               under Grant No. DFD-G-00-05-00027-00.                               This recommendation remains open.
                                                                 unsubstantiated claims, as well as the possible fraud, diminished the validity,
                                                                 credibility, and usefulness of the performance results identified in the reports.

                                                                                                                                                                                 (5) OFDA's agreement officer should determine the allowability      OFDA's agreement officer determined that $178,409 in
                                                                                                                                                                                 and collect, as appropriate, the $178,409 in questioned             questioned ineligible costs is disallowed. OFDA provided a
                                                                                                                                                                                 ineligible costs billed by Mercy Corps for Project Code DY/171      target date of 9/30/11, to collect of the unallowable amount.
                                                                                                                                                                                 under Grant No. DFD-G-00-05-00027-00.                               This recommendation remains open.




                                                                                                                                                        14
                                                                                             Iraq Performance Audit Findings and Recommendations
                                                       Report                                                                                        Total # of    Total #
          No.              Report Title                                                     Summary of Findings                                                                              Open Recommendations                                            USAID Response
                                                        Date                                                                                     Recommendations   Closed


                                                            Although the USAID contractor developing the Iraq Financial Management
                                                            Information System completed a substantial systems development, equipment
                                                            procurement, and training, the system has not been fully implemented and has
                                                            not achieved its goals. The system cannot produce complete trial balances,
                                                            useful reports for individual ministries and offices, or information needed to
                                                            perform bank reconciliations. As a result, after 6 years’ of work, the system is
                                                            not functioning as the system of record for the Government of Iraq. The
                                                            contractor did not provide key contract deliverables and participants were not
                   Audit of USAID/Iraq's
                                                            satisfied with the training that the contractor had provided. OIG's auditors
             Implementation of the Iraq Financial
          51
              Management Information System
                                                  19-Sep-10 concluded that this occurred in part because the project was funded under a                  1           1                                  None.
                                                            cost-reimbursable contract that did not hold the contractor accountable for
                     (E-267-10-002-P)
                                                            noncompletion of contract deliverables. Second, in the urgent pressure to
                                                            develop the system in postwar Iraq, the contractor did not follow best practices
                                                            for systems development, including obtaining functional user requirements,
                                                            developing a concept design, obtaining customer buy-in and support, and
                                                            conducting system testing. Finally, USAID stated that a lack of support and
                                                            commitment by some officials within the Ministry of Finance of the Government
                                                            of Iraq hindered the implementation of the Iraq Financial Management
                                                            Information System.


                                                                                                                                                                                                                                          The mission's payroll specialist is coordinating with the
                                                                                                                                                                             (3) Determine the amount of underpayments in unused leave mission human resources office to obtain the personnel
                                                                                                                                                                             and severance pay to Foreign Service National employees, and actions to determine the amount of underpayments in unused
                   Audit of USAID/Iraq's Payroll                                                                                                                             pay the individuals any amounts due.                         leave and severance pay to separated foreign Service
                                                                The objective of the audit was to determine whether USAID/Iraq had properly                                                                                               National employers. This recommendation remains open.
FY 2011




                   Payments to Foreign Service
                                                                calculated and disbursed payroll payments to its Foreign Service nationals,
                Nationals, Third Country Nationals,
          52
                     and U.S. Personal Service
                                                      22-Nov-10 third-county nationals, and U.S. personal services contractors in accordance             8           6
                                                                with established regulations, policies, and procedures. The audit found that                                                                                                The mission recomputed the amounts of underpaid
                            Contractors                                                                                                                                                                                                     involuntary separate maintenance allowance and post
                                                                these payments were generally accurate.                                                                      (7) Recompute the amounts of underpayments made to
                         (E-267-11-001-P)                                                                                                                                                                                                   differential. The mission is in the process of making
                                                                                                                                                                             employees and any amounts due, and prepare bills of collection
                                                                                                                                                                                                                                            payments to employees for underpayments and has issued a
                                                                                                                                                                             to recover overpayments due from employees.
                                                                                                                                                                                                                                            bill of collection to a former employee to recover an
                                                                                                                                                                                                                                            overpayment. This recommendation remains open.


                   Survey of Security Incidents                 The purpose of this survey was (1) to determine the number of serious security
                   Reported by Private Security                 incidents that occurred between July 1, 2007 and June 30, 2009, and (2) to
          53       Contractors of USAID/Iraq's        29-Nov-10 follow up on the effectiveness of the Mission's and implementing partners'               5           5                                  None.
                    Contractors and Grantees                    actions in implementing the OIG's March 2009 audit report (E-267-09-002-P)
                        (E-267-11-001-S)                        recommendations.


             Review of USAID/Iraq's Contractors'
               Compliance with the Trafficking
          54 Victims Protection Reauthorization 12-Dec-10 This review has no recommendations.                                                            0           0                                  None.
                         Act of 2008
                      (E-267-11-002-S)




                                                                                                                                                    15
                                                                                  Iraq Performance Audit Findings and Recommendations
                                            Report                                                                                         Total # of    Total #
No.             Report Title                                                     Summary of Findings                                                                                Open Recommendations                                                   USAID Response
                                             Date                                                                                      Recommendations   Closed
                                                                                                                                                                                                                                     The Mission recognizes the importance of activity managers
                                                                                                                                                                                                                                     receiving a copy of the applicable sections of a contract or
                                                                                                                                                                                                                                     agreement so they can assess progress against contractual
                                                                                                                                                                   (3) USAID/Iraq require its contracting officer's technical
                                                                                                                                                                                                                                     or agreement requirements and agreed to incorporate in
                                                                                                                                                                   representatives to provide activity managers with copies of the
                                                                                                                                                                                                                                     future guidance that they should receive such copies. The
                                                                                                                                                                   applicable sections of contracts and agreements, such as the
                                                                                                                                                                                                                                     COTR is now providing the information to the PRT
                                                                                                                                                                   scope of work, and required deliverables to improve their ability
                                                                                                                                                                                                                                     representatives and FSN staff that they need to measure
                                                                                                                                                                   to measure progress against expected results.
                                                                                                                                                                                                                                     progress against expected results. A target date for
                                                                                                                                                                                                                                     completion is December 31, 2011. This recommendation
                                                                                                                                                                                                                                     remains open.

                                                                                                                                                                                                                                       The Mission stated that the contractor is making substantial
                                                                                                                                                                   (4) USAID/Iraq require the contractor to comply with its internal   progress in compiling its records to document and support
                                                                                                                                                                   procedures by developing an adequate records system to              subcontract costs. The Mission expects to complete its
                                                                                                                                                                   support claimed subcontract costs and verify the contractor's       review of supporting documentation for claimed subcontract
                                                                                                                                                                   completed actions.                                                  costs by December 31, 2011. This recommendation remains
                                                                                                                                                                                                                                       open.

                                                                                                                                                                                                                                       The Mission noted that implementing actions have been
                                                                                                                                                                   (5) USAID/Iraq suspend payments to the contractor for costs         completed for Recommendation 4 as required by the final
                                                                                                                                                                   related to subcontracts until implementing actions are              audit report. According to USAID/Iraq, the contractor is now
                                                                                                                                                                   completed for Recommendation 4.                                     complying with its internal procedures for records and
                                                                                                                                                                                                                                       documentation. This recommendation remains open.
                                                     USAID/Iraq's agribusiness program began in May 2007. To implement the
                                                     program, USAID/Iraq awarded a $343 million cost-plus-fixed-fee, level-of-effort                               (6) USAID/Iraq's Office of Acquisition and Assistance determine
                                                     contract to Louis Berger Group Inc. with a 3-year base period, ending April                                   the allowability of and collect, as appropriate, $9,805,244 in  No management decision has been reached on this
                                                     2010. In July 2010, USAID/Iraq modified the contract to extend it to August                                   questioned, unsupported costs for the 19 identified             recommendation and this recommendation remains open.
      Audit of USAID/Iraq's Agribusiness             2011 and to reduce the total estimated costs to $216 million. As of September                                 subcontracts.
55
          Program (E-267-11-002-P)
                                           16-May-11
                                                     30, 2010, $145 million had been obligated, and $109 million had been
                                                                                                                                               17          5
                                                     disbursed. The objective of this audit was to determine whether the                                                                                                             Mission officials are currently reviewing supporting records
                                                                                                                                                                   (7) USAID/Iraq require the contractor to comply with its internal
                                                     agribusiness program had achieved its main goal: to expand the                                                                                                                  to verify the contractor's compliance with its procedures to
                                                                                                                                                                   procedures and grant requirements within the contract by
                                                     competitiveness of the private sector in the agriculture and agribusiness                                                                                                       maintain adequate supporting records. The Mission
                                                                                                                                                                   developing an adequate records system to support claimed
                                                     sectors. The audit determined that the program had not achieved this goal.                                                                                                      anticipates the completion of the review by December 31,
                                                                                                                                                                   grant costs and verify the contractor's completed actions.
                                                                                                                                                                                                                                     2011. This recommendation remains open.

                                                                                                                                                                                                                                       The Mission noted that implementing actions have been
                                                                                                                                                                   (8) USAID/Iraq suspend payments to the contractor for costs         completed for Recommendation 7 as required by the final
                                                                                                                                                                   related to grants until implementing actions are completed for      audit report. According to USAID/Iraq, the contractor is now
                                                                                                                                                                   Recommendation 7.                                                   complying with its internal procedures for records and
                                                                                                                                                                                                                                       documentation. This recommendation remains open.

                                                                                                                                                                                                                                       The Mission will require the contractor to submit a complete
                                                                                                                                                                                                                                       inventory of grants awarded to be spot-checked by
                                                                                                                                                                   (9) USAID/Iraq make a complete inventory of grants awarded          USAID/Iraq. Additionally, the Mission will require that a
                                                                                                                                                                   by the contractor from program inception, review grant files to     sample of grants be reviewed in the incurred cost audits to
                                                                                                                                                                   ensure that documentation is adequate to support required           ensure that documentation is adequate to support
                                                                                                                                                                   procurement and monitoring requirements, and question and           procurement and monitoring requirements and to question
                                                                                                                                                                   collect amounts for those grants not adequately supported.          and collect for those grants not adequately supported. The
                                                                                                                                                                                                                                       Mission expects this action to be completed by December
                                                                                                                                                                                                                                       31, 2011. This recommendation remains open.

                                                                                                                                                                   (10) USAID/Iraq's Office of Acquisition and Assistance
                                                                                                                                                                   determine the allowability of and collect, as appropriate,          No management decision has been reached on this
                                                                                                                                                                   $6,947,938 in questioned, unsupported costs for the five            recommendation and this recommendation remains open.
                                                                                                                                                                   identified grants with special conditions.




                                                                                                                                          16
                                                                                    Iraq Performance Audit Findings and Recommendations
                                           Report                                                                                                   Total # of    Total #
No.             Report Title                                                       Summary of Findings                                                                                       Open Recommendations                                                 USAID Response
                                            Date                                                                                                Recommendations   Closed

                                                                                                                                                                            (11) USAID/Iraq's Office of Acquisition and Assistance
                                                                                                                                                                            determine the allowability of and collect, as appropriate,        No management decision has been reached on this
                                                                                                                                                                            $6,296,758 in questioned, unsupported costs for the three         recommendation and this recommendation remains open.
                                                                                                                                                                            identified grants to microfinance institutions.

                                                                                                                                                                                                                                              The Mission compiled a listing of all the evaluations and
                                                                                                                                                                                                                                              assessments performed during FYs 2009 and 2010. Of the
                                                                                                                                                                            (12) USAID/Iraq review its evaluations issued during fiscal       23 evaluations, assessments, and studies, 12 were shared
                                                                                                                                                                            years 2009 and 2010 to determine whether they have all been       with implementing partners, 9 were not shared with
                                                                                                                                                                            appropriately shared with implementing partners, and if not,      implementing partners because the programs had ended.
                                                                                                                                                                            immediately share the evaluation results.                         One was not relevant due to the time lapsed and the other
                                                                                                                                                                                                                                              was shared with the implementing partner's Chief of Party.
                                                                                                                                                                                                                                              This recommendation remains open.
                                                                                                                                                                                                                                              Mission officials stated that the contractor's property
                                                                                                                                                                                                                                              accounting system was one of the systems currently being
55                                                                                                                                                                                                                                            updated by the contractor in order to meet the terms of the
                                                                                                                                                                                                                                              administrative settlement in November 2010 between USAID
                                                                                                                                                                            (16) USAID/Iraq require the contractor to submit its property
                                                                                                                                                                                                                                              and the contractor. Under that settlement, the contractor's
                                                                                                                                                                            accounting system for approval and determine whether that
                                                                                                                                                                                                                                              accounting policies and procedures are being revised to
                                                                                                                                                                            system is acceptable for managing government property
                                                                                                                                                                                                                                              ensure that cost accounting by the contractor is true,
                                                                                                                                                                            according to USAID Acquisition Regulation requirements.
                                                                                                                                                                                                                                              accurate, and complete and follows the applicable federal
                                                                                                                                                                                                                                              statutes and regulations. The Mission expects to complete
                                                                                                                                                                                                                                              final action by March 31, 2012. This recommendation
                                                                                                                                                                                                                                              remains open.

                                                                                                                                                                                                                                           The Mission has tasked the contractor to provide the required
                                                                                                                                                                            (17) USAID/Iraq require the contractor to submit annual
                                                                                                                                                                                                                                           summaries for years 2007 through 2010 to comply with
                                                                                                                                                                            property reports for government property for 2007, 2008, 2009,
                                                                                                                                                                                                                                           USAID Acquisition Regulation requirements. The Mission
                                                                                                                                                                            and 2010 according to USAID Acquisition Regulation
                                                                                                                                                                                                                                           expects to complete final action on this recommendation by
                                                                                                                                                                            requirements.
                                                                                                                                                                                                                                           December 31, 2011. This recommendation remains open.


                                                                                                                                                                                                                                              The Mission required the contractor to revise its performance
                                                                                                                                                                                                                                              monitoring plan to include indicators and targets for reaching
                                                                                                                                                                            (1) USAID/Iraq revise its performance monitoring plan to          poor borrowers. The revision to the performance monitoring
                                                                                                                                                                            include performance indicators and targets for reaching poor      plan also included updating the Performance Indicator
                                                                                                                                                                            borrowers for the remaining 2 years of the Provincial Economic    Reference Sheets to explain known data limitations and data
                                                                                                                                                                            Growth Program, particularly for microfinance institutions that   sources. The contractor submitted the revised plan to the
                                                                                                                                                                            have attained performance targets for financial sustainability.   Mission for review and approval and the Mission expects to
                                                      According to USAID, continued stability in Iraq requires activities that stimulate                                                                                                      complete its implementation of these actions by September
                                                      private sector growth and create jobs, as microfinance activities do.                                                                                                                   30, 2011. This recommendation remains open.
      Audit of USAID/Iraq's Microfinance              Microfinance provides small amounts of credit to borrowers who lack access to
        Activity Under Its Provincial                 it. In Iraq, because there is little tradition of credit or bank lending and collateral
56                                         4-Aug-11                                                                                                     3           0       (2) USAID/Iraq require the contractor to update its performance
         Economic Growth Program                      requirements are high, many poor and low-income individuals are excluded                                                                                                              See Recommendation 1. This recommendation remains
                                                                                                                                                                            monitoring plan to specify data review mechanisms, identify
               (E-267-11-003-P)                       from bank services. Microfinance institutions were established in Iraq starting in                                                                                                    open.
                                                                                                                                                                            any known data limitations, and clarify data sources.
                                                      2003 with funds from the U.S. Government to provide financial services to this
                                                      population.
                                                                                                                                                                                                                                          The Mission plans to conduct a data quality assessment in
                                                                                                                                                                                                                                          October 2011. The contractor is including in the revised
                                                                                                                                                                                                                                          performance monitoring plan a data review mechanism to
                                                                                                                                                                            (3) USAID/Iraq perform a data quality assessment of the jobs
                                                                                                                                                                                                                                          verify and validate the data on jobs created and sustained.
                                                                                                                                                                            performance indicator: number of jobs (new and existing) that
                                                                                                                                                                                                                                          The Mission will inspect these systems and document the
                                                                                                                                                                            are sustained at firms receiving microloans.
                                                                                                                                                                                                                                          review in a formal data quality assessment and expects to
                                                                                                                                                                                                                                          complete this assessment by December 30, 2011. This
                                                                                                                                                                                                                                          recommendation remains open.

56 Performance Audits Issued                                                                                                                                                              Total Recommendations                                                           179
                                                                                                                                                                                           Recommendations Open                                                            21




                                                                                                                                                   17
 


 




    18 
 
                                                                Iraq Financial Audit Findings
                                                                         Report      Total Costs   Questioned   Sustained   Details for Questioned Costs
No.                   Audit Title                     Report Number
                                                                          Date        Audited        Costs        Costs            over $1 million
      Report on Evaluation of Timekeeping
 1                                                      E-266-04-001-D   31-Oct-03        $0           $0          N/A
      Procedures and Practices of SSA Marine

      Audit of Kroll Associates, Inc.'s
 2    Proposal for USAID Contract No.267-C-00-03- E-266-04-002-D         4-Nov-03         $0           $0          N/A
      00001-00
      Report on SSA Marine’s Usage and
      Controls of Materials and Services Procured
 3                                                      E-266-04-003-D   4-Nov-03         $0           $0          N/A
      Under USAID Contract TRN-C-00-03-00054-
      00

      Survey of Kroll and Associates Inc.’s
 4                                                      E-266-04-004-D   19-Nov-03        $0           $0          N/A
      Accounting System

      Audit of Creative Associates
 5    International, Inc.’s (CAII) Internal             E-266-04-006-D   20-Nov-03        $0           $0          N/A
      Controls for the Awarding of Grants

      Audit of SSA Marine’s Controls over Port
      Revenues and Expenses at Um Qasr, Iraq
 6                                                      E-266-04-007-D   5-Dec-03         $0           $0          N/A
      Under USAID Contract No. TRN-C-00-03-
      00054-00

      Report on Evaluation of Bechtel National,
      Inc.’s Compliance with Established
 7    Timekeeping System Policies and Procedures        E-266-04-009-D   4-Jan-04         $0           $0          N/A
      for Recording Labor Charges Under USAID
      Iraq Infrastructure Reconstruction Contract
      No. EEE-C-00-03-00018-00


      Audit of Bechtel National, Inc.’s Internal
      Controls of Subcontract Awards Under USAID
 8                                                      E-266-04-008-D   5-Jan-04         $0           $0          N/A
      Iraq Infrastructure Reconstruction Contract
      No. EEE-C-00-03-00018-00


      Report on Evaluation of Skylink Air &
      Logistical Support, Inc.’s Compliance
 9    with Established Timekeeping System Policies E-266-04-010-D        13-Jan-04        $0           $0          N/A
      and Procedures for Recording Labor Charges
      Under USAID Contract No. DFD-C-00-03-
      00026-00

      Audit of Costs Incurred and Billed by
      SkyLink Air and Logistic Support,
10 Inc. Under USAID Contract DFD-C-00-03-               E-266-04-011-D   14-Jan-04    $3,397,664     $81,834     $74,151
   00026-00 from March 21, 2003, through
   October 31, 2003
   Report on Evaluation of the International
   Resources Group’s (IRG) Compliance
11 with Established Timekeeping System Policies E-266-04-012-D           15-Jan-04        $0           $0          N/A
   and Procedures for Recording Labor Charges
   Under USAID Contract No. EMT-C-00-03-
   00007
   Audit Report on Skylink Air & Logistical
   Support (USA), Inc.’s Usage and
12 Controls of Materials and Services Procured  E-266-04-013-D           9-Feb-04     $369,226         $0          N/A
   Under USAID Contract No. DFD-C-00-03-
   00026-00

   Report on the Audit of the Accounting System
13 of Skylink Air & Logistical Support                  E-266-04-014-D   9-Feb-04         $0           $0          N/A
      (USA), Inc.

   Evaluation of Bechtel National, Inc.’s
   Usage and Controls of Materials and Services
14 Procured Under USAID Iraq Infrastructure             E-266-04-015-D   9-Feb-04         $0           $0          N/A
   Reconstruction Contract No. EEE-C-00-03-
   00018-00




 * All audits conducted by the Defense Contract Audit Agency.                        19
                                                                Iraq Financial Audit Findings
                                                                         Report      Total Costs   Questioned   Sustained   Details for Questioned Costs
No.                   Audit Title                     Report Number
                                                                          Date        Audited        Costs        Costs            over $1 million
   Audit of Costs Incurred by Bechtel
   National, Inc. Under USAID Iraq
15 Infrastructure Reconstruction Contract EEE-C- E-266-04-016-D          12-Feb-04   $48,710,691       $0          N/A
   00-03-00018-00 from April 17, 2003,
   (Inception of the Contract) to August 31, 2003

   Audit of the Accounting Controls of Bechtel
16 National, Inc. Under USAID’s Iraq             E-266-04-017-D          12-Feb-04        $0           $0          N/A
   Infrastructure Reconstruction Contract EEE-C-
   00-03-00018-00

      Audit of Bechtel National, Inc.’s
      Subsidiary Billing System for USAID’s Iraq
17                                                  E-266-04-018-D       12-Feb-04        $0           $0          N/A
      Infrastructure Reconstruction Contract EEE-C-
      00-03-00018-00

      Audit Report on Review of Costs Incurred and
      Billed by SSA Marine (SSA) Under USAID
18                                                      E-266-04-019-D   12-Feb-04    $1,559,153     $44,334     $11,275
      Contract TRN-C-00-03-00054-00 as of August
      12, 2003

   Audit Report on International Resources
19 Group’s (IRG) Usage and Controls of                  E-266-04-020-D   14-Feb-04    $2,457,150     $41,332     $26,144
   Materials and Services Procured Under
   USAID Contract No. EMT-C-00-03-00007

      Report on Evaluation of Abt Associates,
      Inc.’s Compliance with Established
20 Timekeeping System Policies and Procedures           E-266-04-021-D   15-Feb-04        $0           $0          N/A
   for Recording Labor Charges Under USAID
   Contract No. RAN-C-00-03-00010-00

   Audit of Costs Incurred and Billed by Abt
21 Associates, Inc. Under USAID Contract                E-266-04-022-D   15-Feb-04    $3,702,739    $161,008      $9,199
   No. RAN-C-00-03-00010-00 from July 18,
   2003, through October 24, 2003

      Report on Evaluation of BearingPoint,
      Inc.’s (BearingPoint) Compliance with
22 Established Timekeeping System Policies and          E-266-04-023-D   15-Feb-04        $0           $0          N/A
   Procedures for Recording Labor Charges
   Under USAID Contract No. RAN-C-00-03-
   00043-00
      Report on Evaluation of Creative
   Associates International, Inc.’s (CAII)
23 Compliance with Established Timekeeping              E-266-04-024-D   21-Feb-04        $0           $0          N/A
   System Policies and Procedures for
   Recording Labor Charges Under USAID
   Contract No. EDG-C-00-03-00011-00

      Report on Audit of Creative Associates
      International, Inc.’s (CAII) Usage and
24 Controls of Materials and Services Procured          E-266-04-025-D   26-Feb-04        $0           $0          N/A
   Under USAID Contract No. EDG-C-00-03-
   00011-00

      Audit of Costs Incurred and Billed by
      Research Triangle Institute (RTI) under
25 USAID Contract No. EDG-C-00-03-00010-00              E-266-04-026-D   26-Feb-04   $32,660,570     $28,000     $28,000
   from March 26, 2003, through November 30,
   2003




 * All audits conducted by the Defense Contract Audit Agency.                        20
                                                                Iraq Financial Audit Findings
                                                                         Report      Total Costs   Questioned    Sustained     Details for Questioned Costs
No.                   Audit Title                     Report Number
                                                                          Date        Audited        Costs         Costs              over $1 million
                                                                                                                             Auditors found that Research Triangle
                                                                                                                             Institute (RTI) did not have written
                                                                                                                             policies and procedures and lacked
                                                                                                                             internal controls for its material and
   Report on the Audit of Research Triangle
                                                                                                                             equipment handling processes, to
26 Institute’s (RTI) Usage and Controls of              E-266-04-027-D   26-Feb-04   $12,669,538   $12,669,538      $0       include receiving, storing, and issuing for
   Materials and Services Procured Under                                                                                     its Iraq operations. As a result, OIG
   USAID Contract No. EDG-C-00-03-00010-00                                                                                   questioned the total amount billed to
                                                                                                                             USAID by RTI for materials and
                                                                                                                             equipment from the inception of the
                                                                                                                             contract through November 30, 2003.

   Audit of Costs Incurred and Billed by
   Creative Associates International,
27 Inc. (CAII) Under USAID Contract No. EDG-            E-266-04-028-D   28-Feb-04   $30,403,887     $11,606      $11,606
   C-00-03-00011-00 from April 11, 2003,
   through October 31, 2003

   Report on Evaluation of Abt Associates,
28 Inc.’s Usage and Controls of Materials and           E-266-04-029-D   1-Mar-04     $477,944       $10,282        $0
   Equipment Procured Under USAID Contract
   No. RAN-C-00-03-00010-00

   Report on the Evaluation of Research
   Triangle Institute’s (RTI) Compliance
29 with Established Timekeeping System Policies E-266-04-030-D           7-Mar-04         $0         $25,353      $25,353
   and Procedures for Recording Labor Charges
   Under USAID Contract No. EDG-C-00-03-
   00010-00

      Audit of Costs Incurred and Billed by
      Management Systems International
30 (MSI) Under USAID Contract AEP I-00-00-              E-266-04-031-D   10-Mar-04    $1,938,500       $0           N/A
   00024-00 from June 25, 2003, through
   January 30, 2004

   Audit of Costs Incurred and Billed by the
   International Resources Group (IRG)
31 Under USAID Contract No. EMT-C-00-03-                E-266-04-032-D   10-Mar-04    $9,842,782    $134,084       $821
   00007 from February 5, 2003, through
   August 31, 2003

      Audit of Costs Incurred and Billed by
32
      BearingPoint, Inc. Under USAID Contract           E-266-04-033-D   24-Mar-04    $7,892,736     $65,224      $48,603
      RAN-C-00-03-00043-00 from July 18, 2003,
      through November 30, 2003.
   Costs Incurred and Billed by Development
   Alternatives, Inc. (DAI) Under USAID
33 Prime Contract No. HDA-I-00-03-00061-00              E-266-04-034-D   12-Apr-04   $27,377,961     $96,275        $0
   and Subcontract No. 3825-100-03S-001, for
   the period January 6, 2003, to December 31,
   2003
   Report on Audit of Proposed Iraq
   Infrastructure Reconstruction
34 Project (IIRP) Controller Procedure 5AP-             E-266-04-035-D   14-May-04        $0           $0           N/A
      A01-018 for Estimating, Accumulating and
      Recovering Direct Common Costs

   Costs Incurred and Billed by Creative
   Associates International Inc.’s (CAII)
35 Under USAID Contract No. EDG-C-00-03-                E-266-04-036-D   27-May-04   $17,457,385     $45,314      $45,314
   00011-00 for the period ended November 1,
   2003, through February 28, 2004

      Audit of Bechtel National Inc.'s
      Proposed Common Cost Pool Recovery Rate
36                                                      E-266-04-037-D   18-Jun-04        $0           $0           N/A
      Under Reconstruction Project (IIRP) Phase I
      and II




 * All audits conducted by the Defense Contract Audit Agency.                        21
                                                                Iraq Financial Audit Findings
                                                                         Report      Total Costs    Questioned    Sustained     Details for Questioned Costs
No.                   Audit Title                     Report Number
                                                                          Date        Audited         Costs         Costs              over $1 million
   Report on Audit of Costs Incurred by Abt
37 Associates, Inc. from October 25, 2003,              E-266-04-038-D   20-Jun-04   $13,414,124     $120,150       $7,726
   through March 26, 2004, Under USAID
   Contract No. RAN-C-00-03-00010-00
                                                                                                                              OIG questioned costs that were claimed
   Audit Report on Review of Costs Incurred and                                                                               by SSA but were ineligible based on its
                                                                                                                              contract with USAID. These costs
   Billed by SSA Marine on Voucher Nos. 3
38                                                      E-266-04-039-D   30-Jun-04    $6,807,643     $1,131,456    $33,519    related to direct labor and labor
   through 7 Under Contract No. TRN-C-00-03-
                                                                                                                              overhead costs, international and
   00054-00
                                                                                                                              domestic travel costs, and administrative
                                                                                                                              fees.

      Audit Report on Review of Billed Costs by
39
      SkyLink Air and Logistic Support                  E-266-04-040-D   19-Jul-04    $8,556,787      $49,372      $49,372
      from November 1, 2003, to February 29,
      2004, Under Contract DFD-C-00-03-00026-00

      Record of Labor Timekeeping System Used
      by Bechtel National, Inc. Under Contract
40                                                      E-266-04-041-D   5-Aug-04         $0            $0           N/A
      Nos. EEE-C-00-03-00018-00 and SPU-C-00-
      04-00001-00

   Audit of Costs Incurred and Billed by
   Research Triangle Institute (RTI)
41 Under USAID Contract No. EDG-C-00-03-                E-266-04-042-D   9-Aug-04    $100,963,881    $511,582      $368,203
   00010-00 from December 1, 2003, through
   March 25, 2004

   Audit of Incurred Direct Costs Under Iraq                                                                                  OIG questioned costs that were claimed
                                                                                                                              by Bechtel National, Inc., but were
   Infrastructure Reconstruction by Bechtel
                                                                                                                              ineligible based on its contract with
42 National, Inc. Under Contract EEE-C-00-              E-266-04-044-D   4-Sep-04    $239,157,315    $1,793,351    $390,145
                                                                                                                              USAID. These costs related to travel,
   03-00018-00 from September 1, 2003,                                                                                        communications, direct labor, other
   through February 29, 2004                                                                                                  employee payments, and insurance.
   Audit of Costs Incurred and Billed to USAID by
   the International Resources Group
43 (IRG) Under Contract No. EMT-C-00-03-          E-267-05-001-D         21-Oct-04   $28,138,806        $0           N/A
   00007 from September 1, 2003, to March 31,
   2004

      Audit on Kroll Government Services,
      Inc. Related to Labor Provided for Security
44 Services Under USAID Contract No. 267-C-00- E-267-05-002-D            17-Jan-05        $0            $0           N/A
   03-00001-00 from April 1, 2004, to December
   31, 2004

      Audit of Materials, Equipment, and Services
      Incurred Under USAID Contract No. EDG-C-
45                                                      E-267-05-003-D   29-Jan-05        $0            $0           N/A
      00-03-00010-00 with Research Triangle
      Institute (RTI)
   Audit of Costs Incurred Under Subcontracts
   24910-TSC-003 and 24910-GSC-005
   (Bechtel National, Inc. is prime and
46                                                      E-267-05-004-D   10-Feb-05   $31,083,699      $13,015        $0
   ArmorGroup Services Limited is the
   subcontractor) from May 1, 2003, through
   September 30, 2004

      Audit of Incurred Costs Submitted on Voucher
      Nos. 8 through 12 for Contract No. TRN-C-00-
47                                                      E-267-05-005-D   19-Feb-05    $4,900,697     $312,041      $97,079
      03-00054-00 with Stevedoring Services
      of America (now known as SSA Marine)
      Audit of Costs Billed Under Parsons
      Infrastructure and Technology
48 Group Subcontract No. 24964-000-ESU-                 E-267-05-006-D   27-Feb-05    $7,388,916     $139,867      $139,867
   W000-001 from January 12, 2004, through
   September 24, 2004




 * All audits conducted by the Defense Contract Audit Agency.                        22
                                                                Iraq Financial Audit Findings
                                                                         Report      Total Costs   Questioned    Sustained     Details for Questioned Costs
No.                   Audit Title                     Report Number
                                                                          Date        Audited        Costs         Costs              over $1 million
   Audit of Costs Billed on Development
   Alternatives, Inc. (DAI) Prime Contract
49 Nos. HDA-I-00-03-00061-00 from January 1,     E-267-05-007-D          1-Mar-05    $57,800,375     $9,475        $9,475
   2004, through April 5, 2004, and DOT-I-00-03-
   00004-00 from February 5, 2004, to August
   31, 2004

                                                                                                                             OIG questioned $1,189,543 in costs that
                                                                                                                             were claimed by Bearing Point, Inc., but
                                                                                                                             were ineligible based on its contract with
                                                                                                                             USAID. These costs related to salaries,
      Audit of Costs Incurred and Billed to USAID by                                                                         foreign allowances, and associated
50
      BearingPoint, Inc. Under Contract No.          E-266-04-043-D      17-Mar-05   $27,540,524    $5,117,424      $0
                                                                                                                             indirect and general and administrative
      RAN-C-00-03-00043-00 from December 1,                                                                                  costs. Additionally, OIG questioned
      2003, to March 31, 2004                                                                                                $3,927,881 in costs that could not be
                                                                                                                             supported by documentation; $3,851,864
                                                                                                                             of these unsupported costs were for
                                                                                                                             costs claimed by one of Bearing Point,
                                                                                                                             Inc.'s subcontractors, Custer Battles.

      Audit of Costs Incurred by Mercy Corps
      Under USAID Cooperative Agreement No.
51                                                      E-267-05-008-D   22-Mar-05   $12,346,972       $0           N/A
      AFP-A-00-03-00001-00 from May 16, 2003,
      through July 31, 2004

   Audit of Costs Incurred by Agricultural
   Cooperative Development
   International / Volunteers Overseas
52 Cooperative Assistance (ACDI/VOCA)                   E-267-05-009-D   21-Apr-05   $11,034,825     $8,609         $0
      Under USAID Cooperative Agreement No.
      AFP-A-00-03-00003-00 from May 16, 2003,
      through July 31, 2004

      Audit of Skylink Air & Logistical
      Support (USA), Inc.'s Labor Systems
53 and Controls Under Contract No. DFD-C-00-            E-267-05-010-D   28-Apr-05        $0           $0           N/A
   03-00026-00 Conducted on December 28,
   2004, and January 13, 2005

   Audit of Costs Billed by Research
54 Triangle   Institute (RTI) Under Contract            E-267-05-011-D   15-May-05   $57,989,243    $417,522      $415,432
      No. EDG-C-00-03-00010-00 for the Period of
      March 26, 2004, through September 30, 2004

      Audit of Costs Billed by Creative

55
      Associates International, Inc. (CAII)             E-267-05-012-D   17-May-05    $7,940,613     $36,921      $36,921
      Under Contract No. EDG-C-00-03-00011-00
      from March 1, 2004, through August 31, 2004


                                                                                                                             OIG questioned $440,210 in costs that
                                                                                                                             were claimed by BearingPoint, Inc., but
                                                                                                                             were ineligible based on its contract with
                                                                                                                             USAID. These costs related to salaries
                                                                                                                             and wages, foreign allowances, travel,
      Audit of Costs Incurred and Billed to USAID by
                                                                                                                             subcontractors, and other costs.
56
      BearingPoint, Inc. Under USAID Contract E-267-05-013-D             14-Jun-05   $38,447,166   $13,331,840      $0       Additionally, OIG questioned
      No. RAN-C-00-03-00043-00, April 1, 2004,
                                                                                                                             $12,891,630 in costs that could not be
      through September 30, 2004
                                                                                                                             supported by documentation;
                                                                                                                             $10,745,677 of these unsupported costs
                                                                                                                             was for costs claimed by one of
                                                                                                                             BearingPoint, Inc.'s subcontractors, Kroll
                                                                                                                             Government Services International.


   Audit of Costs Incurred and Billed by the
   International Resources Group from
   April 1, 2004, through May 4, 2004, Under
57                                                      E-267-05-014-D   16-Jun-05   $21,061,361       $0           N/A
   Contract No. EMT-C-00-03-00007 and from
   May 4, 2004, through October 31, 2004,
   Under Contract No. 517-C-00-04-00106-00




 * All audits conducted by the Defense Contract Audit Agency.                        23
                                                                Iraq Financial Audit Findings
                                                                         Report      Total Costs    Questioned   Sustained   Details for Questioned Costs
No.                   Audit Title                     Report Number
                                                                          Date        Audited         Costs        Costs            over $1 million

   Audit of Costs Incurred by Bechtel
   National Inc. from March 1, 2004, to
58 September 30, 2004, Under Contract No. EEE- E-267-05-015-D            16-Jun-05   $349,513,595    $118,417     $118,417
   C-00-03-00018-00 and from January 5, 2004,
   to September 30, 2004, Under Contract No.
   SPU-C-00-04-00001-00


   Audit of Costs Incurred and Billed by Abt
59 Associates Inc. from April 1, 2004,                  E-267-05-016-D   27-Jun-05    $7,212,265      $12,749     $12,749
   through September 24, 2004, Under Contract
   No. RAN-C-00-03-00010-00

      Audit of SkyLink Air and Logistic
      Support (USA), Inc. Costs for the Period
60 March 1, 2004, through September 30, 2004,           E-267-05-017-D   27-Jun-05   $10,358,264     $301,218     $277,484
   Under USAID Contract No. DFD-C-00-03-
   00026-00

      Audit of Costs Incurred by Save the
      Children Federation, Inc. (SCF) Under
61 USAID Cooperative Agreement No. AFP-A-00- E-267-05-018-D              22-Sep-05   $12,093,435        $0          N/A
   03-00005 from May 16, 2003, through July 31,
   2004

      Audit of Costs Incurred by Siemens
      Westinghouse Under Subcontract No.
62 24910-30N-ESL- MG00-001 and Subcontract              E-267-05-020-D   22-Sep-05    $7,823,102        $0          N/A
   No. 24910-30B-ESD-MGSO-013 from
   Inception until September 30, 2004
   Audit of Material and Services Procured by
   Bechtel National, Inc. Under Contract
63 No. EEE-C-00-03-00018-00 and SPU-C-00-04 E-267-05-019-D               23-Sep-05   $189,100,000       $0          N/A
   00001-00 Between January and February
   2005
   Evaluation of Labor Timekeeping System
   Used by Bechtel National, Inc. (BNI)
64 Under USAID Contract Nos. EEE-C-00-03-               E-267-06-001-D   5-Oct-05         $0            $0          N/A
   00018-00 and SPU-C-00-04-00001-00
   between February and July 2005
   Audit of Costs Incurred by CHF
65 International Under USAID Cooperative        E-267-06-004-D           1-Feb-06    $14,681,152     $284,569     $46,362
   Agreement No. AFP-A-00-03-00004 from May
   16, 2003, through July 31, 2004
   Audit of Costs Incurred and Billed by
   America’s Development Foundation
66 (ADF) Under USAID Contract No. GEW-C-00- E-267-06-005-D               12-Feb-06   $12,479,675     $100,145       $0
   04-00001, for the period August 16, 2004, to
   June 30, 2005

   Audit of Costs Incurred by Louis Berger
67 Group Inc. Under Contract No. 267-C-00-              E-267-06-006-D   22-Feb-06   $15,273,075      $5,094       $5,094
   04-0435-00 from October 1, 2004, to July 31,
   2005

   Audit of System for Request for Equitable
   Adjustment (REA) Procedures by Bechtel
68 National, Inc. Under USAID Contract No.              E-267-06-002-D   28-Feb-06   $25,262,605        $0          N/A
   EEE-C-00-03-00018-00 and SPU-C-00-04-
   00001-00

   Audit of Costs Incurred by Development
69 Alternatives, Inc. (DAI) Under Contract              E-267-06-007-D   23-Apr-06   $18,505,566      $7,403       $6,829
   No. RAN-C-00-04-00002-00 from October 15,
   2004, through June 30, 2005




 * All audits conducted by the Defense Contract Audit Agency.                        24
                                                                Iraq Financial Audit Findings
                                                                         Report      Total Costs   Questioned    Sustained      Details for Questioned Costs
No.                   Audit Title                     Report Number
                                                                          Date        Audited        Costs         Costs               over $1 million
                                                                                                                              OIG questioned $192,390 in costs that
   Audit of Costs Incurred by International                                                                                   were claimed by IRD but were ineligible
   Relief and Development, Inc. (IRD)                                                                                         based on its contract with USAID.
70 Under USAID Cooperative Agreement No.                E-267-06-008-D   18-May-06   $11,627,091    $1,018,326    $15,319     These costs related to consultant fees,
   AFP-A-00-03-00002 from May 16, 2003,                                                                                       travel, and security. Additionally, OIG
   through July 31, 2004                                                                                                      questioned $825,936 in costs that could
                                                                                                                              not be supported by documentation.

      Audit of Costs Incurred by Cooperative
      Housing Federation International
71 Under Cooperative Agreement No. AFP-A-00-            E-267-06-009-D   6-Jun-06    $16,015,713     $59,418      $28,499
   03-00004-00 from August 1, 2004, to July 31,
   2005

                                                                                                                              Because of numerous deficiencies in the
   Audit of Costs Billed by Research                                                                                          timekeeping system for a Research
                                                                                                                              Triangle Institute (RTI) subcontractor,
72 Triangle Institute (RTI) Under Contract              E-267-06-010-D   15-Jun-06    $8,751,175    $8,715,875    $406,700
   No. EDG-C-00-03-00010-00 for the Period of                                                                                 Unity Resources Group LLC (URG), OIG
   March 26, 2004, through September 30, 2004                                                                                 questioned all billed costs during the
                                                                                                                              audited period of URG.

                                                                                                                              OIG questioned $169,631 in costs that
                                                                                                                              were claimed by RTI but were ineligible
                                                                                                                              based on its contract with USAID.
                                                                                                                              These costs related to foreign
      Audit of Costs Incurred and Billed by                                                                                   allowances, travel, and subcontractors.
                                                                                                                              Additionally, OIG questioned $19,572 in
   Research Triangle Institute (RTI)
                                                                                                                              subcontractor costs that could not be
73 Under USAID Contract No. EDG-C-00-03-                E-267-06-011-D   23-Jun-06   $37,697,918    $8,141,150    $189,203
                                                                                                                              supported by documentation. Lastly,
      00010-00 for the Period October 1, 2004,                                                                                because of numerous deficiencies in the
      through July 31, 2005                                                                                                   timekeeping system for a Research
                                                                                                                              Triangle Institute subcontractor, Unity
                                                                                                                              Resources Group LLC (URG), OIG
                                                                                                                              questioned all billed costs during the
                                                                                                                              audited period of URG.

   Audit of Invoices Submitted on Kroll
74 Government Services Inc. Under                       E-267-06-012-D    2-Jul-06    $1,351,643       $0           N/A
   Subcontract No. AID-2004-T-00043-000-0021
   from February 2004 to September 2004

   Audit of Costs Incurred by Creative
75 Associates International, Inc. Under                 E-267-06-013-D    3-Jul-06   $17,479,711     $1,314        $1,314
   Contract No. EPP-C-00-04-00004-00 from
   July 1, 2004, through June 30, 2005

                                                                                                                              OIG questioned $627,960 in costs that
                                                                                                                              were claimed by BearingPoint, Inc., but
                                                                                                                              were ineligible based on its contract with
   Audit of Costs Incurred by BearingPoint,
                                                                                                                              USAID. These costs related to salaries
76 Inc. Under Contract No. 267-C-00-04-00405            E-267-06-014-D    6-Jul-06   $37,367,611    $1,695,484   $1,017,536
                                                                                                                              and wages, travel, and equipment.
   from September 4, 2004, to July 31, 2005                                                                                   Additionally, OIG questioned $1,067,524
                                                                                                                              in costs that could not be supported by
                                                                                                                              documentation.

      Audit of Costs Incurred by International
      Business & Technical Consultants,
77 Inc. Under Contract No. 267-C-0500508-00             E-267-06-015-D   27-Jul-06    $3,372,384     $7,235        $7,235
   for the period of May 31, 2005, through
   December 31, 2005

      Audit of Costs Incurred by Crown Agents
      Consultancy, Inc. Under Subcontract No.
   1100-003 with International Resources Group,
78 Inc. under Contract No. EMT-C-00-03-00007-           E-267-06-016-D   14-Aug-06    $2,120,465     $48,359        $0
   00 and Contract No. 517-C-00-04-00106-00
   for the Period of November 1, 2004, through
   December 31, 2004




 * All audits conducted by the Defense Contract Audit Agency.                        25
                                                                Iraq Financial Audit Findings
                                                                         Report      Total Costs    Questioned   Sustained   Details for Questioned Costs
No.                   Audit Title                      Report Number
                                                                          Date        Audited         Costs        Costs            over $1 million

   Audit of Direct Costs Incurred by Bechtel
   National, Inc. Under Iraq Infrastructure
79 Reconstruction Phase I and II Contracts No. E-267-06-017-D            18-Sep-06   $684,263,856    $321,854     $207,229
   EEE-C-00-03-00018-00 and No. SPU-C-00-04
   00001-00 for the period of October 1, 2004,
   through September 30, 2005

      Audit of Direct Costs Incurred and Billed by
      the International Republican Institute
      through the Consortium for Elections
80 and Political Process Strengthening                  E-267-07-001-D   1-Oct-06    $23,894,925        $0          N/A
   Under the USAID Agreement No. AFP-A-00-
   04-00014-00 for the Period July 9, 2004,
   through October 1, 2005

   Audit of the Accounting System of Unity
   Resources Group Under Subcontract No. IDG
81 31-2 with Research Triangle Institute       E-267-07-002-D            2-Oct-06         $0            $0          N/A
   (RTI) Under Contract No. 267-C-00-05-00505-
   00

   Audit of Fiscal Year 2006 Floor Check and
   Review of Timekeeping Procedures Under
82 Contract No. 267-C-00-05-00505-00 from               E-267-07-003-D   19-Oct-06        $0            $0          N/A
   July 18, 2006, to October 13, 2006, with
   Research Triangle Institute (RTI)

      Audit of Billed Costs by Skylink Air and
      Logistics Support, Inc. Under USAID
      Contract No. DFD-C-00-03-00026-00 for the
83                                                      E-267-07-004-D   25-Oct-06    $2,774,068        s         $55,255
      Period October 1, 2004, through January 31,
      2005, and Determination on the Allowability of
      Previously Questioned Serco, Inc. Costs

      Audit of Costs Incurred and Billed by
      International Relief and
84 Development, Inc. Under Cooperative                  E-267-07-005-D   6-Nov-06    $17,915,466      $71,128     $54,002
   Agreement No. AFP-A-00-03-00002-00 from
   August 1, 2004, through October 31, 2005

   Audit of Costs Incurred and Billed by the
   National Democratic Institute of
85 International Affairs, Under Cooperative             E-267-07-006-D   6-Nov-06    $18,195,499        $0          N/A
   Agreement No. REE-A-00-04-00050-00 from
   July 26, 2004, to October 31, 2005
      Audit of Costs Incurred and Billed by
   Research Triangle Institute (RTI)
86 Under Contract No. 267-C-00-05-00505-00              E-267-07-007-D   18-Dec-06   $15,701,776      $68,475     $14,190
      for the period May 9, 2005, through
      December 31, 2005
      Audit of Costs Incurred and Billed by the
      Research Foundation of the State
      University of New York (SUNY) Under
   its Cooperative Subagreement No. 04-04465-
87 IRA.0-408 with National Democratic                   E-267-07-008-D   3-Jan-07     $3,219,705        $0          N/A
   Institute Under USAID Cooperative
   Agreement No. REE-A-00-04-00050-00 for
   the Period July 26, 2004, through
   December 31, 2005
   Audit of Costs Incurred and Billed by
   Bechtel National, Inc. Under Contract
   No. EEE-C-00-03-00018-00 for the period
88 October 1, 2005, through February 28, 2006,          E-267-07-009-D   15-Mar-07   $483,989,062    $104,623     $104,623
   and Contract No. SPU-C-00-04-00001-00 for
   the Period October 1, 2005, through
   October 31, 2006




 * All audits conducted by the Defense Contract Audit Agency.                        26
                                                                Iraq Financial Audit Findings
                                                                         Report      Total Costs   Questioned    Sustained      Details for Questioned Costs
No.                   Audit Title                     Report Number
                                                                          Date        Audited        Costs         Costs               over $1 million
                                                                                                                              OIG questioned $486,152 in costs that
      Audit of Costs Incurred and Billed by the                                                                               were claimed by IFES but were ineligible
                                                                                                                              based on its contract with USAID.
      International Foundation for
                                                                                                                              These costs related to travel, vehicles,
89 Election Systems (IFES) Under                        E-267-07-010-D   27-Mar-07   $22,364,979    $3,258,823   $1,835,795   and communication, medical, and
   Cooperative Agreement No. 267-A-00-04-                                                                                     military and surveillance equipment.
   00405-00 from September 1, 2004, through                                                                                   Additionally, OIG questioned $2,772,671
   September 30, 2005                                                                                                         in costs that could not be supported by
                                                                                                                              documentation.

      Audit of Costs Incurred and Billed Under
      USAID Contract No. 267-C-00-04-00405-00
90                                                      E-267-07-011-D   3-Apr-07    $57,203,434     $49,630      $49,630
      with Bearing Point, Inc. for the Period of
      August 1, 2005, through September 30, 2006

      Audit of Direct Costs Incurred and Billed by
      America's Development Foundation
91 Under USAID Contract No. GEW-C-00-04-                E-267-07-012-D   24-Apr-07   $26,812,920       $0           N/A
   00001-00 from July 1, 2005, to September 30,
   2006

      Audit of Public Vouchers Submitted by
92
      International Resources Group, Ltd.               E-267-07-013-D   10-May-07   $22,513,909     $45,310        $0
      from November 1, 2004, to September 30,
      2006
      Audit of Costs Incurred and Billed by the
      National Democratic Institute of
93 International Affairs, Under Cooperative             E-267-07-014-D   10-Jun-07   $16,669,320       $0           N/A
   Agreement No. REE-A-00-04-00050-00 from
   November 1, 2005, to July 31, 2006

   Audit of Costs billed by Kroll Government
94 Services, Inc. Under Subcontract No. AID             E-267-07-015-D   12-Jun-07   $23,075,833       $0           N/A
   2004-T-00405-000-0058 from May 2006 to
   September 2006

   Audit of Costs Incurred and Billed by Abt
95 Associates, Inc. Under USAID Contract                E-267-07-016-D   14-Jun-07    $590,592         $0           N/A
   No. RAN-C-00-03-00010-00 for September
   25, 2004, through November 30, 2004

      Audit of Costs Incurred and Billed by the
      International Republican Institute
96 Under Cooperative Agreement No. AFP-A-00-            E-267-07-017-D   19-Jun-07    $9,072,896       $0           N/A
   04-00014-00 For the Period of November 1,
   2005, through June 30, 2006

      Audit of Costs Incurred and Billed by
   Development Alternatives, Inc. (DAI)
97 Under USAID Contract No. RAN-C-00-04-                E-267-07-018-D   2-Aug-07    $76,483,598     $41,588      $41,588
   00002-00 for the Period July 1, 2005, through
   November 30, 2006
      Audit of Costs Incurred and Billed by the
   Volunteers For Economic Growth
98 Alliance Under USAID Associate                       E-267-07-019-D   12-Aug-07   $12,089,702    $113,347      $113,347
      Cooperative Agreement No. EGA-A-00-04-
      00002-00 for the Period July 7, 2004, through
      January 6, 2006
                                                                                                                              OIG questioned $339,228 in costs that
                                                                                                                              were claimed by LBG but were
                                                                                                                              considered by the Defense Contracts
   Audit of Costs Incurred and Billed by The
                                                                                                                              Audit Agency (DCAA) to be ineligible
   Louis Berger Group, Inc. Under                                                                                             based on its contract with USAID.
99 Contract No. 267-C-00-04-00435-00 for the            E-267-07-020-D   16-Aug-07   $49,309,032    $2,916,731    $373,108
                                                                                                                              These costs related to labor,
   Period August 1, 2004, through                                                                                             entertainment, and a down payment on
   September 30, 2006                                                                                                         vehicles. Additionally, OIG questioned
                                                                                                                              $2,577,503 in costs that could not be
                                                                                                                              supported by documentation.




 * All audits conducted by the Defense Contract Audit Agency.                        27
                                                                Iraq Financial Audit Findings
                                                                         Report      Total Costs   Questioned   Sustained   Details for Questioned Costs
No.                   Audit Title                     Report Number
                                                                          Date        Audited        Costs        Costs            over $1 million
      Audit of Costs Incurred and Billed by The
      Louis Berger Group, Inc. Under
100 Contract No. 267-C-00-04-00417-00 for the           E-267-07-021-D   10-Sep-07   $12,129,022    $157,791     $156,898
    Period September 27, 2004, through
    September 30, 2005

      Audit of Costs Incurred and Billed by the
    National Democratic Institute for
101 International Affairs Under Cooperative             E-267-07-022-D   12-Sep-07   $20,728,350       $0          N/A
      Agreement No. AFP-A-00-04-00014-00 from
      July 9, 2004, to June 30, 2006

      Audit of Costs Incurred and Billed by the
      International Republican Institute
102 Under cooperative Agreement No. REE-A-00-           E-267-07-023-D   12-Sep-07   $12,267,907       $0          N/A
    04-00050-00 from July 26, 2004, through
    July 31, 2006

      Audit of Costs Incurred and Billed by
103
      Research Triangle Institute (RTI)                 E-267-07-024-D   20-Sep-07   $42,332,303    $139,719     $88,495
      Under Contract No. 267-C-00-05-00505-00
      from January 1, 2006, to December 31, 2006

      Audit of Direct Costs Incurred and Billed by
104
      Research Triangle Institute (RTI)                 E-267-08-001-D   4-Oct-07    $14,510,148     $38,082     $34,887
      Under Contract No. GHS-I-04-03-00028-00
      from April 26, 2005, to December 31, 2006
      Audit of Costs Incurred and Billed by
    Sallyport Global Services Ltd. Under
    its Subcontracts with The Louis Berger
    Group, Inc. under USAID Contract Nos.
105 267-C-00-04-00417-00 for the Period                 E-267-08-002-D   12-Dec-07   $32,371,474       $0          N/A
    September 27, 2004, through September 30,
    2005, and 267-C-00-04-00435-00 for the
    Period August 1, 2005, through March 31,
    2007
    Audit of Costs Incurred and Billed by
      International Relief and
      Development, Inc. (IRD) Under USAID
106 Cooperative Agreement No. AFP-A-OO-03-              E-267-09-003-D   14-Nov-08   $32,049,797    $110,033     $106,377
    00002-00 for the period November 1, 2005,
    through March 31, 2007 [in addition to assist
    audit E-267-08-014-D]
      Audit of Costs Incurred and Billed by
107 America’s Development Foundation                    E-267-08-003-D   23-Jan-08   $14,145,617     $32,000       $0
      Under Contract No. GEW-C-00-04-00001-00
      from October 1, 2006, through June 30, 2007

      Audit of Costs Incurred and Billed by
    Creative Associates International,
108 Inc. (CAII) Under Contract No. EPP-C-00-04- E-267-08-004-D           4-Feb-08    $31,209,197    $166,518     $166,518
      00004-00 from July 1, 2005, through
      February 28, 2007

      Audit of Costs Incurred and Billed by
      Management Systems International
109 Under USAID Contract No. AEP I-00-00-               E-267-08-005-D   4-Feb-08     $5,214,033     $95,247     $60,034
    00024-00, Task No. 08, from June 26, 2003,
    through May 31, 2005

      Audit of Costs Incurred and Billed by
      Bechtel National, Inc. Under Contract
110 Nos. EEE-C-00-03-00018-00 (Phase I) and             E-267-08-006-D   12-Feb-08   $44,632,750     $71,968     $71,968
    SPU-C-00-04-00001-00 (Phase II) from
    November 1, 2006, to September 30, 2007




 * All audits conducted by the Defense Contract Audit Agency.                        28
                                                                Iraq Financial Audit Findings
                                                                         Report      Total Costs    Questioned    Sustained     Details for Questioned Costs
No.                   Audit Title                     Report Number
                                                                          Date        Audited         Costs         Costs              over $1 million
      Audit of Costs Incurred and Billed by
      IntraHealth International, Inc. Under its
    Subcontract No. 15-330-0208954 with
111 Research Triangle Institute (RTI)                   E-267-08-007-D   24-Feb-08    $1,204,745        $0           N/A
    Contract No. GHS-1-04-03-00028-00 for the
    Period April 26, 2005, through December 31,
    2006
      Audit of Costs Incurred and Billed by
    International Business and
112 Technical Consultants, Inc. (IBTCI)                 E-267-08-008-D   6-Mar-08     $4,033,466      $1,188        $1,188
      Under Contract No. 267-C-00-05-00508-00
      from January 1, 2006, through December 31,
      2006

      Audit of Costs Incurred and Billed by
113
      BearingPoint, Inc. Under Contract No.             E-267-08-009-D   15-Apr-08   $42,472,368      $36,181      $16,003
      267-C-00-04-00405-00 for the Period
      October 1, 2006, through September 30, 2007


      Audit of Costs Incurred and Billed by
    Agricultural Cooperative
    Development International/
114 Volunteers Overseas Cooperative                     E-267-08-010-D   13-May-08   $38,562,534      $39,236        $0
    Assistance (ACDI/VOCA) Under
      Cooperative Agreement No. AFP-A-00-03-
      00003-00 from August 1, 2004, to March 21,
      2007 (Report No. E-267-08-010-D)

                                                                                                                              OIG questioned $669,646 in costs that
                                                                                                                              were claimed by Mercy Corps but were
                                                                                                                              considered by DCAA to be ineligible
      Audit of Costs Incurred by Mercy Corps
                                                                                                                              based on the Mercy Corps contract with
      Under USAID Cooperative Agreement No.
115                                                     E-267-08-011-D   20-May-08   $44,249,994     $4,749,842      $0       USAID. These costs related to
      AFP-A-00-03-00001-00 from August 1, 2007,
                                                                                                                              severance and redundancy payments.
      through March 31, 2007
                                                                                                                              Additionally, OIG questioned $4,050,196
                                                                                                                              in cost-sharing expenses that were less
                                                                                                                              than the agreed-upon amount.


    Audit of Costs Incurred by The Louis
116 Berger Group, Inc. Under Contract No.               E-267-08-012-D   27-May-08   $14,868,026        $0           N/A
    2670C-00-04-00435-00 from October 1, 2006,
    through September 30, 2007


      Audit of the Subcontract Costs Submitted by
      Sallyport Global Services Ltd.
    (Sallyport) for Security Services and Life
117 Support Services Under USAID Prime                  E-267-08-013-D    6-Jul-08    $9,127,387       $360         $360
    Contract No. 267-C-00-04-00435-00 with The
    Louis Berger Group, Inc. for the period
    October 1, 2006, through September 30, 2007

      Audit of Costs Incurred and Billed by
    International Relief and
118 Development, Inc. (IRD) Under USAID                 E-267-08-014-D   12-Aug-08   $29,687,291      $45,080      $45,080
      Cooperative Agreement No. AFP-A-OO-03-
      00002-00 for the period November 1, 2005,
      through March 31, 2007
      Audit of the Costs Incurred and Billed by
    International Relief and
119 Development, Inc. (IRD) Under USAID                 E-267-09-001-D   14-Nov-08   $138,717,704    $211,858      $26,042
      Cooperative Agreement No. 267-A-00-06-
      00503-00 for the Period May 29, 2006,
      through September 30, 2007
      Audit of Costs Incurred and Billed by the
    Sandi Group Under its Subcontract with
                                                        E-267-09-002-D
120 the Louis Berger Group, Inc. Under                                   14-Nov-08        N/A           N/A          N/A
      USAID Contract No. 267-C-00-04-00435-00             [rescinded]
      for the Period August 1, 2005, through
      September 30, 2006




 * All audits conducted by the Defense Contract Audit Agency.                        29
                                                                Iraq Financial Audit Findings
                                                                         Report      Total Costs   Questioned    Sustained     Details for Questioned Costs
No.                   Audit Title                     Report Number
                                                                          Date        Audited        Costs         Costs              over $1 million
      Audit of Costs Incurred and Billed by
      Management Systems International
121 (MSI) Under USAID Contract No. DFD-I-01-05- E-267-09-004-D           14-Nov-08   $36,723,963    $362,759      $10,739
    00221-00 for the Period July 27, 2006, through
    September 30, 2007

    Audit of Costs Incurred and Billed by The
122 Services Group, Inc. Under Contract No.             E-267-09-005-D   14-Nov-08    $4,687,302     $3,547        $3,547
    267-C-00-04-00435-00 for the period of
    October 1, 2006, through September 30, 2007
      Audit of the Costs Incurred and Billed by
      Development Alternatives, Inc. (DAI)
123 Under USAID Contract No. RAN-C-00-04-               E-267-09-006-D   27-Jan-09    $4,166,871    $198,734        $0
    00002-00 for the Period July 1, 2006, through
    December 31, 2006
      Audit of Costs Incurred and Billed by Save
      the Children Federation, Inc. Under
124 Cooperative Agreement No. AFP-A-00-03-              E-267-09-007-D   28-Jan-09   $25,677,841     $50,057      $37,225
    00005-00 for the Period from August 1, 2004,
    to April 1, 2006

    Audit of Costs Incurred and Billed by Louis
125 Berger    Group, Inc. (LBGI) Under                  E-267-09-008-D   8-Mar-09    $18,718,246     $40,965      $17,599
      Contract No. 267-C-00-07-00500-00 for the
      Period from May 14, 2007, to May 13, 2008

    Audit of Direct Costs Incurred and Costs Billed
    by the International Foundation for
    Electoral Systems for Subawards through
    the Consortium for Elections and Political      E-267-09-009-D
126 Process Strengthening Under USAID                                    29-Apr-09        N/A          N/A          N/A
                                                      (rescinded)
    Cooperative Arrangements Numbers 267-A-
    00-04-00405-00, AFP-A-00-004-00014-00,
    and REE-A-00-04-00050-00 for the Period
    from July 9, 2004, through June 30, 2007

    Report on the Application of Agreed-Upon
    Procedures on Bechtel National, Inc.'s
    Settlement of Subcontractors' Requests for
127 Equitable Adjustments - Iraq Infrastructure         E-267-09-010-D   8-May-09         $0           N/A          N/A
    Reconstruction Project Phase I and II
    Contract Nos. EEE-C-00-03-00018-00 and
    SPU-C-00-04-00001-00
      Audit of Direct Costs Incurred and Billed by
      CHF International Under USAID                                                                                          OIG questioned costs of $1,369,706,
    Agreement No. AFP-A-00-03-00004-00 (ICAP
                                                                                                                             primarily for an unauthorized transfer of
128 I) for August 1, 2005 through April 30, 2007,       E-267-09-011-D   28-May-09   $64,233,050    $1,648,253    $35,724
                                                                                                                             funds from ICAP I to ICAP II and related
    and USAID Agreement No. 267-A-00-06-
                                                                                                                             indirect costs.
    00507-00 (ICAP II) for September 30, 2006
    through September 30, 2007
    Audit of Costs Recorded by Sabre
    International Security Under USAID                                                                                       OIG questioned costs of $13,995,951
    Cooperative Agreement No. 267-A-00-06-                                                                                   because of a lack of adequate
129 00507-00 for the Period of September 30,            E-267-09-012-D   2-Jun-09    $17,809,903   $14,077,122    $296,560   supporting documentation (inadequate
    2006 through September 30, 2007; and                                                                                     accounting system to segregate costs by
    USAID Agreement No. 267-A-00-06-00503-00                                                                                 specific contract).
    for the Period May 29, 2006, through
    September 30, 2007
    Audit of Direct Costs Incurred by Research
130 Triangle Institute (RTI) Under Contract             E-267-09-013-D   25-Jun-09   $73,546,102    $847,709      $87,037
    No. 267-C-00-05-00505-00 from January 1,
    2007, through December 31, 2007




 * All audits conducted by the Defense Contract Audit Agency.                        30
                                                                Iraq Financial Audit Findings
                                                                         Report      Total Costs    Questioned    Sustained      Details for Questioned Costs
No.                    Audit Title                    Report Number
                                                                          Date        Audited         Costs         Costs               over $1 million
      Audit of Costs Incurred and Billed by
      International Business and
131 Technical Consultants, Inc. Under                   E-267-09-014-D   25-Jun-09    $3,894,132        N/A          N/A
    USAID Contract No. 267-C-00-05-00508-00
    for the Period of January 1, 2007, through
    December 31, 2007
    DCAA Evaluation Report on Floor Checks of
132
    BearingPoint, Inc.'s Financial                      E-267-09-015-D   14-Jul-09        $0            N/A          N/A
    Management Information System Project
    Employees in Iraq

    Audit on Costs Verified for BearingPoint,                                                                                  OIG questioned costs of $73,362,868
                                                                                                                               because of BearingPoint general ledger,
133 Inc. Under USAID Contract No. 267-C-00-04- E-267-09-016-D            20-Jul-09   $69,707,089    $73,362,868     $6,632
    00405-00 for the Period October 1, 2007,                                                                                   accounting, and billing system
    through May 15, 2009                                                                                                       weakness.

    Audit of Costs and Payments Made to                                                                                        OIG questioned $1,979,445 in RTI costs
    Business Systems House (BSH) by                                                                                            because they were ineligible under the
134 Research Triangle Institute (RTI) for               E-267-09-017-D   3-Aug-09    $15,529,384    $15,529,882   $6,216,018   terms of their contracts with USAID and
    the Period from March 23, 2003, to                                                                                         $13,550,437 in costs because those
    September 30, 2007                                                                                                         costs were unsupported.

    DCAA Evaluation Report on BearingPoint,
135 Inc.'s Purchase Existence and Consumption           E-267-09-018-D   10-Aug-09        $0            N/A          N/A
    Practices in Baghdad, Iraq

    Audit of Direct Costs Incurred and Costs Billed
    by the International Foundation for
    Electoral Systems Under USAID                                                                                              OIG questioned International Foundation
    Cooperative Agreement Nos. 267-A-00-04-                                                                                    for Electoral Systems costs of $250,407
136 00405-00 From October 1, 2005 through June E-267-10-001-D            29-Oct-09   $32,534,090     $1,118,016    $95,379     as ineligible under the terms of their
    30, 2007; AFP-A-00-04-00014-00 From July                                                                                   agreements and $867,609 because they
    9, 2004 through June 30, 2006; and REE-A-00                                                                                were unsupported.
    04-00050-00 from July 26, 2004 through
    July 31, 2006

    Audit of Billed Amounts by Gulf Catering
137 Company Under USAID Contract No. 267-               E-267-10-002-D   9-Nov-09     $3,074,309     $314,907      $12,353
    C-00-05-00514-00 from October 1, 2005
    through October 31, 2008

    Audit of Direct Costs Incurred by Air Serv
138 International Under USAID Grant No. DFD- E-267-10-003-D              23-Jun-10   $22,753,106     $181,954      $181,954
    G-00-04-00192-00

      Audit of Costs Incurred and Billed by Int'l
                                                                                                                               OIG questioned $40,043,349 of costs
      Relief & Development, Inc. under                                                                                         incurred and billed by IRD in order to
139 USAID Cooperative Agreement No. 267-A-00-           E-267-11-001-D   7-Nov-10    $341,760,396   $40,043,349   $2,575,095
                                                                                                                               verify that the billings used the
    06-00503-00, for the Period of October 1,                                                                                  appropriate indirect cost rates.
    2007 through September 30, 2008
    Audit of Costs Incurred and Billed by
    Research Triangle Institute, under
140 USAID Contract No. 267-C-00-05-00505-00,            E-267-11-002-D   10-Dec-10   $99,735,645     $109,017      $43,880
    for the Period of January 1, 2008, through
    December 31, 2008
    Close-Out Audit of Fund Accountability
    Statement of USAID Resources Managed by
    Int'l Relief & Development, Inc. under                                                                                     OIG questioned $18,613,798 relating to
141 Cooperative Agreement No. 267-A-00-06-              E-267-11-001-N   16-Mar-11   $133,509,611   $18,613,798    $483,782    program intervention and support costs
    00503-00 "Community Stabilization Program,"                                                                                that were not supported.
    for the Period from October 1, 2008, to
    October 31, 2009
    Audit of USAID Resources Managed and
    Expenditures Locally Incurred by AECOM
    International Development Under "Iraq
142 Legislative Strengthening Program,"                 E-267-11-002-N   16-May-11    $2,387,975        $0           N/A
    USAID/Iraq Task Order No. 263-I-03-06-
    00015-00, for the Period From October 1,
    2008, to September 30, 2010




 * All audits conducted by the Defense Contract Audit Agency.                        31
                                                                Iraq Financial Audit Findings
                                                                      Report       Total Costs   Questioned   Sustained       Details for Questioned Costs
No.                   Audit Title                     Report Number
                                                                       Date         Audited        Costs        Costs                over $1 million
    Independent Audit of International
    Business and Technical
                                                                                                                   No
143 Consultants, Inc. (IBTCI) Report on Costs E-267-11-003-D          29-Jun-11     $4,753,419     $67,685
      Incurred and Billed Under USAID Contract No.                                                            determination
      267-C-00-05-00508-00 for the Period of
      January 1, 2008, through December 31, 2008

      Independent Audit of International
      Resources Group, Ltd. Report on Costs
144 Incurred and Billed Under USAID Contract No. E-267-11-004-D       12-Sep-11     $5,853,973       $0           N/A
    517-C-00-04-00106-00 for the Period of
    January 1, 2008, through February 28, 2009

144           Financial Audits Issued                                             $4,805,288,410 $236,380,799 $17,203,305

       Percentage of Total Costs Audited                                                            4.9%         0.4%




 * All audits conducted by the Defense Contract Audit Agency.                      32
               Planned Performance Audits of
               USAID/Iraq-Funded Activities
                                       Fiscal Year 2012
          Audit of USAID/Iraq’s Financial Development Program

On July 19, 2010, USAID/Iraq awarded a cost-reimbursable contract to AECOM International
Development with total estimated costs of $53 million for a program scheduled to end in July 2014.
This new program is designed to assist Iraqi counterparts to develop a comprehensive financial sector
infrastructure that will help ensure the long-term growth of the sector.

USAID/Iraq’s Financial Development Program main goals are to enhance the advocacy capacity of the
private financial sector, improve the soundness of the private financial sector through institution
building and targeted reforms, and improve the quality and availability of finance and business
education.

The objective of this audit is to provide oversight to this important program both in terms of program
success and the efficient use of increasingly scarce U.S. government funding.


  Survey of Security Contractor Services Employed by USAID/Iraq’s
                       Contractors and Grantees

Private security contractors operating in Iraq provide a variety of security services including the
protection of individuals, life-support, office facilities, and non-military transport movements. From July
1, 2007, to June 30, 2009, USAID/Iraq maintained a portfolio of contracts and grants with 12
implementing partners, who held 17 subcontracts for private security services in Iraq.

In February 2011, the U.N. Office for the Coordination of Humanitarian Affairs (OCHA) issued a
report, “To Stay and Deliver: Good Practice for Humanitarians in Complex Security Environments”.
The report set out to identify and document those strategies and practices that have enabled
humanitarian organizations to maintain effective operations in contexts characterized by high security
risks.

Although the report’s context (security for humanitarian agencies) does not transpose directly to the
USAID environment, it illustrates the need to compare and analyze differing security mechanisms
employed by implementing partners and their effect on costs and efficiency.

The objective of the survey is to compare and analyze differing security mechanisms employed by
implementing partners and their effect on costs and efficiency. Additionally, the survey will follow up
on recommendations 1 and 3 of Report No. E-267-11-001-S to ensure that mission implementing actions
have been effective.




                                                    33
               Audit of USAID/Iraq’s Access to Justice Program

In September 2010, USAID/Iraq awarded a contract to DPK Consulting to implement the Access to
Justice Program. The contract is a cost-plus-fixed-fee reimbursement, term type contract with a base
period of three years and two one-year option periods. The estimated cost plus fixed fee is $45 million
for the base period and $63 million if both option years are exercised. As of March 2011, $32.5 million
was obligated, and $2.5 million was disbursed.

The program focuses on vulnerable and disadvantaged populations, including women, widows, orphans,
displaced persons, detainees, the poor and those who are at risk because of their ethnicity or religion.

The Access to Justice Program focuses on three areas: (1) public awareness campaigns to make
vulnerable Iraqis more aware of their rights and legal resources available to them; (2) linking vulnerable
populations with government institutions responsible for upholding their rights through legal
professionals and organizations; and (3) advocacy of a legal framework and procedural processes to
recognize and protect the rights of the vulnerable and disadvantaged. The program supports these areas
through grants.

The objectives of the Access to Justice Program are:

1) Improve the practical knowledge of vulnerable and disadvantaged Iraqis of their responsibilities,
   rights and remedies under Iraqi law.

2) Increase the competence and availability of legal professionals and civil society partners to assist
   vulnerable and disadvantaged Iraqis.

3) Improve government processes and procedures to facilitate access of vulnerable populations to
   government services and legal remedies.

This audit will determine whether this program is achieving its main goal to improve the vulnerable and
disadvantaged populations access to Iraq’s legal system.


               Audit of USAID/Iraq’s Design for Sustainability in
                        the Primary Health Care Project
To provide support to the Iraqi Ministry of Health and its partners to improve the quality of primary
health care services for the Iraqi population, in March 2011 USAID/Iraq awarded a $75 million cost-
plus-fixed-fee completion type contract to University Research Co. LLC. USAID’s Primary Health Care
Project in Iraq is a partnership with the Iraqi Ministry of Health. Ministry contributions include
leadership, commitment, allocation of resources (personnel, clinical facilities, health commodities, and
equipment, furnishings, etc.), and provision of clinical care. To complement these efforts, USAID is to
contribute technical expertise and support to help build sustainable institutional capacities to improve
services delivery at the primary health care level.

The concept of sustainability or the continued benefits of foreign development assistance is embodied in
the Foreign Assistance Act and in USAID policy. The critical elements to achieve sustainability are
capacity building with local institutions, partnership with governments and organizations, and building
leadership and ownership among the country’s people.

This audit will determine whether USAID designed the selected program to be sustainable and help


                                                   34
ensure that their impact continues after USAID funding ceases.

           Audit of USAID/Iraq’s Community Action Program III
                   Activities Implemented by ACDI/VOCA

On October 1, 2008, USAID awarded ACDI/VOCA a $35 million cooperative agreement (No. 267-A-
00-08-00504-00) for the implementation of Cap III activities in four provinces in the Northern Iraq
including: Diyala, Kirkuk, Ninawa and Salah Ad Din. Modification No. 8 to the cooperative agreement
dated September 30, 2010, focused activities on areas of social and/or economic marginalization
including significant vulnerable populations, internally displaced persons, and in conflict or underserved
areas. As of September 30, 2010, USAID/Iraq had obligated $64 million, increased the total estimated
amount of the agreement to $87 million, and extended the period of performance to September 30,
2012. As of February 17, 2011, USAID/Iraq had disbursed $53 million under the agreement.

The program facilitates the creation and training of community action groups responsible for identifying
and prioritizing community needs, mobilizing community and other resources, and monitoring project
implementation. The program also strengthens the capacity of the lowest levels of local government to
draw on the Iraqi Government’s own resources to meet community-identified needs.

CAP III also carries on the work of assisting victims of military operations in Iraq through the
congressionally mandated Marla Ruzicka Iraqi War Victims Fund. USAID’s partners may receive
these funds to assist civilian victims of armed conflict, and USAID helps the families of victims
establish a means of sustainable support.

This audit will determine whether USAID/Iraq’s Community Action Program III has been effective
in supporting community organizations, community-level projects, and assistance to victims of armed
conflict.




                                                   35
36
                           Performance Audits
                                  Fiscal Year 2011
           USAID/Iraq’s Microfinance Activity Under Its Provincial
                Economic Growth Program (No. E-267-11-003-P)


Date:                             August 4, 2011
Implementing Partners:            Louis Berger Group
Audit Period:                     April 18, 2010 to March 1, 2011
Funding:                          As of December 31, 2010, USAID/Iraq had obligated
                                  $137,772,580 and had expended $88,610,824.

Background—Summary of Findings

Continued stability in Iraq requires activities—        Although OIG was unable to confirm any
such as microfinance—that stimulate private             loans with borrowers because of security
sector growth and create jobs. In Iraq,                 restrictions, the auditors determined that the
collateral requirements are high, and many              mission’s microfinance activity had increased
poor and low–income individuals are                     access to sustainable financial services. The
excluded from bank services. Microfinance               contractor had also made progress in
institutions were established in Iraq starting          promoting institutional development.
in 2003 with funds from the U.S.
Government to provide financial services to             OIG found that multiple improvements could
this population who would otherwise be                  be made, however. The contract with Louis
unable to secure loans.                                 Berger did not specifically require a focus for
                                                        loans to the poor, and the activity did not
Iraq’s current microfinance activity began in           have indicators to measure such lending,
January 2008 with the Provincial Economic               despite statutory and regulatory direction to
Growth Program. Contracted to the Louis                 do so. In addition, Louis Berger did not
Berger Group, Inc., it is expected to cost $174         consistently calculate the numbers of jobs that
million and be in operation through January             were sustained at firms receiving microloans,
2013. The Provincial Economic Growth                    one of the goals of the program. As the
Program includes seven program areas, one of            contractor changed the methodology in
which     is   microfinance.      Under     the         calculating jobs from year to year and the
microfinance activity, Louis Berger has                 mission neither verified data nor conducted a
provided technical assistance and training to 9         data quality assessment, OIG questioned the
microfinance institutions, and as of December           reliability of data reported to USAID for the
2010, the USAID–supported microfinance                  reported number of jobs.
institutions have provided 257,209 loans
valued at $593 million.




                                                   37
Recommendations—Management Decisions

The audit made 3 recommendations:

   1. That USAID/Iraq revise its performance monitoring plan to include performance indicators
      and targets for reaching poor borrowers for the remaining 2 years of the Provincial
      Economic Growth Program, particularly for microfinance institutions that have attained
      performance targets for financial sustainability.

       The mission required the contractor to revise its performance monitoring plan. The revision to the
       performance monitoring plan also included updating the Performance Indicator Reference sheets to
       explain known data limitations and data sources. The contractor submitted the revised plan to the
       mission for review and approval, and the mission sought to complete its implementation of these actions
       by September 30, 2011. This recommendation remains open.

   2. That USAID/Iraq require the contractor to update its performance monitoring plan to
      specify data review mechanisms, identify any known data limitations, and clarify data
      sources.

       As stated above, the mission required the contractor to revise its performance monitoring plan to include
       indicators and targets for reaching poor borrowers. The revision to the performance monitoring plan also
       included updating the Performance Indicator Reference sheets to explain known data limitations and
       data sources. The contractor submitted the revised plan to the mission for review and approval and the
       mission sought to complete its implementation of these actions by September 30, 2011. This
       recommendation remains open.

   3. That USAID/Iraq perform a data quality assessment of the jobs performance indicator:
      Number of jobs (new and existing) that are sustained at firms receiving microloans.
       The mission planned to conduct a data quality assessment in October 2011. The contractor included in
       the revised performance monitoring plan a data review mechanism to verify and validate the data on
       jobs created and sustained. The mission planned to inspect these systems and document the review in a
       formal data quality assessment and expected to complete this assessment by December 30, 2011. This
       recommendation remains open.




                                                     38
                 Audit of USAID/Iraq’s Agribusiness Program
                              (No. E-267-11-002-P)

Date:                           May 16, 2011
Implementing Partners:          Louis Berger Group
Audit Period:                   November 23, 2009, to February 14, 2010
Funding:                        As of September 30, 2010, $145 million had been obligated and
                                $109 million had been disbursed


Background—Summary of Findings

In May 2007, USAID/Iraq awarded a $343                and the contractor did not use it and simply
million contract to Louis Berger Group (LBG)          did not focus on managing for results. This
to expand the competitiveness of the private          was evident through numerous problems with
sector in the agriculture and agribusiness            program implementation.          For instance,
sectors. An audit performed by OIG found              USAID officials did not regularly receive
that despite its contractual obligations LBG          results, did not enforce the requirement for
fell short on all of its goals. These goals           reporting results and did not monitor the
included: increasing agricultural sector              results that were reported. Although over the
productivity; increasing total sales of USAID-        three-year period this contract had more than
assisted enterprises by at least $300 million;        five different contracting officer technical
increasing and monitoring the value of                representatives (COTRs), USAID could not
financial resources raised by assisted                explain why the performance monitoring plan
enterprises (i.e., agribusiness loans); and           was not used. Documentation that was
generating at least 40,000 new agricultural           essential to project oversight—such as proof of
and agribusiness jobs—20,000 full-time and            any of the COTR’s inspection and receipt or
20,000 part-time.                                     acceptance of deliverables and copies of other
                                                      performance records, were not included in
In almost all cases, LBG did not measure              any program files.
results, report results or show adequate
documentation. The lack of supportable                Because of these problems, USAID/Iraq did
agribusiness program results was attributed to        not track whether the agribusiness program
several factors, foremost among them was              goals were on or behind schedule.
mismanagement. Although USAID/Iraq did                Additionally, subcontracts lacked adequate
propose—through the contract and through              documentation and grants with special
approval of the contractor’s performance              conditions as well as grants awarded to
monitoring plan—a rigorous methodology for            microfinance institutions were not monitored.
measuring results of the program, the mission

Recommendations—Management Decisions

The audit made 17 recommendations:

    1. That USAID/Iraq establish mechanisms to verify the contractor’s significant reported
       results.




                                                 39
    The mission has taken steps to establish mechanisms to verify the contractor’s results. In doing so,
    USAID/Iraq now works with the PRT representatives and the locally hired Foreign Service National
    (FSN) staff to verify the results reported by the contractor. Furthermore, because of the COTR’s
    improved working relationship with the FSN staff, the COTR is now able to notify the contractor’s
    chief of party as soon as problems are brought to the COTR’s attention by the FSN staff so that
    concerns and potential problems concerning verification of results can be addressed immediately. Thus
    this recommendation is closed.

2. That USAID/Iraq increase program oversight through the remainder of Option Period 1 to
   verify that the contractor focuses on expected results.

    The mission has taken steps to increase the program’s oversight and to verify that the contractor focuses
    on expected results. To resolve the issues identified pertaining to the lack of focus by the contractor on
    expected results, USAID/Iraq approved the hiring of a new monitoring and evaluation specialist with
    13 years of work experience in agricultural development that included recent work experience in
    postconflict areas. Additionally, the COTR is making frequent field site visits (most recently to the fish
    farms in Babel) to discuss with fish farm owners the importance of keeping proper records to account for
    sales. These actions, together with ongoing discussions between the COTR and the monitoring and
    evaluation specialist, have substantially increased USAID/Iraq’s oversight abilities to verify that the
    contractor is focusing on expected results. Thus this recommendation is closed.

3. That USAID/Iraq require its contracting officer’s technical representatives (COTRs) to
   provide activity managers with copies of applicable sections of contracts and agreements to
   improve their ability to measure progress against expected results.

    The mission agreed to a modified recommendation since Mission Order 202-3-4-3 will no longer be
    valid at the end of June 2011. The mission agreed to incorporate in future guidance on the roles of
    activity managers a statement that they should receive copies of the applicable sections of a contract or
    an agreement to assess progress against contractual or agreement requirements.

    We also recognize the importance of activity managers receiving a copy of the applicable sections of a
    contract or agreement so they can assess progress against contractual or agreement requirements. We
    acknowledge that the COTR is now providing the information to the PRT representatives and FSN
    staff that they need to measure progress against expected results.

    According to mission officials, they are hiring new staff to take over activity manager responsibilities
    from the PRT representatives. Once the hiring process is completed and the roles and responsibilities are
    defined, the mission plans to update the mission order for activity managers. The mission provided a
    target date of completion for the updated mission order of December 31, 2011. Therefore, we have
    modified our recommendation to state that USAID/Iraq should require COTRs to provide activity
    managers with copies of applicable sections of contracts and agreements, such as the scope of work, and
    required deliverables as a means to improve their ability to measure progress against expected results.
    Thus this recommendation remains open.

4. That USAID/Iraq require the contractor to comply with its internal procedures to support
   claimed subcontract costs, and verify the contractor’s completed actions.

    The mission agreed with the recommendation to require the contractor to comply with its internal
    procedures that would provide adequate records to support claimed subcontract costs. According to



                                                  40
   mission officials, they have emphasized to the contractor the need to properly document all
   subcontractor costs and completed actions. Mission officials have gone to the contractor’s office to
   review project documents and have scheduled additional trips to the contractor’s office in June 2011. In
   response to the draft report, the mission stated that the contractor is making substantial progress in
   compiling its records to document and support subcontract costs. The mission expects to complete its
   review of supporting documentation for claimed subcontracts costs by December 31, 2011. Thus this
   recommendation remains open.

5. That USAID/Iraq suspend payments to the contractor for costs related to subcontracts until
   implementing actions are completed for Recommendation 4.

   The mission disagreed with the recommendation to suspend payments because of the short project life
   span remaining in relation to the number of subcontracts outstanding. In its written response, the
   mission referenced an administrative agreement between USAID and the contractor dated November 5,
   2010. Under the agreement, the contractor outlined reforms and remedial actions that included
   improving the transparency and accuracy of its accounting system and financial controls related to
   government contracts, improving internal controls and its related compliance, making significant
   personnel changes, and reviewing policies and procedures.

   We acknowledge that this contract expires in August 2011. However, as previously stated, the
   contractor is currently compiling its records to document support costs that were incurred between July
   2007 and January 2009 (approximately two and half years after the fact). Furthermore, our audit
   conclusion is still applicable—that the absence of supporting documentation has made the subcontracts
   susceptible to unintentional errors, loss, misappropriation, and fraud.

   Therefore, due to the absence of auditable supporting records as of May 2011, we continue to
   recommend the suspension of costs until actions implemented under Recommendation 4 are completed.
   Thus this recommendation remains open.

6. That USAID/Iraq determine the allowability of and collect, as appropriate, $9,805,244 in
   questioned, unsupported costs for 19 identified subcontracts that were also susceptible to
   fraud.

   The contracting officer has requested information in support of the subcontract costs from the
   contractor. The contracting officer and other mission officials have also visited the contractor’s office
   three times over the last 30 days to review the contractor’s files, and officials plan more trips in June
   2011. The contractor is currently compiling its records, and the contracting officer is expected to make a
   determination regarding questioned costs by December 31, 2011. Thus this recommendation remains
   open.

7. That USAID/Iraq require the contractor to comply with its internal procedures and grant
   requirements in the contract by developing an adequate records system to support claimed
   grant costs, and verify the contractor’s completed actions.

   According to mission officials, they are currently reviewing supporting records to verify the contractor’s
   compliance with its procedures to maintain adequate supporting records. The mission anticipates the
   completion of the review by December 31, 2011.




                                                 41
   We also acknowledge that an approved waiver to competition requirements existed during the period
   under audit when the grants in question were issued. Although we disclosed our findings to mission
   officials on November 28, 2010, the waiver was not brought to our attention until April 18, 2011.
   Additionally, during our review of the contractor’s memorandum of negotiations for these grants, no
   mention was made of this existing waiver for the contractor’s basis of the grant awards, and this
   contract requirement under Section C.5 had not been modified to comply with the waiver when this
   waiver was still effective. We modified our report to reflect the existence of the waiver but did not alter
   our audit result because other examples illustrated that the contractor did not monitor or retain support
   for the grants awarded under this contract. Thus this recommendation remains open.

8. That USAID/Iraq suspend payments to the contractor for costs related to grants until
   implementing actions are completed for Recommendation 7.

   The mission disagreed with the recommendation to suspend payments because of the short project life
   span remaining in relation to the number of subcontracts outstanding. In its response, the mission
   referenced an administrative agreement between USAID and the contractor dated November 5, 2010.
   Under the agreement, the contractor outlined reforms and remedial actions that included improving the
   transparency and accuracy of its accounting system and financial controls related to government
   contracts, improving internal controls and its related compliance, making significant personnel changes,
   and reviewing policies and procedures.

   We acknowledge that this contract expires in August 2011. However, as previously stated by the
   mission, the contractor is currently compiling records to document support costs that were incurred
   between July 2007 and January 2009 (approximately two and half years after the fact). Furthermore,
   our audit conclusion is still applicable—that the absence of supporting documentation has made the
   grants susceptible to unintentional errors, loss, misappropriation, and fraud.

   Therefore, due to the absence of auditable supporting records as of May 2011, we continue to
   recommend the suspension of costs until actions implemented under Recommendation 7 are completed.
   Thus this recommendation remains open.

9. That USAID/Iraq make a complete inventory of grants awarded by the contractor since
   program inception, review grant files to ensure that documentation is adequate to support
   procurement and monitoring requirements, and question and collect amounts for those
   grants not adequately supported.

   The mission agreed with the recommendation and will require the contractor to submit a complete
   inventory of grants awarded to be spot-checked by USAID/Iraq. Additionally, the mission will require
   that a sample of grants be reviewed in the incurred cost audits to ensure that documentation is
   adequate to support procurement and monitoring requirements and to question and collect for those
   grants not adequately supported. The mission expects this action to be completed by December 31,
   2011. Thus this recommendation remains open.

10. That USAID/Iraq determine the allowability of and collect, as appropriate, $6,947,938 in
    questioned, unsupported costs for the five identified grants with special conditions.

   The contracting officer has requested information in support of the grant costs from the contractor. The
   contracting officer and other mission officials have also visited the contractor’s office three times over the
   last 30 days to review the contractor’s files, and officials plan more trips in June 2011. The contractor



                                                   42
    is currently compiling its records, and the contracting officer is expected to make a determination
    regarding questioned costs by December 31, 2011. Thus this recommendation remains open.

11. That USAID/Iraq determine the allowability of and collect, as appropriate, $6,296,758 in
    questioned, unsupported costs for the three identified grants to microfinance institutions.

    The contracting officer has requested information in support of the grant costs from the contractor. The
    contracting officer and other mission officials have also visited the contractor’s office three times over the
    last 30 days to review the contractor’s files, and officials plan more trips in June 2011. The contractor
    is currently compiling its records, and the contracting officer is expected to make a determination
    regarding questioned costs by December 31, 2011. That USAID/Iraq determine whether evaluations
    issued during fiscal years 2009 and 2010 have all been appropriately shared with implementing
    partners, and if not, immediately share the evaluation results. Thus this recommendation remains open.

12. That USAID/Iraq determine what kind of budget and financial reports will support the
    mission’s oversight role, and instruct the contractor to provide reports that meet this need.

    The mission partially agreed with the recommendation. We recognize that it has been 2 years since the
    March 2009 evaluation of the agribusiness program was completed, and we also acknowledge that the
    mission has shared the 2010 evaluation results of the agribusiness program with the contractor.
    However, the recommendation applies to other existing USAID/Iraq programs that had evaluations
    completed in fiscal years 2009 and 2010 but had not been shared with the implementers. We discussed
    the clarification of the recommendation with mission officials, and they disagreed that Recommendation
    12 should be applied to all USAID/Iraq programs that had evaluations performed during fiscal years
    2009 and 2010. Nevertheless, the mission position is contrary to USAID guidance (“Responding to
    Evaluation Findings,”) and its own Mission Order 08-10-01. Thus this recommendation remains open.

13. That USAID/Iraq require the contractor to update the performance management plan so
    that it contains realistic targets and aligns with planned projects to clearly measure progress
    against expected results, and approve the updated performance management plan in writing.

    The mission agreed with the recommendation, and the contractor is now regularly submitting the
    commodity cluster financial report that was required since September 2008. We also recognize that the
    COTR is monitoring costs under subcontracts and grants awarded to implement program projects by
    using additional monthly tracking summaries provided by the contractor. Thus this recommendation is
    closed.

14. That USAID/Iraq conduct a data quality assessment of contractor performance indicators
    for increased gross sales and jobs created.

    The mission agreed with the recommendation and updated its performance management plan (PMP) as
    of March 14, 2011. We acknowledge that the PMP indicators are now clearly reflected and linked to
    the current annual work plan for fiscal years 2010-2011. We also acknowledge that the two strategic
    objectives reflected in the program’s results framework as described in the PMP are now also reflected in
    the contract under Modification 13. Furthermore, we understand the ongoing challenges faced by the
    program to obtain verifiable results to measure progress against expected results due to lack of formal
    records kept by project grantees and subcontractors to record sales accurately. The COTR is working on
    solutions to the record-keeping issue and expects to finalize the PMP by July 31, 2011. Thus this
    recommendation is closed.



                                                    43
15. That USAID/Iraq require that the contractor submit its property accounting system for
    approval, and determine whether that system is acceptable for managing government
    property according to USAID Acquisition Regulation requirements.

   The mission agreed with the recommendation. We acknowledge that a data quality assessment for all
   program indicators was performed, including performance indicators for gross sales and jobs created. We
   also acknowledge that the results of the data quality assessment were submitted to USAID/Iraq in
   January 2011 and are pending approval by the COTR by July 31, 2011. Thus this recommendation is
   closed.

16. That USAID/Iraq require the contractor to submit annual property reports for government
    property for 2007, 2008, 2009, and 2010 according to USAID Acquisition Regulation
    requirements.

   The mission agreed with the recommendation. Mission officials also agreed that the contractor did not
   have an approved property accounting system and stated that it was one of the systems currently being
   updated by the contractor in order to meet the terms of the administrative settlement in November
   2010 between USAID and the contractor. We acknowledge that, under an administrative settlement
   between USAID and the contractor reached in November 2010, the contractor’s accounting policies
   and procedures are being revised to ensure that cost accounting by the contractor is true, accurate, and
   complete and follows the applicable federal statutes and regulations. The mission expects to complete
   final action on this recommendation by March 31, 2012. Thus this recommendation remains open.

17. The draft report recommended that USAID/Iraq require the contractor to submit annual
    property reports for government property for 2007, 2008, 2009, and 2010 according to
    USAID Acquisition Regulation requirements.
   The mission agreed with the recommendation, and has tasked the contractor to provide the required
   summaries for years 2007 through 2010 to comply with USAID Acquisition Regulation requirements.
   The mission expects to complete final action on this recommendation by December 31, 2011. Thus this
   recommendation remains open.




                                                 44
        Review of USAID/Iraq’s Contractors’ Compliance With the
              Trafficking Victims Protection Reauthorization Act
                          of 2008 (No. E-267-11-002-S)
Date:                               December 12, 2010
Implementing Partners:              Najlaa International Catering Services and GSI Business
                                    Services Inc.
Audit Period:                       October 11, 2010, through November 24, 2010
Funding:                            From February 1, 2010 to February 1, 2012, the estimated contract
                                    cost is $8 million.

Background—Summary of Findings

The William Wilberforce Trafficking Victims                contracts were valued        at   a   total   of
Protection Reauthorization Act of 2008,                    $8 million dollars.
Public Law 110-457, requires OIG to
investigate a sample of contracts and                      USAID/Iraq has established internal controls
subcontracts under which there is a high risk              to manage the risk of trafficking in persons on
that the contractor may engage in acts related             its compound, and the review found no
to trafficking in persons. These acts include              indication that contractors and subcontractors
confiscation of an employee’s passport,                    on the two USAID/Iraq contracts engaged in
restriction of an employee’s mobility, abrupt              trafficking in persons.           Third-country
or evasive repatriation of an employee,                    nationals employed under the contracts
deception of an employee regarding the work                enjoyed more freedom of movement in their
destination, and acts otherwise described in               free time than their U.S. counterparts, and
the Trafficking Victims Protection Act of                  none of the contract employees complained of
2000 (Divisions A of Public Law 106-386).                  threats, abuse, or coercion.

This review assessed whether USAID/Iraq                    Additionally, the employees indicated that
and its contractors have established sufficient            their pay under the two contracts equaled or
controls to prevent trafficking in persons and             surpassed what they had received from other
whether USAID/Iraq’s contractors and                       employers in Iraq.
subcontractors engaged in trafficking-in-
persons practices. Because the majority of the             After reviewing the report’s observations, the
third-country nationals working to implement               mission identified the most critical issue with
the mission’s program activities were                      potential for trafficking as contractor staff
professional staff at low risk of trafficking, the         members’ ability to return to their home
review focused on USAID/Iraq’s two support                 countries.
contracts to Najlaa International Catering and             In addition, one of the two USAID/Iraq
GSI Business Services. These companies                     contractors did not have employment
employed low-skilled, low-wage, third-country              agreements with its low-skilled, low-wage staff,
nationals    to     provide      food      service,        making them susceptible to abuse.
housekeeping, and maintenance, and their

Recommendations—Management Decisions

There were no recommendations made for this audit.



                                                      45
      Survey of Security Incidents Reported by Private Security
              Contractors of USAID/Iraq’s Contractors and
                      Grantees (No. E-267-11-001-S)

Date:                             November 29, 2010
Implementing Partners:            Research Triangle Institute-Unity Resources Group, International
                                  Relief Development-Sabre International Security, Louis Berger
                                  Group-SallyPort Global Services, Management Systems
                                  International, Cooperative Housing Foundation-Unity Resources
                                  Group, Relief International-Triple Canopy, AECOM International
                                  Development, BearingPoint-Garda World, Development
                                  Alternatives International, Amor Group
Audit Period:                     July 1, 2007, through June 30, 2009
Funding:                          As of December 31, 2009 incurred expenditures totaled
                                  $483 million.

Background—Summary of Findings

Section 862(a) of the National Defense                  documented and reported 94 serious security
Authorization Act for Fiscal Year 2008                  incidents. Two of these, Research Triangle
(NDAA FY 2008) contains provisions for the              Institute and International Relief and
oversight of all private security contractors in        Development, accounted for 72 (74 percent)
areas of combat operations, including Iraq              of the serious incident reports.
and Afghanistan.
                                                        USAID/Iraq has taken numerous steps to
From July 1, 2007, to June 30, 2009,                    implement recommendations from a prior
USAID/Iraq maintained a portfolio of                    OIG audit,1 including issuing a formal notice
contracts and grants with 12 implementing               to partners notifying them of reporting
partners, who held 17 subcontracts for private          requirements, modifying award documents to
security services in Iraq.      According to            require incident reporting, and ensuring that
information provided by USAID/Iraq’s                    all private security contractors for USAID
implementing partners, these 17 subcontracts            implementing partners register with the
for security services incurred cumulative               Ministry of Interior.
expenditures of $483 million was of
December 31, 2009. USAID/Iraq reported                  Nevertheless, partners did not always provide
that the implementing partners incurred                 sufficient oversight of their private security
expenditures of $2.1 billion in program                 contractors (PSCs) with respect to incident
expenses over the same period; therefore,               reporting. This lack of monitoring led to
security services accounted for approximately           reporting deficiencies and missing security
23 percent of the implementing partners’ total          incident reports.     Additionally, none of
costs.                                                  USAID/Iraq’s implementing partners had
                                                        established documented internal procedures
OIG’s survey of security incidents reported by
private security contractors found that over 2          1
                                                          “Audit of USAID/Iraq’s Oversight of Private
years, USAID/Iraq’s implementing partners               Security Contractors in Iraq,” Audit Report No.
and their private security contractors had              267-09-002-P, March 4, 2009.



                                                   46
to monitor the reporting of security incidents              the Iraqi Government, it is critical that
to ensure that such incidents were properly                 implementing partners and their PSCs adhere
reported. Because jurisdiction of private                   to policies, procedures, and requirements.
security contractors has been turned over to

Recommendations—Management Decisions

The audit made 5 recommendations:

    1. That USAID/Iraq require its implementing partners to establish procedures to monitor the
       reporting of security incidents to ensure that such incidents are properly reported in
       accordance with Embassy and USAID guidance and verify that each implementing partner
       has completed this corrective action.

        The mission revised the language of the “Serious Incident Reporting” clause to be included in all mission
        award documents. Although it was a positive response to the recommendation, revising the clause
        language does not address all the elements of the recommendations—specifically, the need to verify that
        each implementing partner has completed corrective actions. Because of ineffective implementation of
        our March 2009 recommendations, OIG is restating its original recommendation and adding a
        requirement for the mission to verify implementing partners’ actions. Furthermore, the mission response
        does not address when the language revisions will be incorporated into mission award documents. A
        management decision can be reached when the mission submits an action plan, with target dates for
        completion, for implementing the recommendations including verification of implementing partners’
        actions. This recommendation is closed.

    2. That USAID/Iraq provide training for the implementing partners to coordinate and
       reinforce roles and responsibilities and to address control weaknesses in security incident
       reporting requirements.

        The mission stated that they will use the quarterly partner meetings as the forum to provide information
        and guidance on the implementation of the requirements contained in the SIR clause set forth in the
        mission’s response to recommendation 1. The management comments from the mission did not state a
        target date for completion of the training, however, subsequently, the mission provided additional
        documentation to support that the quarterly partner meetings were used as a forum to provide
        information and guidance on the implementation of the requirements. Therefore, this recommendation
        is closed.

    3. That USAID/Iraq require its implementing partners to establish and maintain records of
       reported serious security incidents and verify that each implementing partner has completed
       this corrective action.

        The mission revised the language of the “Serious Incident Reporting” clause to be included in all mission
        award documents. Although it was a positive response to the recommendation, revising the clause
        language does not address all the elements of the recommendations—specifically, the need to verify that
        each implementing partner has completed corrective actions. Because of ineffective implementation of
        our March 2009 recommendations, OIG is restating its original recommendation and adding a
        requirement for the mission to verify implementing partners’ actions. Furthermore, the mission response
        does not address when the language revisions will be incorporated into mission award documents. A
        management decision can be reached when the mission submits an action plan, with target dates for



                                                      47
     completion, for implementing the recommendations including verification of implementing partners’
     actions. This recommendation is closed.

4.    That USAID/Iraq develop and provide training for its agreement/contracting officer’s
     technical representatives for their roles in receiving, reviewing, and forwarding serious
     security incident reports to the designated USAID/Iraq mailbox and other associated
     security incident responsibilities.

     The mission included a specific section on the handling of review, reporting, and distribution of the
     serious incident reports in its AOTR/COTR designation letters, and in July 2010, the mission added a
     mandatory briefing with the Office of Acquisition and Assistance to the mission’s check-in process for
     COTR/AOTRs. The briefing includes a detailed review of the SIR reporting procedures and their
     delegated responsibilities. Thus, this recommendation is closed.

5. That USAID/Iraq request Embassy Baghdad to issue instructions for private security
   contractors and their personnel in accordance with Interim Final Rule 32 CFR 159.4(c).

     USAID/Iraq determined and the RIG/ Iraq agreed that a management decision had been reached to
     implement the recommendation. Reference (c) indicates that on April 14, 2011, USAID/Iraq sent a
     formal request to the US Embassy/Iraq's Regional Security Office (RSO) requesting issuance of
     guidance to private security contractors and their personnel in accordance with Interim Final Rule 32
     CFR 159.4(c). This recommendation is closed.




                                                  48
    Audit of USAID/Iraq’s Payroll Payments to Foreign Service
         Nationals, Third-Country Nationals, and U.S. Personal
               Services Contractors (No. E-267-11-001-P)
Date:                             November 22, 2010
Implementing Partners:            Foreign Service Nationals, third-country nationals, and U.S.
                                  personal services contractors
Audit Period:                     January 13, 2010, through May 24, 2010
Funding:                          In calendar year 2009, $8.2 million had been disbursed to direct-
                                  hire workforce in payroll, benefits, and allowances.

Background—Summary of Findings

In 2009, USAID/Iraq paid about $8.2 million             stemmed from concerns about the frequent
in payroll, benefits, and allowances to its non-        rotation of staff and the resulting risk of
U.S. direct-hire employees. This amount                 inaccurate salary payments. The objective of
included approximately $6.5 million in                  the audit was to determine whether
payroll to 57 third-country nationals and 34            USAID/Iraq had properly calculated and
U.S. personal services contractors, $1 million          disbursed payroll payments to its Foreign
in payroll to 43 Iraqi or Foreign Service               Service Nationals, third-country nationals,
National staff, $100,000 in severance and               and U.S. personal services contractors.
retirement payments to nine Foreign Service
National staff, and $564,000 in involuntary             Payments to third-country nationals and U.S.
separate maintenance allowances (for                    personal services contractors were generally
maintaining family members elsewhere than               accurate.      In addition, payments for
at the foreign post of assignment, of necessity)        involuntary separate maintenance allowances
to 53 of its third-country nationals and U.S.           were generally accurate.
personal services contractors. Third-country
nationals who work in Iraq are entitled to the          Payroll and severance or retirement payments
same benefits and allowances as U.S. personal           to Foreign Service Nationals were often
services    contractors,     and   the      U.S.        inaccurate and subject to systemic errors.
Government’s General Schedule pay scale                 Severance and retirement payments for 8 of 9
determines both groups’ salaries. Foreign               Foreign Service National employees were not
Service Nationals’ pay and benefits are                 computed accurately, and overtime payments
established in the local compensation plan              for 12 of 48 Foreign Service Nationals were
prepared by the Department of State.                    not computed accurately. Other errors came
                                                        to light that, although not systemic or
OIG performed this audit in response to a               material, required management attention.
USAID/Iraq request. The mission request




                                                   49
Recommendations—Management Decisions

The audit made 8 recommendations:

1.    Clarify in writing the relevant sections of the Local Compensation Plan for the Bangkok
      payroll office to understand the types of allowances to be included in the computation of
      unused annual leave.

      The mission sought clarification from the embassy for the Local Compensation Plan. The Local
      Compensation Plan has been updated, effective October 10, 2010, and the section related to allowances
      for payment of unused annual leave was updated with the necessary explanation. This recommendation
      is closed.

2.    Establish written procedures to obtain the computation package of severance and retirement
      payments from the Bangkok payroll office for verification before processing payment.

      The mission has established written procedures requiring the financial management office to (1) obtain
      from the Bangkok payroll office the computation of severance and retirement payments and (2) review
      the computation for accuracy before processing payments for separated employees. This recommendation
      is closed.

3.    Determine the amount of underpayments in unused leave and severance pay to Foreign
      Service National employees, and pay any amounts due.

      The mission’s payroll specialist is coordinating with the mission human resources office to obtain the
      personnel actions to determine the amount of underpayments in unused leave and severance pay to
      separated Foreign Service National employees. Accordingly, a management decision has been reached
      and this recommendation is open.

4.    Remind staff of the mission’s overtime policy and the procedures for recording overtime in
      time and attendance sheets.

      The mission’s payroll specialist provides a biweekly e-mail reminder to the mission’s Foreign Service
      National staff of the overtime policy and approval processes. The e-mail also references the mission order
      on overtime and provides instructions for proper recording of overtime in time and attendance sheets.
      This recommendation is closed.

5.    Establish procedures to require the financial management office to review time sheets for
      overtime hours recorded and resolve discrepancies before entering the time into the
      electronic time and attendance system.

      The mission has payroll desk procedures that address the review of time and attendance. The relevant
      procedure requires the payroll specialist to review time and attendance and make sure that the overtime
      and leave forms are signed by the authorized supervisors. The payroll specialist questions any
      discrepancies, which are corrected before the specialist records information in the electronic time and
      attendance system. This recommendation is closed.

6.    Clarify in writing the different overtime rates and the standard workweek in Iraq, as stated in
      the Local Compensation Plan, for the Bangkok payroll office.



                                                     50
     The mission discussed the issue of different overtime rates and the standard workweek in Iraq with the
     embassy’s human resources officials. The embassy’s human resources office has addressed the problem
     with the Bangkok payroll office, and the necessary corrections were made in the payroll system at the
     beginning of calendar year 2010. This recommendation is closed.

7.   Recompute underpayments to employees and pay any amounts due, and prepare bills of
     collection to recover overpayments from employees.

     The mission recomputed the amounts of underpaid involuntary separate maintenance allowance and
     post differential. The mission is in the process of making payments to employees for underpayments and
     issued a bill of collection to a former employee to recover an overpayment. This recommendation is open.

8.   Reinforce to all staff the mission’s overtime approval processes.

     The mission sends staff a biweekly e-mail reminder of the mission’s overtime policies and approval
     processes. The e-mail reminder includes as an attachment the mission order on overtime policy. This
     recommendation is closed.




                                                   51
52
                           Performance Audits
                                 Fiscal Year 2010
      Audit of USAID/Iraq's Implementation of the Iraq Financial
                  Management Information System
                        (No. E-267-10-002-P)

Date:                            September 19, 2010
Implementing Partners:           BearingPoint, Inc.
Audit Period:                    July 2003, through July 2009
Funding:                         As of November 1, 2009, USAID had expended approximately
                                 $32.6 million.

Background—Summary of Findings

The Iraq Financial Management Information              These issues occurred for two main reasons.
System was designed to help the Iraqi                  First, the contractor did not provide key
Government formulate, execute, and monitor             contract deliverables, including purchasing
central government budgets. The system was             and budget modules, an offline data-entry
developed under two contracts between                  tool, or enhanced reporting tools, and
USAID and BearingPoint Inc. that ran from              participants were not satisfied with the
July 2003 through July 2009 for a total cost of        training that the contractor had provided.
$37.4 million (including $4.8 million from             Second, in the urgent pressure to develop the
the U.S. State Department.)                            system in postwar Iraq, the contractor did not
                                                       follow certain best practices for systems
Although      BearingPoint      completed     a        development, including obtaining functional
substantial amount of systems development,             user requirements, selecting a system on the
equipment procurement, and training, the               basis of system and user requirements,
Iraq Financial Management Information                  developing a concept design, obtaining
System has not been fully implemented and              customer buy-in and support, or conducting
has not achieved its goals of helping the              system testing. Had the contractor followed
Government of Iraq formulate, execute, and             these best practices, it could have prevented
monitor central government budgets. The                many of the problems we found. In addition,
system was not being used as the Government            USAID/Iraq stated that a lack of support and
of Iraq’s system of record, and the system             commitment by some officials within the Iraqi
could not produce complete trial balances,             Ministry    of    Finance     had    hindered
useful reports for individual ministries and           implementation of the system.
offices, or information needed to perform
                                                       To address these issues, the report
bank reconciliations. It also could not support
                                                       recommends that USAID refrain from
voucher numbers that would uniquely
                                                       funding further system development efforts
identify individual ministries and offices or
                                                       until the Iraq mission has developed a strategy
support multiple budgets for individual
                                                       for correcting system deficiencies.
ministries and offices.




                                                  53
USAID concurred with the recommendation                     System because of a lack of support for it
and is not planning any further funding of the              within the Iraqi Ministry of Finance.
Iraq Financial Management Information

Recommendations—Management Decisions

The audit made one recommendation to improve USAID/Iraq project management:

1.    That USAID/Iraq refrain from further funding of the Iraq Financial Management
      Information System until the mission develops a documented action plan that specifically
      addresses ongoing impediments to the successful implementation and sustainability of the
      system. This action plan should include the following elements: (1) identification of
      outstanding technical problems in full collaboration with the Ministry of Finance of the
      Government of Iraq, (2) determination of whether these outstanding technical problems can
      be resolved and by whom, (3) resolution of outstanding technical problems before training is
      provided in an area with functional issues, (4) training designed to meet the needs identified
      by Iraq system users from the Ministry of Finance, and (5) identification of and adherence to
      information technology best practices, such as Control Objectives for Information and Related
      Technology.

      USAID/Iraq concurred with our recommendation. According to the mission, all funding has concluded
      and USAID/Iraq is not planning any further funding of the Iraq Financial Management Information
      System. USAID/Iraq stated that if the Iraqi Ministry of Finance were to demonstrate an unequivocal
      commitment to support the Iraq Financial Management Information System and requested USAID
      assistance, the mission would consider additional support. If such support were provided in the future, it
      would be developed using an action plan that includes the elements in the OIG recommendation. Based
      on the mission’s plans and comments, we consider this recommendation to be closed.




                                                      54
     Audit of USAID’s Internally Displaced Person Activities in Iraq
                         (No. E-267-10-001P)

Date:                             March 31, 2010
Implementing Partners:            International Medical Corps, International Relief and
                                  Development, and Mercy Corps
Audit Period:                     October 1, 2006, through September 30, 2008
Funding:                          Cumulative awards under the program totaled $190 million during
                                  fiscal years 2007 and 2008 awards. We examined eight awards
                                  totaling $115 million, of which $51 million was expended during
                                  the period.

Background—Summary of Findings

USAID’s Office of Foreign Disaster Assistance            service beneficiaries.       OFDA’s partners
(OFDA) provided emergency assistance to                  reported 33.7 million beneficiaries, but this
help Iraq’s 2.8 million internally displaced             figure overstated the population of Iraq by 3
persons meet their basic needs. We found that            million individuals. In one case, 262,482
OFDA’s partners had completed 90 percent of              individuals reportedly benefited from the
planned activities and that these activities had         purchase of medical supplies meant to treat
achieved goals of saving lives, alleviating human        only 100 victims of a specific attack.
suffering, and reducing the social and economic
impact of humanitarian emergencies for                   The audit concludes that OFDA personnel
internally displaced and vulnerable persons.             extended five of seven awards beyond existing
However, we also observed several significant            award completion dates even though they
issues requiring OFDA’s attention.                       lacked the authority to do so. After receiving
                                                         these unauthorized award extensions, the
We found significant anomalies in signatures             implementing partners incurred $10 million
and fingerprints submitted as evidence of                in additional costs. These unauthorized
payments to beneficiaries. As a result, we               commitments occurred because OFDA had
questioned $766,490 in incurred costs and                not taken action to promptly address a prior
referred the matters to our Office of                    OIG audit recommendation to formally
Investigations.                                          designate individuals authorized to manage
                                                         the awards.
The program was also characterized by other
kinds of overstatements about the number of

Recommendations—Management Decisions

The audit made 12 recommendations to improve internally displaced persons activities:

1.    That OFDA establish and implement a plan for both OFDA and partner staff to provide
      performance monitoring and oversight for its awards in Iraq. Such a plan should include,
      among other actions, regular reviews of partner reports, compliance with award requirements,
      and random checks to ensure that implementing partners have support for claimed results.




                                                    55
     OFDA concurred with the recommendation and presented a list of actions to address it. OFDA planned
     to complete all of these actions by the end of fiscal year 2010. The actions included completing
     standardized program reporting guidance, completing requirements for implementing partners to
     periodically report on the progress of program activities and performance, ongoing development of standard
     reporting indicators for OFDA programs, ongoing development of a Web-based online database system to
     improve program results data, and the continued development of third-party services to provide field
     monitoring and evaluation of program activities. On the basis of the management comments provided by
     OFDA, a management decision has been reached on recommendation 1. This recommendation was
     closed after OFDA completed the planned actions indicated in its response.

2.   That OFDA’s agreement officer determine the allowability and collect, as appropriate, the
     $46,980 in questioned ineligible costs billed by International Medical Corps for
     Implementation Plan No. 11 under Cooperative Agreement No. DFD-A-00-05-00030-00.

     OFDA provided no response to this recommendation pending the outcome of our office’s investigation into
     the matter. In the meantime, this recommendation remains open.

3.   That OFDA’s agreement officer determine the allowability and collect, as appropriate, the
     $168,080 in questioned ineligible costs billed by Mercy Corps for Project Code DY/145 under
     Grant No. DFD-G-00-05-00027-00.

     OFDA provided no response to this recommendation pending the outcome of our office’s investigation into
     the matter. In the meantime, this recommendation remains open.

4.   That OFDA’s agreement officer determine the allowability and collect, as appropriate, the
     $373,021 in questioned ineligible costs billed by Mercy Corps for Project Code DY/161 under
     Grant No. DFD-G-00-05-00027-00.

     OFDA provided no response to this recommendation pending the outcome of our office’s investigation into
     the matter. In the meantime, this recommendation remains open.

5.   That OFDA’s agreement officer determine the allowability and collect, as appropriate, the
     $178,409 in questioned ineligible costs billed by Mercy Corps for Project Code DY/171 under
     Grant No. DFD-G-00-05-00027-00.

     OFDA provided no response to this recommendation pending the outcome of our office’s investigation into
     the matter. In the meantime, this recommendation remains open.

6.   That OFDA provide clear guidance to its implementers on how to count beneficiaries.

     The guidance for counting individuals is included in the USAID/OFDA Guidance for Unsolicited
     Proposals and Reporting launched October, 2008. Therefore this recommendation is closed.

7.   That OFDA perform an immediate review of its portfolio of awards in Iraq and ensure that
     each award, as appropriate, has an up-to-date, designated agreement officer’s technical
     representative.




                                                     56
      OFDA disagreed with this recommendation and deemed it unnecessary to complete an immediate review
      of its portfolio of awards in Iraq to ensure that each award had an up-to-date designated agreement
      officer’s technical representative (AOTR). Nevertheless, OFDA provided documentation of AOTR
      designation letters for all current grants and cooperative agreements in Iraq. On the basis of our review of
      these documents, we consider this recommendation closed.

8.    That OFDA prepare an action memorandum to the Director, Office of Acquisition and
      Assistance, requesting the ratification of $3,150,751 in costs billed by the Agency for Technical
      Cooperation and Development during the period from June 30 to September 30, 2008, under
      Grant No. DFD-G-00-05-00106-00.

      In a memorandum sent to USAID/OFDA Deputy Director by the RIG/Iraq on September 29, 2010,
      the agreement officer (AOTR) conducted a detailed inspection and prepared a written memorandum to
      clarify the situation. The agreement officer also determined that ratification was not required to rectify the
      recommendation because no unauthorized commitment with respect to obligation of funds was involved.
      However, a memorandum to the file and the inclusion of AOTR letter was required to correct procedural
      authorities in regard to AOTR designations. This recommendation is closed.

9.    That OFDA prepare an action memorandum to the Director, Office of Acquisition and
      Assistance, requesting the ratification of $455,151 in costs billed by International Medical
      Corps during the period from March 31 to July 31, 2007, under Grant No. DFD-A-00-05-
      00030-00.

      This recommendation is closed. For more information on the status of this recommendation, see the
      discussion under recommendation 8.

10.   That OFDA prepare an action memorandum to the Director, Office of Acquisition and
      Assistance, requesting the ratification of $1,864,831 in costs billed by International Medical
      Corps during the period from June 30 to September 30, 2008, under Grant No. DFD-G-00-05-
      00026-00.

      This recommendation is closed. For more information on the status of this recommendation, see the
      discussion under recommendation 8.

11.   That OFDA prepare an action memorandum to the Director, Office of Acquisition and
      Assistance, requesting the ratification of $2,219,896 in costs billed by International Relief and
      Development, Inc., during the period from June 30 to September 30, 2008, under Grant No.
      DFD-G-00-05-00028-00.

      This recommendation is closed. For more information on the status of this recommendation, see the
      discussion under recommendation 8.

12.   That OFDA prepare an action memorandum to the Director, Office of Acquisition and
      Assistance, requesting the ratification of $2,305,033 in costs billed by Mercy Corps during the
      period from June 30 to September 30, 2008, under Grant No. DFD-G-00-05-00027-00.

      This recommendation is closed. For more information on the status of this recommendation, see the
      discussion under recommendation 8.




                                                        57
58
                           Performance Audits
                                 Fiscal Year 2009
              Audit of USAID/Iraq’s Rapid Assistance Program
                           (No. E-267-09-005P)

Date:                            August 16, 2009
Implementing Partner:            Development Alternatives, Inc.
Audit Period:                    September 28, 2007, to September 30, 2010
Funding:                         As of March 31, 2009, cumulative obligations and expenditures
                                 under the program totaled approximately $165.0 million and $64.2
                                 million, respectively, and USAID had awarded 566 grants, valued at
                                 $75.9 million.

Background—Summary of Findings

USAID’s $200 million Iraq Rapid Assistance             least 18 of the 40 grants reviewed—45
Program (IRAP) was designed to provide                 percent—that underscored the need for
provincial reconstruction teams in Iraq with           improved oversight.
flexible mechanisms (grants) to make funds
available to community-based leaders and               An examination of available expense records
local organizations and institutions. These            disclosed evidence of fictitious invoices,
funds were intended to support efforts to              possible cost manipulation, and other
improve citizen access to public services,             improper billing practices. Indications of
education, and economic opportunities.                 possible fraud or abuse were further
Development Alternatives, Inc. (DAI), a                substantiated during the audit when
consulting firm located in Washington, DC,             allegations were received of a payroll scheme
was hired by USAID to implement the IRAP.              under one of the active grants. The scheme
                                                       reportedly involved both the grantee and the
OIG’s audit found that at least 30 of 40               implementing partner’s subcontractor—the
grants tested—75 percent—were contributing             entity responsible for monitoring the grantee.
positively to IRAP’s goals and had fully or            These irregularities were referred to OIG’s
substantially achieved the grants’ intended            Office of Investigations for further
results. However, the audit also identified a          investigative review.
series of financial irregularities involving at

Recommendations—Management Decisions

The audit made three recommendations to improve monitoring procedures and controls:

1.    That USAID/Iraq require its implementing partner to establish appropriate procedures for
      monitoring active IRAP grants to ensure that (1) implementation problems are identified,
      addressed, and reported to both USAID/Iraq and the responsible USAID PRT representative
      in a timely manner and (2) the quality of the work performed and goods provided are at an
      acceptable level that is consistent with the intent of the grant.



                                                  59
     DAI launched an internal review into and methodological examination of the specific issues we raised.
     The contractor planned monthly training on specific monitoring functions and procedural controls and
     required its senior local staff members to conduct surprise site visits, as security conditions permit, to
     ensure that implementation is occurring as planned.

     DAI also required its staff to perform spot checks to independently verify the quality of goods and services
     provided and to inform USAID and the relevant provincial reconstruction team representative of any
     issues or concerns related to grant implementation. DAI planned to supplement these monitoring efforts
     by hiring individuals capable of performing spot checks and visits to IRAP grant venues independent of
     DAI’s local staff and that of its subcontractors.

     The mission also reported that DAI took steps to improve the reporting and line of communication
     between it and the provincial reconstruction teams, particularly with regard to the availability of status
     updates on all IRAP grant activities. This recommendation is closed.

2.   That USAID require the contractor to adhere to prescribed payroll procedures when
     administering grantee payroll activities.

     The contractor instructed its subcontractors to desist from transferring payroll funds to grantees and
     started requiring its expatriate grant managers to conduct surprise visits to the grant sites, as security
     permits, to ensure that salary payments are distributed in line with procedures.

     DAI has also tasked one of its grants managers with reviewing grants involving salary payments to verify
     that these payments are made properly each month and are documented using a predesigned form,
     indicating the amount each employee is authorized to be paid and signed by the employee, the grantee,
     and subcontractor representative overseeing the distribution.

     Finally, DAI has committed to ensuring that its staff and that of the subcontractor undergo continuous
     training on DAI financial policies and procedures established for the program. This recommendation is
     closed.


3.   That USAID require the contractor to ensure that invoices and other records supporting
     expense claims are reviewed more thoroughly so that irregularities are detected and addressed.

     The mission reported that DAI initiated an internal investigation to determine whether the irregularities
     we identified are more widespread.

     DAI committed to having an internal auditor from its U.S. home office travel quarterly to Iraq to review
     existing systems and the subcontractors’ expenses. The contractor also outlined a process performing a
     detailed review of the vouchers and supporting expense records provided to DAI by its subcontractors to
     ensure that receipts are allowable, allocable, reasonable, and valid. This recommendation is closed.




                                                      60
        Audit of USAID/Iraq’s Economic Governance II Program
                         (No. E-267-09-004P)

Date:                               June 3, 2009
Implementing Partner:               BearingPoint, Inc.

Audit Period:                       September 3, 2004, to September 12, 2008

Funding:                            As of December 16, 2008, $223 million had been obligated and
                                    $195 million disbursed.

Background—Summary of Findings

The Economic Governance II (EGII)                           However, after 4 years the program has not
Program, begun in September 2004, was                       been successful in providing the foundation
designed to provide technical assistance to the             for an open, modern, mixed-market economy,
Government of Iraq to develop and enable                    and it has not made a significant impact upon
economic reforms through policy, regulations,               the economic environment in Iraq. The EGII
laws, and institutional structures that would               Program aimed to improve seven key
foster a competitive private sector.         To             economic areas through the accomplishment
implement the program, USAID awarded a                      of 398 individual tasks. However, USAID
$223 million contract to BearingPoint, Inc., to             officials did not establish a systematic
develop and implement international best-                   mechanism to monitor the myriad tasks and
practice techniques that would improve Iraq’s               thus could not track whether the tasks had
economic governance and promote an                          been performed, were on schedule, or were
environment for growth led by the private                   behind schedule. As a result, fewer than half
sector.                                                     of the originally planned 398 tasks had been
                                                            performed.

Recommendations—Management Decisions

The audit report made 12 recommendations:

1.    That USAID develop a systematic monitoring process for the EGII Program to collect, record,
      organize, and track the status of each task required by the contract, or its modification, within
      30 days from the issuance of this report.

      USAID has developed a systematic monitoring and evaluation process for the EGII Program that will
      collect, record, organize, and track the status of each task required by the contract or its modification.
      This recommendation is closed.

2.    That USAID review and revise the EGII Program performance indicators listed in its
      performance management plan to ensure that they are reasonably attributable to USAID
      activities, in accordance with USAID’s Automated Directives System 203.3.




                                                      61
     USAID/Iraq has adjusted the performance targets and indicators to capture the results under all major
     program components and to ensure that they are reasonably attributable to USAID activities. This was
     done in the revised performance monitoring plan approved by USAID/Iraq on May 3, 2009. This
     recommendation is closed.

3.   That USAID request the contractor to prepare a schedule of all program-funded information
     technology (IT) projects in accordance with USAID’s Automated Directives System 548.3.

     The EGII contractor has responded to USAID/Iraq’s request to prepare a schedule of all program-funded
     IT projects in accordance with USAID’s Automated Directives System 548.3, and a schedule of EGII’s
     IT projects costing over $100,000 was prepared by the contractor on February 11, 2009. This
     recommendation is closed.

4.   That USAID review all technology projects and submit those with a cost of at least $100,000
     to USAID’s Office of Chief Information Officer/Business, Consulting, and Customer Service
     Division for approval.

     USAID/Iraq reviewed all IT projects from the EGII Program and submitted those with a cost of
     $100,000 to USAID’s Office of Chief Information Officer/Business, Consulting, and Customer Service
     Division for approval. This recommendation is closed.

5.   That USAID/Iraq modify the EGII Program contract to require that all program-funded
     activities with an information technology component of at least $100,000 over the full
     information technology project life cycle be submitted to USAID for independent verification
     and validation review and approval, in accordance with Automated Directives System 548.3.

     USAID/Iraq modified the EGII Program contract to reiterate the requirement on March 5, 2009. This
     recommendation is closed.

6.   That USAID’s Office of Acquisition and Assistance modify the EGII Program contract to
     reduce the subcontract consent threshold to the appropriate level.

     The subcontract threshold was never included in the EGII contract. Because of a letter of authorization
     signed by the awarding contracting officer, the contractor utilized a higher threshold for subcontract
     consent than is authorized by the FAR. USAID/Iraq’s Office of Acquisition and Assistance rescinded
     that letter of authorization on February 11, 2009, and required the contractor to abide by the
     subcontracting consent threshold stipulated in the FAR ($100,000 for all non-commercial items/services
     subcontracts). This recommendation is closed.

7.   That USAID require its EGII Program contractor to prepare and submit a comprehensive
     nonexpendable property report of program-funded assets as required by USAID Acquisition
     Regulation 752.245-70.

     USAID/Iraq EGII contractor responded to USAID/Iraq’s request to prepare a comprehensive
     nonexpendable property report of program-funded assets and submitted it to the mission on April 28,
     2009. This recommendation is closed.

8.   That USAID require its EGII Program contractor to complete a nonexpendable property plan
     as required by USAID Acquisition Regulation 752.245-71(b).



                                                   62
      USAID/Iraq EGII contractor executed and completed its nonexpendable property plan and submitted it
      to USAID/Iraq. This recommendation is closed.

9.    That USAID’s EGA [Economic Growth and Agriculture] Office develop policies and
      procedures to ensure that annual reports on all nonexpendable property are conducted by its
      contractors in accordance with USAID Acquisition Regulation 752.245-71(b).

      USAID/Iraq’s EGA Office developed policies and procedures to ensure that annual reports on all
      nonexpendable property are conducted by its contractors. This recommendation is closed.

10.   That USAID/Iraq’s Office of Acquisition and Assistance, in conjunction with input from the
      EGII Program cognizant technical officer, modify the EGII Program contract to include the
      minimum performance reporting requirements that are necessary to monitor the contractor’s
      performance. The schedule should include the content of the required reports, their
      frequency, and due dates.

      USAID/Iraq modified the EGII Program contract to include the minimum performance reporting
      requirements that are necessary to monitor the contractor’s performance. The schedule includes the content
      of the required reports, their frequency, and the due dates. This recommendation is closed.

11.   That USAID/Iraq update an EGA Office procedure, dated August 20, 2004, to include a
      regular review of cognizant technical officer work files by the cognizant technical officer’s
      supervisor, to ensure that they are being prepared.

      USAID/Iraq’s EGA Office updated its procedure on April 30, 2009, to include a regular review of
      cognizant technical officer work files by the cognizant technical officer’s supervisor, to ensure that they are
      being prepared. This recommendation is closed.

12.   That USAID direct the EGII Program contractor to modify the subcontract language in the
      two independent consultant agreements to include the required provision pertaining to the
      executive order on terrorism financing and to obtain a copy of the modified contract as
      confirmation.

      The EGII Program contractor modified the language in its standard independent consultant agreements
      and subcontracting agreements in section H.12 to include the required provision pertaining to the
      executive order on terrorism financing. This recommendation is closed.




                                                        63
     Audit of USAID/Iraq’s Local Governance Program II Activities
                         (No. E-267-09-003P)

Date:                               May 31, 2009
Implementing Partner:               Research Triangle Institute

Audit Period:                       May 2005 to September 2008

Funding:                            As of February 24, 2009, $370 million had been obligated and
                                    $312 million had been disbursed.

Background—Summary of Findings

As part of the Local Governance Program—                    LGPII also aimed to strengthen local
Phase II (LGPII) USAID awarded Research                     governance by building the capacity of local
Triangle Institute a 2-year, $90 million base               council members and Iraqi governmental
contract. The contract had 3 option years, 2                officials. However, USAID/Iraq did not
of which had been exercised, extending the                  establish criteria for selecting recipients of
contract through 2009. Including the option                 training and, moreover, approved a demand-
years, the award had increased to $370                      driven and decentralized approach that
million, and as of November 19, 2008,                       essentially allowed Iraqi officials to enroll in
$290 million had been disbursed. The project                whatever training courses they felt would
was designed to consolidate gains made                      benefit them. Consequently, approximately
during the first Local Governance Program,                  27,000 Iraqis received training, but the
which ran from 2003 to 2005, and to                         success or short-term impact of that significant
continue working with Iraqis to establish and               amount of training on improving local
strengthen the conditions, institutions,                    governance was not measured. In addition,
capacity, and legal and policy framework for a              controls to prevent officials from taking
democratic local governance system. LGPII                   courses more than once had not been
achieved some success with the technical                    established. As a result, officials misused the
assistance and training that it provided to                 training program by taking some courses
Iraq’s provincial councils.                                 multiple times.


Recommendations—Management Decisions

The audit report made five recommendations:

1.    That, under the Local Governance Program–Phase III (LGP III), USAID specifically review
      and approve any training course proposed by its implementing partner to be offered to Iraqi
      governmental officials.

      The task order for LGP III contains explicit language that requires the contractor to submit all training
      materials for prior review and approval by the mission. The contracting officer’s technical representative
      (COTR) for LGP III confirmed that as of April 30, 2009, RTI had been diligent in meeting the
      requirements of the contract and was submitting training courses for USAID review in a timely manner.
      This recommendation is closed.




                                                      64
2.   That USAID develop and implement controls under LGP III to ensure that training
     participants do not take training courses more than once unless justified.

     USAID/Iraq Office of Democracy and Governance verified with its contractor that for LGP III, there
     are minimal formal training events planned and therefore the risk of duplicative training is practically
     nonexistent. LGP III monitoring and evaluation staff will also review the training database quarterly to
     determine whether any participants have been taking courses more than once and will report this
     information in progress reports to the COTR. Also, a revised training participant registration form has
     been implemented that requires training applicants to indicate whether they have been enrolled in prior
     training programs with justification. This recommendation is closed.

3.   That USAID require LGP III implementing contractor to develop criteria for selecting training
     participants and to implement controls to ensure compliance with the selection criteria.

     The potential pool of recipients of LGP III training/technical assistance has been clearly identified and
     limited only to provincial council members and governors and their staffs. This recommendation is closed.

4.   That USAID require contractor performance reviews (CPRs) to be prepared promptly by
     contracting officers and not redelegated to other staff members.

     USAID issued a notice in late December 2009 with guidance on reporting and evaluating CPRs. The
     notice reaffirms the need for initiating the CPR evaluation process on an annual basis and upon
     completion of performance. This notice also advises contracting officers that they cannot redelegate their
     responsibility for entering CPRs in the contractor performance review database. This recommendation is
     closed.

5.   That USAID/Iraq establish a procedure to ensure that contractor performance reviews
     prepared by contracting officers and COTRs are accurately supported and represent the actual
     performance of the contractors.

     USAID issued a notice in late December 2009 with guidance on reporting and evaluating CPRs. This
     notice reminded USAID/Iraq’s COTRs and office chiefs of the mission’s procedures relating to CPRs.
     This recommendation is closed.




                                                     65
   Audit of USAID/Iraq’s Oversight of Private Security Contractors
                    in Iraq (No. E-267-09-002P)

Date:                             March 4, 2009
Implementing Partner:             Various implementing partners

Audit Period:                     October 1, 2007, to September 30, 2008

Funding:                          As of September 30, 2008, cumulative obligations and expenditures
                                  associated with these subcontracts totaled approximately $375.1
                                  million and $278.9 million, respectively.

Background—Summary of Findings

USAID relies on private security contractors             the case at all three of the implementing
to provide a variety of security services for its        partners visited, as evidenced by the partners’
programs in Iraq, including protection of                lack of familiarity with prescribed reporting
individuals, nonmilitary transport convoys,              procedures, as well as the limited records on
buildings, and housing areas. While the                  file   documenting         previously  reported
USAID mission in Iraq does not maintain any              incidents. Often relying on the security
direct contracts with private security                   contractors to report these incidents, partners
contractors, security services are procured by           felt little need to become involved in
the mission’s implementing partners, who                 overseeing the reporting process. As a result,
have primary responsibility for oversight. OIG           partners were not in a position to detect
conducted this audit to determine whether                reporting deficiencies such as the ones
the mission had managed its contracts and                identified by the audit, allowing some
grant agreements with implementing partners              incidents to be reported improperly or, in one
to ensure that the partners provided adequate            case, not reported at all.
oversight of the contractors.
                                                         In addition, incident reports issued by the
At the time of the audit, the mission                    security contractors were often not received by
maintained a portfolio of 12 contracts and               the USAID mission. With these contractors
grant agreements that had a private security             now subject to Iraqi laws—under the terms of
subcontract, and cumulative obligations for              the latest Security Agreement with the
these contracts totaled more than $375                   Government of Iraq—stronger oversight is
million.                                                 needed to ensure that private security
                                                         contractors clearly understand and follow
The audit found that USAID’s implementing                prescribed     operational    procedures     in
partners were not adequately overseeing the              reporting serious incidents and that they
private security contractors’ reporting of               notify the U.S. Government of these incidents
serious incidents to ensure that those                   promptly.
incidents were reported properly. This was




                                                    66
Recommendations—Management Decisions

OIG made the following recommendations:

1.   Require implementing partners to establish procedures to monitor the reporting of serious
     incidents to ensure that such incidents are properly reported.

2.   Require implementing partners to notify the mission of all serious incidents by including the
     mission in the reporting of these incidents.

     USAID/Iraq modified 21 active prime contracts and assistance awards to include serious incident
     reporting requirements that outline procedures for implementing partners to monitor and report such
     incidents to the mission. In March 2009, USAID/Iraq communicated these new requirements to all
     implementing partners. These recommendations are closed.




                                                  67
   Audit of USAID/Iraq’s National Capacity Development Program
                        (No. E-267-09-001P)

Date:                              November 25, 2008

Implementing Partner:              Management Systems International, Inc. (MSI)

Audit Period:                      July 31, 2006, to August 4, 2008

Funding:                           Cumulative obligations and expenditures as of December 13, 2008,
                                   for this $339.5 million level-of-effort contract were $299,353,003
                                   and $131,607,443, respectively.

Background—Summary of Findings

The emerging Government of Iraq inherited a               In addition, OIG observed that there was a
challenging         governance         apparatus          poor response rate to post-training surveys
characterized by weak and disorganized                    that sought to ascertain whether Iraqi trainees
institutions     lacking     in    transparency,          had found their training valuable in
accountability,       and        interministerial         improving their ministry or unit. Also, at the
coordination. This resulted in weak service-              time of the audit, certain other key program
delivery and policy-making capabilities. To               activities had not been carried out. For
help the Government of Iraq strengthen the                example, the program had not been able to
capabilities of key ministries to deliver services        place advisers in two government ministries,
to its people, USAID awarded a                            and the Ministry of Oil had not developed a
$339.5 million contract to Management                     capacity building plan.
Systems International, Inc. (MSI), to
implement        the     National       Capacity          The audit did note that certain program
Development Program.                                      activities were being carried out. For example,
                                                          the program provided training to almost
Through the National Capacity Development                 3,000 Iraqi civil servants, awarded
Program, USAID is focused on improving the                scholarships for postgraduate study abroad,
broad managerial capacity of key ministries to            and established 3 regional training centers.
deliver services.     The goal is to be                   Nevertheless, data was not available to show
accomplished by providing training and                    that these and other such activities were in
mentoring for officials at selected key                   fact contributing to an overall goal of helping
ministries. However, 2 years into the 3-year              to increase the managerial capacity of Iraqi
program, there was no evidence to measure                 ministries.
whether this overall goal of capacity building
is being achieved.




                                                     68
Recommendations—Management Decisions

OIG made the following four recommendations to USAID/Iraq to improve its management of the
program:

1.   That USAID include outcome indicators that measure improvement of Iraqi ministries to
     deliver core services in the performance management plan.

     The mission has added outcome indicators to its National Capacity Development Performance
     Development Plan, including an indicator on budget execution, to help measure the improved service
     delivery of key ministries. This recommendation is closed.

2.   That USAID require the contractor to work with the Ministry of Oil to draft a capacity
     development plan.

     The mission concluded that it was not feasible to develop a capacity development plan with the Ministry
     of Oil but required the National Capacity Development contractor to use the Organizational Self-
     Assessment and Transformation Program (OSTP) as a substitute for a capacity development plan. The
     contractor worked with the Ministry of Oil using the OSTP tool in four divisions covering the full range of
     Ministry of Oil upstream and downstream operations and identified priorities for organizational reform,
     including those in the areas of people knowledge, leadership, processes, and finance. This recommendation
     is closed.

3.   That USAID implement a plan to increase the response rate for surveys so as to provide valid
     results in measuring outcome measures.

     USAID/Iraq amended the National Capacity Development Performance Management Plan for FY
     2007-2009 to increase the response rate for surveys with the aim of capturing valid results. This
     recommendation is closed.

4.   That USAID add an output indicator to measure the number of scholarships utilized.

     USAID/Iraq added an output indicator to the National Capacity Development Performance
     Management Plan for FY 2007-2009 to measure the number of graduate-level scholarships utilized
     abroad. This recommendation is closed.




                                                     69
70
                            Performance Audits
                                   Fiscal Year 2008
                  Audit of USAID/Iraq’s Agribusiness Program
                             (No. E-267-08-006P)
Date:                             September 30, 2008

Implementing Partner:             Louis Berger Group, Inc. (LBG)
                                  Texas A&M—College Station
                                  Associates in Rural Development, Inc. (ARD)
                                  Agland Investment Services, Inc. (AIS)
                                  International Center for Agricultural Research in the Dry Areas
                                  (ICARDA)
                                  Sallyport Security Corporation (SSC).

Audit Period:                     May 14, 2007, through July 15, 2008

Funding:                          3-year, $209 million cost-plus-fixed-fee contract with two
                                  1-year options worth $68 and $66 million respectively.
                                  As of July 15, 2008, $92.5 million had been obligated.

Background—Summary of Findings

Iraq has experienced a dramatic decline in              is an important element in creating a stable,
agricultural production during the past few             prosperous, and democratic Iraq.
decades. While Iraqi farmers supplied about
half of the country’s food supply in 1980, by           To address this issue, USAID awarded a 3-
2002 more than 80 percent of many basic                 year, $209 million contract in May 2007 to a
staples had to be imported. Given that                  consortium led by the Louis Berger Group,
agriculture and related businesses constitute           Inc., to implement an agribusiness program
Iraq’s largest source of employment and are             known as Inma—Arabic for “growth.” This
second only to oil in their contribution to             program was designed to provide agricultural
national income, revitalizing Iraqi agribusiness        and business development services to USAID
                                                        beneficiaries in strategic locations in Iraq.

Recommendations—Management Decisions

Because of delays in the startup of USAID’s Agribusiness Program, auditors could not determine
whether 10 of 12 activities were achieving planned results or the degree to which the program was
having an impact on Iraq. The program only recently completed its first year of activities and had not
yet yielded performance data. The program has produced interim reports indicating that some
program activities are making early progress toward achieving their targets. However, auditors
determined that 2 of 12 agribusiness activities reviewed by the audit were not achieving intended
results. These activities are described below.




                                                   71
1. Dates. The program set an initial target of increasing the gross sales of dates by 150 percent
   over 3 years. This target likely will not be achieved because it is too ambitious for the current
   state of the Iraqi date industry. Also, the program did not build on USAID’s previous date-
   production initiative as called for in the Inma contract. Diminished results for dates will make
   the program’s overall sales and employment goals more difficult to achieve.

2. Education. The master’s degree activity likely will not realize its goal—to award master’s degrees
   in agribusiness to 25 Iraqi citizens—because few qualified candidates have been identified to
   begin studying in the fall of 2008. As a result, the $5 million allocated to cover the travel,
   living, and educational costs of the participants likely will not be fully used.

       The audit also identified other areas in which USAID could improve its management of the
       agribusiness program: adding or revising performance indicators; improving the utility of
       financial reports; and ensuring that a provision to prevent the possible financing of terrorism is
       included in all subcontracts. This report includes eight recommendations to address the
       identified findings:

1.       That USAID review and revise the performance target for the date sector in light of current
         market information and adjust targets for other agricultural commodities, as appropriate, to
         help ensure that the overall sales and employment targets for agribusiness program are
         achievable.

         USAID/Iraq agreed that the performance target of a 150-percent increase in date sales over 3 years
         was overly ambitious. Inma and International Business and Technical Consultants, Inc. (IBCTI),1
         revised this target to a more realistic level. Adjusted targets were included in a performance monitoring
         plan approved by USAID. This recommendation is closed.

2.       That USAID reassess the feasibility of sending 25 students to the United States for its
         master’s degree activity under the Inma program and adjust its planned results accordingly.

         USAID/Iraq agreed with the recommendation and engaged in intensive external and internal
         consultations in July and August 2008. On August 26, 2008, the mission director decided to not
         proceed with the master's program. The program was deemed to be not feasible, because the compressed
         time line (1 year) was not in the original proposal and none of the selected candidates had achieved
         passing grades on the English-readiness test (Test of English as a Foreign Language—TOEFL). The
         program's problems could have forced the mission to extend the contractor's base period to allow students
         in the United States to complete their studies. At a meeting on August 30, 2008, the mission director's
         decision was communicated to the Iraqi Deputy Minister of Agriculture. This recommendation is
         closed.

3.       That USAID reprogram any funds remaining from the $5 million allocated to the master’s
         degree activity and put them to better use.

         USAID/Iraq agreed with the recommendation and stated that no participant training funds were used
         to support any activities related to soliciting potential candidates for the master's program, interviewing
         them, or making selections. Much of this work was conducted by the Iraqi Ministry of Agriculture and
         the U.S. Department of Agriculture.

1
    IBTCI is a company hired by USAID to help with monitoring activities in Iraq.




                                                          72
     USAID/Iraq was able to reprogram the entire $6 million in participant training ($5 million for the
     master's program plus $1 million for extension institutes). These funds will be used by Inma for grants
     to support the development of agribusinesses in Iraq. This recommendation is closed.

4.   That USAID establish appropriate performance indicators to monitor Inma's expanded
     grant and master’s degree activities, as well as any other major program components without
     performance indicators, in accordance with USAID’s Automated Directives System 203.3.

     USAID/Iraq agreed with this recommendation and performed an extensive review of Inma’s
     performance monitoring plan. The review suggested that Inma completely rewrite portions of the plan
     to capture performance indicator results adequately under all major program components, including the
     grants-to-loan component. No performance indicators were developed for the master’s degree activity, as
     USAID was not proceeding with that activity under Inma. The revised performance monitoring plan
     was approved by USAID. This recommendation is closed.

5.   That USAID review Inma program performance indicators listed in its performance
     monitoring plan to ensure that they are reasonably attributable to USAID activities, in
     accordance with USAID policy.

     USAID/Iraq agreed with this recommendation. In addition to the actions taken in response to
     recommendation 4, IBTCI carried out a results-framework assessment of the revised performance
     monitoring plan. The assessment specifically addressed the necessity of having performance indicators
     that were reasonably and directly attributable to Inma activities. This recommendation is closed.

6.   That USAID develop clear and meaningful cost reporting by discrete activity and commodity
     cluster in conjunction with the Inma contractor.

     USAID/Iraq agreed with this recommendation and has taken final action. The mission’s offices of
     Economic Growth and Agriculture and Acquisition and Assistance discussed this recommendation with
     Inma and the LGB headquarters officials. USAID requested that LBG develop a new set of financial-
     cost reporting charts that will allow USAID management to gain improved clarity into the distribution
     of Inma program expenditures by functional expenditure categories. Contract modification No. 8 (267-
     C-00-07-00500-00) includes an amendment that requires Inma to “report on resources spent in Iraq by
     commodity clusters and activities under each cluster, and by input category.” These are to be included
     in Inma’s monthly financial reports. The mission expects that this new reporting format will be
     finalized before the end of September. The first report containing the new financial reporting format, by
     discrete activity and commodity cluster, will be received on October 15, 2008. This recommendation is
     closed.

7.   That USAID verify that the Inma contractor modifies the subcontract language with the
     Euphrates Fish Farm (EFF) to include the required provision pertaining to the Executive
     Order on Terrorism Financing.

     USAID/Iraq agreed with this recommendation and final action has been taken. On August 24,
     2008, OAA sent a letter to LBG referencing the audit findings and recommendation. The letter
     indicated that the clause—Executive Order on Terrorism Financing—within section H.8 of the contract
     was not included in Inma’s subcontract with EFF. The clause stipulates that the executive order clause
     on terrorism financing has to be included in all subcontracts. OAA informed LBG that it is required to



                                                     73
     (1) modify the EFF subcontract to correct the omission; (2) provide USAID with evidence that the
     modification has been completed; and (3) provide written assurances that the clause will be included, as
     mandated, in all existing and future subawards made by LBG. On September 3, 2008, Inma
     forwarded the modified subcontract with EFF to the mission. This recommendation is closed.

8.   That USAID obtain written assurance from the Inma contractor that the required provision
     pertaining to the Executive Order on Terrorism Financing is included in all current Inma
     subawards.

     USAID/Iraq agreed with this recommendation and final action has been taken. On August 24,
     2008, OAA sent a letter to LBG referencing the audit findings and recommendation. On September
     2, 2008, LBG replied by letter stating that “all of our existing subcontracts will be modified to include
     the appropriate clause and it will also be included in all new subcontracts.” This recommendation is
     closed.




                                                     74
           Audit of USAID/Iraq’s Community Action Program II
                          (No. E-267-08-005P)


Date:                           August 5, 2008

Implementing Partner:           Cooperative Housing Foundation (CHF)
                                Agricultural Cooperative Development International and
                                Volunteers in Overseas Cooperative Assistance
                                (ACDI/VOCA)
                                International Relief and Development (IRD)
                                Mercy Corps

Audit Period:                   January 16 to May 26, 2008 (audit fieldwork)

Funding:                        Cooperative agreement with CHF (primary) and three
                                implementing partners for a total of $150 million from October 1,
                                2006, to September 30, 2008. The entire $150 million had been
                                obligated and $75.7 million disbursed as of May 26, 2008.

Background—Summary of Findings

The ultimate goal of the Community Action             other implementing partners. Each of the
Program II (CAP II) was to “strengthen                four   partners   was    responsible  for
responsible and effective local governance in         implementing the program in a different
Iraq by institutionalizing community-level            geographic region of Iraq. The program
mechanisms and capacity for citizen                   continued the work of a prior Iraq
participation in local decision-making and            Community Action Program, which began in
development.” The program was designed to             May 2003 and ended on April 30, 2007.
promote grassroots democracy and better local
governance via a “project and process”                The Office of Inspector General (OIG)
methodology of demand-driven community                conducted this audit to determine whether
development. This was to be accomplished              USAID’s CAP II was achieving planned
through the establishment of community                results and to assess the impact of those
action groups composed of elected volunteers          results.
who would then spearhead community-
prioritized development projects. Projects            Performance information, most notably
were to be funded principally by USAID but            reports     from    implementing     partners,
also draw upon community and local                    provincial reconstruction team members, and
government contributions. Typical projects            independent program monitors, indicated
consisted of improving community schools,             that positive program activities were taking
health care, roads and bridges, and water and         place in USAID’s CAP II. The implementing
sewerage, as well as promoting business               partners have issued annual and quarterly
development.                                          reports highlighting program achievements in
                                                      their respective areas of responsibility
USAID implemented the program through a               throughout Iraq. These reports contained
single cooperative agreement with an                  detailed information regarding specific
“umbrella” implementing partner that would            projects, as well as onsite photographs. The
then pass a portion of the funding on to three        partners also provided weekly reports to the




                                                 75
provincial reconstruction teams operating in              •    Installation of a water network and water
their geographic regions.      The USAID                       station provided safe drinking water for
representatives      on    the     provincial                  several    villages   in    the   Karbala
reconstruction teams were designated as                        Governorate.
activity managers and, as such, their role
included reviewing the weekly reports,                    •    Construction of a new sports hall in
approving quarterly work plans, suggesting                     Maysan provided youth with a place to
potential projects, and making occasional site                 practice and organize sport contests.
visits.
                                                          •    Desks and blackboards were provided for
Reports from USAID’s monitoring and                            nine schools in Basra. Before the project,
evaluation     contractor     also    provided                 children sat on the floor and teachers
convincing evidence that project activities                    could not use the old, faded blackboards.
were taking place successfully. The contractor
visited 221 projects to validate whether those            Regarding the achievement of planned results,
projects actually existed. Once confirmed,                however, OIG found a lack of realistic and
monitors moved on to inspect project use,                 consistently defined performance targets, as
sustainability, and acceptance by the                     well as problems with performance data
community. In a report issued in August                   quality.    Further, because of delays in
2007, the monitoring contractor indicated                 obtaining baseline data and the lack of
that more than 90 percent of the projects                 comparable measurements over time, we were
visited were operational and that the                     unable to determine the impact of the
remaining 10 percent were often not                       program on higher-level objectives.
operational for justifiable reasons. By way of
example, projects that were operational
included the following:

Recommendations—Management Decisions

OIG made four recommendations:

1.    That USAID reevaluate current performance indicator targets under its CAP II to determine
      whether they are realistic and ensure that realistic targets are included in the revised
      performance management plan and the project reporting system.

      USAID/Iraq worked with the implementing partner to ensure that data reported for year one was
      accurate and to establish new targets for year two that reflected realistic assumptions. Management
      updated both the performance monitoring plan and the project reporting system to reflect these changes.
      Although these actions would have little impact on the current program, management pointed out that the
      changes would provide strong baseline data for an anticipated follow-on program. This recommendation is
      closed.

2.    That USAID develop procedures to ensure that changes to performance indicators and targets
      are properly documented.

      USAID/Iraq issued a mission order that addresses how revisions to performance monitoring plans should
      be documented. This recommendation is closed.




                                                    76
3.   That USAID perform a data quality assessment to ensure that flaws in the project reporting
     system are identified and corrected.

     Management concurred that relevant CAP II performance data should be accurate to set a baseline for
     the performance monitoring plan of the anticipated follow-on program. However, management noted that
     the project reporting system would not be used after CAP II ends and that, therefore, correcting the
     system’s flaws would not serve any useful purpose. Accordingly, management stated that it would conduct
     a data quality assessment only of CAP II indicators that would be pertinent for setting baselines for the
     follow-on program. Management conducted a review and updated the project reporting system for CAP II
     that culminated in the submission and approval of a cleaned-up project data table. This recommendation
     is closed.

4.   That USAID develop a plan to standardize data collection processes and analysis methods
     among the program implementing partners.

     Management indicated that USAID/Iraq worked with its implementing partners to standardize the
     reporting of program data. This helped ensure that reported data matched the definitions in the approved
     performance monitoring plan and that the data was reported consistently among partners. The
     recommendation is now closed.




                                                    77
               Audit of USAID/Iraq’s Monitoring and Evaluation
                           Performance Program
                            (No. E-267-08-004P)

Date:                              July 3, 2008

Implementing Partner:              International Business and Technical Consultants, Inc. (IBTCI)

Audit Period:                      May 2005 to October 19, 2007

Funding:                           3-year, $13.4 million cost-plus-fixed-fee term contract with two
                                   additional 1-year options worth $11.4 million

Background—Summary of Findings

The presence of a USAID mission in an active               However, the audit found that the reliability
war zone has imposed unique constraints on                 of monitoring reports could be enhanced if
USAID’s normal mode of operations. Chief                   IBTCI coordinated with the U.S. military to
among these constraints has been the inability             spot check the performance of its field
of USAID officials to adequately monitor                   monitors. In addition, the frequency of
program activities as they are occurring in the            monitoring high-risk activities, such as trash
field. To address this constraint, USAID/Iraq              collection campaigns in Baghdad, should be
employs a contractor to carry out its                      increased.
Monitoring and Evaluation Performance
Program (MEPP).                                            The audit also determined that, while
                                                           USAID/Iraq was generally using the results of
The Office of Inspector General conducted                  the program to manage its portfolio, the
this audit to determine (1) whether the                    mission could use those results more
program in Iraq is producing reports that are              effectively by systematically documenting its
timely, relevant, and useful for performance               responses to findings and recommendations
management and (2) whether USAID is using                  and by granting the USAID Program Office
those results to manage its portfolio. The                 authority to initiate monitoring and
audit covers the second phase of this program.             evaluation activities. In addition, ensuring
                                                           that evaluation reports are shared with
The audit concluded that IBTCI’s monitoring                implementing partners and that awards
and evaluation reports were generally timely,              specifically require monitoring and evaluation
relevant to the programs being reviewed, and               plans would also enhance the effectiveness of
useful    for   performance     management.                this program.

Recommendations—Management Decisions

OIG made six recommendations:

1.    That USAID/Iraq establish policies and procedures to work with its provincial reconstruction
      team (PRT) representatives to obtain information from U.S. military officials that will help
      verify the accuracy of field monitoring reports.

      The mission issued a policy encouraging its PRT representatives to obtain information from U.S. military
      sources that would help verify the accuracy of field monitoring reports. This recommendation is closed.




                                                     78
2.   That USAID/Iraq take steps to increase the frequency of monitoring those activities
     demonstrated to be highly vulnerable to fraud and abuse.

     The mission took steps to increase the monitoring of projects within the Community Stabilization
     Program. In addition, the mission developed a risk analysis framework for its entire portfolio to aid in the
     development of effective monitoring strategies to help reduce the potential for fraud and abuse. This
     recommendation is closed.

3.   That USAID/Iraq establish policies and procedures to document compliance with the
     Automated Direction System for evaluations (section 203.3.6.7) and also to document
     responses to findings and recommendations contained in monitoring reports of mission
     programs conducted under MEPP II.

     The mission issued a policy stipulating that its responses to findings and recommendations in all
     monitoring and evaluation reports must be adequately documented and included as part of the final
     report. These responses should also include input from implementing partners. This recommendation is
     closed.

4.   That USAID/Iraq establish policies and procedures requiring (1) a formal review of evaluation
     findings, conclusions, and recommendations with the relevant implementing partner and (2)
     documentation of the results of that review.

     The mission issued a policy that requires implementing partners to acknowledge receipt of monitoring or
     evaluation reports within 2 weeks of transmittal. This policy also codified the current practice of reviewing
     evaluation reports orally with the implementing partner. These procedures—in conjunction with the
     additional input to be solicited from implementing partners as part of the mission’s response to evaluation
     findings and recommendations—met the intent of the recommendation. This recommendation is closed.

5.   That USAID/Iraq establish policies and procedures permitting the USAID/Iraq Program
     Office to initiate monitoring and evaluation activities conducted under MEPP II.

     The mission codified the recommended policies and procedures in a new mission order.                    This
     recommendation is closed.

6.   That USAID/Iraq establish policies and procedures that require implementing partners to
     submit appropriate monitoring and evaluation plans for acquisition and assistance awards.

     The mission developed language to be included in acquisition and assistance awards requiring
     implementing partners to submit appropriate monitoring and evaluation plans. This recommendation is
     closed.




                                                      79
     Audit of USAID/Iraq’s Management of Its Official Vehicle Fleet
                         (No. E-267-08-003P)

Date:                             June 24, 2008

Implementing Partner:             None

Audit Period:                     November 21, 2007, to March 5, 2008

Funding:                          $25.1 million

Background—Summary of Findings

USAID/Iraq’s Executive Office coordinates                technicians, train drivers, or equip vehicles
and manages all administrative and logistical            with operable security radios in accordance
needs for the mission, including motorpool               with Agency policy. Commendably, USAID
operations and maintenance.         USAID’s              has taken action to dispose of 99 excess
records indicate that the mission has had                vehicles, but it needs to take further action to
responsibility for 188 official and program              dispose of up to 64 additional excess vehicles
vehicles, many of which were armored, with a             to reach the optimal number justified by its
total acquisition value of approximately                 staffing level. The estimated value of the 64
$25.1 million. The audit was designed to                 excess vehicles totaled approximately $2.2
determine whether USAID managed its                      million as of March 5, 2008.
official vehicle fleet in accordance with
USAID’s Automated Directives System                      In addition, the audit             found     that
(ADS).                                                   USAID/Iraq needed to:

Although USAID has managed many aspects                      •    Report missing vehicles in Basrah.
of its official vehicle fleet in accordance with             •    Use authorized technicians to repair
the ADS, it did not always maintain vehicle                       ballistic glass.
records, dispose of excess vehicles, report                  •    Complete required driver training.
missing vehicles, use authorized armoring

Recommendations—Management Decisions

OIG made seven recommendations:

1.    That USAID/Iraq implement procedures to maintain vehicle records for all mission-controlled
      vehicles in accordance with ADS 536.

      The controller for USAID/Iraq stated in writing that the mission has been maintaining vehicle records
      since August 2008; he also provided examples of records now being produced. This recommendation is
      closed.

2.    That USAID/Iraq determine how to use or dispose of excess vehicles, with an estimated value
      of $2,179,969, in accordance with applicable policies and procedures.




                                                   80
     A management decision was reached on June 24, 2008, that excess vehicles, valued at $2,179,969, will
     either be put to better use or disposed of in accordance with applicable policies and procedures.
     Subsequent to the management decision, USAID/Iraq determined and RIG/Baghdad acknowledged a
     revised management decision that 76 excess vehicles, valued at $1,480,648, would either be put to better
     use or disposed in accordance with applicable policies and procedures. Of these 76 vehicles, 49 were
     disposed of and the remaining 27 were transferred to provincial reconstruction teams. This
     recommendation is now closed.

3.   That USAID/Iraq establish a procedure to help ensure that dispatch analyses are completed on
     an annual basis in accordance with ADS 536.

     On August 7, 2008, USAID/Iraq issued the recommended procedure to help ensure that the analyses
     would be completed. The recommendation is now closed.

4.   That USAID/Iraq report on the armored vehicles that could not be located in Basrah to the
     Regional Security Office and the USAID Office of Security, Physical Security Programs
     Division, in accordance with ADS 563.

     On July 30, 2008, USAID/Iraq reported to the USAID SEC/Physical Security Programs Division, and
     to the Regional Security Office, the vehicles that could not be located. The recommendation is now closed.

5.   That USAID/Iraq report on all known mission-controlled armored vehicles that might have
     damaged ballistic protection to the USAID Office of Security, Physical Security Programs
     Division, in accordance with ADS 563 and inform that office of all repairs performed on
     armored vehicles by unauthorized mission personnel, according to volume 12 of the Foreign
     Affairs Manual section 387.

     USAID/Iraq reported the armored vehicles that might have had damaged ballistic protection, and
     armored vehicles repaired by unauthorized personnel, to the USAID SEC/Physical Security Programs
     Division on July 28, 2008. This recommendation is now closed.

6.   That USAID/Iraq implement procedures so that any future damage to mission-controlled
     vehicles is reported in accordance with ADS 536 and that damage to armored vehicles is
     reported to the USAID Office of Security, Physical Security Programs Division, in accordance
     with ADS 563.

     On July 3, 2008, USAID/Iraq’s executive officer issued a procedural memorandum to all USAID/Iraq
     mechanics, drivers, and general service officers, describing the procedures and guidelines for reporting
     damage to mission armored vehicles. This recommendation is closed.

7.   That USAID/Iraq arrange to have its drivers receive the defensive driver and surveillance
     detection training required by ADS 563 either by enrolling them in the course in the U.S. or
     exploring the possibility of having them trained in Iraq.

     USAID/Iraq devised and implemented a plan to provide drivers defensive and surveillance detection
     training. This recommendation is closed.




                                                     81
        Audit of USAID/Iraq’s Management of the Marla Ruzicka
                        Iraqi War Victims Fund
                          (No. E-267-08-002P)

Date:                           April 3, 2008

Implementing Partner:           CHF International
                                Agricultural Cooperative Development International
                                Volunteers in Overseas Cooperative Assistance International Relief
                                and Development, Inc. (IRD)
                                Mercy Corps


Audit Period:           October 1, 2005, to December 31, 2006

Funding:                        USAID/Iraq received $40 million in U.S. appropriations for
                                assisting Iraqi war victims, of which $15 million has been obligated.

Background—Summary of Findings

The Office of Inspector General in Baghdad            Iraqi civilian war victims who had suffered
conducted this audit to determine whether             harm caused only by U.S. or Coalition Forces,
USAID had complied with provisions                    whereas the Afghanistan fund did not have
contained in public laws to help ensure that          such a limitation. Consequently, Iraqi war
funds appropriated for the Marla Ruzicka              victims harmed by other causes, such as
Iraqi War Victims Fund (the Marla Fund)               insurgent activity, were not eligible to receive
were used as intended. Although USAID was             Marla Fund assistance.
complying with provisions contained in public
laws, we found some areas in which the                Moreover, Marla Fund implementing partners
Agency could increase the positive impact of          did not consistently prioritize funds as
the Fund.                                             intended. Specifically, legislative materials
                                                      indicated that funds for war victims in Iraq
According to USAID, hundreds of thousands             should focus on families of Iraqi civilians
of civilian Iraqis harmed by military                 harmed during military operations. While
operations received assistance through Marla          three Marla Fund implementing partners
Fund projects that, among other things,               provided assistance in accordance with this
rebuilt homes destroyed in the war, restored          directive, one partner concentrated its
livelihoods, and provided needed medical              funding      principally     on      community
treatment. In addition, we found that Marla           infrastructure projects rather than families of
Fund activities had the unforeseen benefit of         victims. As a result, millions of dollars were
winning community support for other USAID             used to finance community infrastructure
programs when entering new communities                projects in one region of Iraq rather than to
because of the goodwill generated by the fund.        assist Iraqi war victims in dire need after
                                                      suffering personal losses as a result of military
Nevertheless, we identified a significant             operations.
inconsistency   between     USAID/Iraq’s
management of the Marla Fund in Iraq and              Finally, despite USAID’s emphasis on capacity
the management of a similar USAID-funded              building and sustainability, USAID/Iraq had
program in Afghanistan.        Specifically,          not developed plans to help ensure that
USAID/Iraq limited Marla Fund assistance to           assistance to Iraqi civilians who were innocent



                                                 82
victims of the war in Iraq would be sustained               suffered by Iraqi civilians as a result of the war
after USAID funding ceased. As a result, Iraq               after U.S. assistance has ended.
may be ill-prepared to deal with the harm

Recommendations—Management Decisions

The audit recommended that USAID:

1.    Reconsider its practice of limiting Marla Fund beneficiaries to Iraqi civilians who suffered
      losses caused solely by U.S. and Coalition Forces.

      USAID/Iraq concurred with the recommendation and took action to expand eligibility coverage to all
      Iraqi civilians harmed by military operations, regardless of which side caused the harm. This
      recommendation is closed.

2.    Encourage Marla Fund implementing partners to focus future projects on families in dire need
      rather than community infrastructure.

      USAID/Iraq provided guidance to implementing partners in October 2008 to give preference to
      individuals and families harmed by military actions. This recommendation is closed.

3.    Determine whether funds should be relocated to implementing partners operating in regions
      in which those funds could be better used.

      USAID/Iraq concurred with the recommendation and agreed to insert language into the CAP III annual
      program statement, which will initially distribute Marla funds on the basis of the intensity of coalition
      forces military operations. Additional funds will be reserved for later obligation based on possible new
      areas of need over the course of the program. This recommendation is closed.

4.    Develop a plan to address the future sustainability of assistance to civilian Iraqi war victims.

      USAID/Iraq concurred with the recommendation and in October 2008 e-mailed implementing partners
      with a request that they encourage communities and local governments to take up the cause of assistance
      to victims as a means of reconciliation. Other programs will also help build Iraqi government capacity to
      provide service delivery similar to the Marla Fund long after dedicated war-victim funding has ended. This
      recommendation is closed.




                                                      83
        Audit of USAID/Iraq’s Community Stabilization Program
                         (No. E-267-08-001P)

Date:                           March 18, 2008

Implementing Partner:           Not identified for security reasons

Audit Period:                   September 13, to December 10, 2007

Funding:                        3-year, $544 million program implemented by a U.S. nonprofit
                                organization that receives funding through a cooperative agreement.

Background—Summary of Findings

Since 2005, the U.S. Government’s                     implemented the program to sustain
strategy in Iraq has been to achieve a                benefits after USAID’s involvement had
stable, prosperous, and democratic Iraq by            ended.      The audit found that Iraq
focusing on increased security in                     citizens’ perceptions of local government
conjunction with economic and political               effectiveness seemed to have improved.
development. USAID’s contribution to                  However, auditors could not determine
this strategy centered on stabilizing                 whether the program was achieving an
strategic cities, improving local services            intended result—to help defeat the
and local government capacity, and                    insurgency by reducing the incentives for
continuing to support Iraqi communities.              participating in it—because they could not
A major element in USAID’s plan to                    rely on one of the major measurements of
achieve these ambitious tasks is the                  the program: employment generation.
Community Stabilization Program (CSP),
which is overseen by USAID’s Focused                  Auditors also found evidence of potential
Stabilization Office. Launched in May                 fraud involving the possible diversion of
2006, CSP is a 3-year, $544 million                   CSP funds to militia by means of
program implemented by a U.S. nonprofit               overpriced trash-collection contracts,
organization that receives funding through            timesheet irregularities, and possible
a cooperative agreement.                              phantom workers for the community
                                                      cleanup campaigns. Estimates of the
The purpose of the audit was to                       potential fraud could amount to over $8
determine whether the program was                     million, while indications of similar
achieving its intended results as they                problems were present in other districts in
relate to community infrastructure and                Baghdad and provinces throughout Iraq.
essential services, and to determine
whether USAID had designed and




                                                 84
Recommendations—Management Decisions

The audit report recommended that:

1.   USAID/Iraq immediately suspend ongoing Community Stabilization Program projects in
     the particular district discussed in this report in order to eliminate any additional exposure
     to fraud and reprogram the unpaid balance. As of November 17, 2007, the unpaid balance
     for these projects totaled $8,541,076.

     A management decision has been reached on recommendation 1 and final action was taken
     September 15, 2008. USAID reprogrammed the unpaid balance for the legitimate CSP projects
     after calculation errors in the reported unpaid balance were corrected and verified. This
     recommendation is closed.

2.   USAID/Iraq review Community Stabilization Program projects in other Baghdad districts
     and communities in which the program operates to determine whether they should be
     suspended for the reasons cited in recommendation 1.

     USAID fully addressed recommendation 2 and the recommendation was closed on August 12, 2008.

3.   USAID/Iraq meet with appropriate officials from the Community Stabilization Program,
     Provincial Reconstruction Teams, and the United States military to improve coordination
     and discuss the feasibility of vetting potential Community Stabilization Program
     contractors through military intelligence databases.

     On February 24, 2008, mission management met with appropriate officials and approved a
     communications protocol to help guide the interactions and relationships among CSP, Provincial
     Reconstruction Teams (PRTs), and the Focused Stabilization Program Office. The protocol includes
     guidance that CSP may contact the PRT or military unit for information on local contractors and
     may request support for background checks and other information on contractors and/or program
     participants. A management decision was made on June 30, 2008, and final action took place on
     August 12, 2008. This recommendation is closed.

4.   USAID/Iraq take steps to increase its monitoring of Community Stabilization Program
     projects, with special emphasis on preventing and detecting fraud by obtaining reasonable
     assurance that the number of workers paid corresponds to the number that actually
     worked.

     Mission management will ensure that CSP’s implementing partner has adequate and effective
     written quality-control procedures in place to ensure that the number of workers paid corresponds to
     the number that actually worked. A management decision was reached on March 18, 2008, and
     final action was taken on June 20, 2008. This recommendation is closed.

5.   USAID/Iraq’s Focused Stabilization Program Office establish policies and procedures
     reminding Focused Stabilization Program Office employees of their responsibility to
     promptly report any allegations of fraud and abuse to the Office of Inspector General.

     Focused Stabilization Program Office employees were informed of their responsibilities with regard to
     reporting possible fraud, and on January 14, 2008, OIG representatives gave a fraud awareness



                                                     85
      presentation to senior CSP field staff at their quarterly conference. The Focused Stabilization
      Program Office will invite OIG to give similar presentations at future conferences. This
      recommendation is closed.

6.    USAID/Iraq’s Focused Stabilization Program Office have Office of Inspector General
      investigators provide a fraud awareness briefing to Community Stabilization Program
      implementing partner officials.

      Focused Stabilization Program Office employees were informed of their responsibilities with regard to
      reporting possible fraud, and on January 14, 2008, the OIG gave a fraud awareness presentation to
      senior CSP field staff at their quarterly conference. The Focused Stabilization Program Office will
      invite the OIG to give similar presentations at future conferences. This recommendation is closed.

7.    USAID/Iraq conduct a data quality assessment that specifically focuses on the job creation
      data being reported by the Community Stabilization Program implementing partner and
      take appropriate action based on the results of that assessment.

      Mission management reached management decision and took final action on this recommendation on
      August 20, 2008. This recommendation is closed.

8.    USAID/Iraq’s Focused Stabilization Program Office work with the Community
      Stabilization Program implementing partner to reconcile the employment data reported in
      its monitoring and evaluation database with the employment data reported in its quarterly
      progress report.

      USAID and its partner began revising the CSP monitoring and evaluation plan on June 30, 2008,
      and reconciled employment data. Final action was completed on August 28, 2008.

9.    USAID/Iraq determine the allowability and collect as appropriate the $39,821 in
      questioned ineligible costs billed by the Community Stabilization Program’s implementing
      partner under Cooperative Agreement No. 267-A-00-06-00503-00, for the specific projects
      included in the finding.

      In May 2008, management made a determination that $5,140 of the questioned costs was not
      allowable. Final action was taken on August 28, 2008.

10.   USAID/Iraq’s Focused Stabilization Program Office work with the Community
      Stabilization Program implementing partner to recalculate all prior baseline and follow-up
      surveys to accurately reflect the changes in survey methodology noted above.

      On August 10, 2008, the implementing entity submitted and USAID accepted the recalculated
      baseline and follow-up survey data. The recommendation is now closed.

11.   USAID/Iraq’s Focused Stabilization Program Office work with the Community
      Stabilization Program implementing partner to amend the monitoring and evaluation plan
      to incorporate the changes in survey methodology noted above.

      This recommendation is closed. On August 13, 2008, USAID approved the revised CSP monitoring
      and evaluation plan that incorporates changes in survey methodology, as recommended.



                                                      86
12.   USAID/Iraq’s Focused Stabilization Program Office establish policies and procedures to
      formally document and track the status of recommendations made by the monitoring and
      evaluation contractor.

      In October 2007, the Focused Stabilization Program Office established policies and procedures to
      follow up on external monitoring reports. This recommendation is now closed.

13.   USAID/Iraq’s Focused Stabilization Program Office reassess the performance indicators in
      its monitoring and evaluation plan to more closely link outputs to results, and to
      document the reasons for its determination.

      Mission management agreed to continue to reassess its CSP performance indicators.            This
      recommendation is closed.

14.   USAID/Iraq’s Focused Stabilization Program Office request the Community Stabilization
      Program implementing partner to instruct its program office directors to more consistently
      follow the established branding policy.

      In September 2007, the Focused Stabilization Program Office and its implementing partner agreed
      that reasonable efforts should be made to ensure that activities are attributed to the appropriate
      Government of Iraq entity. A management decision was made on this recommendation on June 8,
      2008, and final action took place on June 20, 2008. The recommendation is closed.




                                                    87
88
                            Performance Audits
                                   Fiscal Year 2007
               Audit of USAID/Iraq’s Participation in Provincial
                         Reconstruction Teams in Iraq
                             (No. E-267-07-008P)


Date:                             September 27, 2007

Implementing Partners:            Departments of State, Justice, and Agriculture
                                  U.S. Army Corps of Engineers
                                  Multinational Force—Iraq
                                  Other Coalition members

Audit Period:                     February through May 2007

Funding:                          No direct USAID funding is provided to provincial reconstruction
                                  teams.

Background—Summary of Findings

The primary means of interaction between the            However, the audit also found that
U.S. Government and Iraqi provincial                    USAID/Iraq lacked procedures to ensure
governments are the provincial reconstruction           coordination between the PRT representatives
teams (PRTs), which are a joint civil and               and the USAID cognizant technical officers
military effort.     The PRTs assist Iraqi              (sector specialists responsible for managing
provincial governments in developing a                  the implementing partners).            Some
transparent and sustained capacity to meet the          coordination took place between the USAID
basic needs of the population.                          PRT representatives and the USAID sector
                                                        specialists in Baghdad, but it was not
The audit showed that the PRTs benefited                sufficient. PRTs were not being consulted
from USAID’s participation and, in most                 regarding the design and implementation of
cases, that USAID/Iraq had well-established             the activities in their areas, and sometimes
programs on the ground. The PRTs were able              they were not aware of USAID activities in
to use the work of USAID/Iraq’s                         the areas.
implementing partners as a tool in meeting
with provincial councils.

Recommendations—Management Decisions

The audit made the following two recommendations: (1) that USAID adopt procedures to ensure
that its cognizant technical officers (CTOs) in Iraq use its PRT representatives for program site visits
and (2) that USAID review the implementation of its new procedures and evaluate the coordination
between its technical officers and PRT representatives within 90 days of the issuance of this report.
Management decisions have been made on both recommendations.



                                                  89
USAID management indicated that mission CTOs from each of its programs met with PRT representatives on
September 16, 2007, in Baghdad. All present agreed that field visits were taking place, but the formal
documentation was lacking. Mission management prepared and presented to the PRT representatives a site visit
form on which to document visits, including useful feedback for CTOs. Further, CTOs and field officers
discussed and determined a protocol for CTOs to either make site visits themselves or recommend that a PRT
representative make a site visit. The mission noted in its response that site visits would continue to be limited
because of security issues and shared “movement resources” in the field.

These recommendations are now closed.




                                                       90
                Audit of USAID/Iraq’s Local Governance Activities
                              (No. E-267-07-007P)

Date:                             July 31, 2007

Implementing Partner:             Research Triangle Institute International

Audit Period:                     October 1, 2005, to December 31, 2006

Funding:                          As of December 31, 2006, USAID had obligated $175.4 million
                                  and disbursed $61 million.

Background—Summary of Findings

This second local governance activities                 The audit found that the local governance
program was designed to reinforce gains made            activities did not have intended outcomes or
in the first program. The contractor was to             baselines to measure progress because USAID
carry out the following services: (1) promote           failed to enforce contract requirements that
policy reform in support of local governance,           the contractor submit for approval quarterly
(2) support clarification of roles and                  implementation plans detailing intended
responsibilities of different levels of                 outputs or a performance management plan.
government, (3) promote increased efficiency            The audit also found that USAID failed to
of local service delivery, and (4) assist in the        perform the required contractor performance
development of regularized mechanisms of                evaluations.
citizen participation in the government
decision-making process.

Recommendations—Management Decisions

OIG recommended that USAID:

1. Require that the contractor submit the current quarterly implementation plan within 30 days
    from the issuance of this report, and if this plan is not submitted, that the contracting officer
    determine whether this contract should be terminated for default.

2. Establish a procedure to ensure that all future quarterly implementation plans are submitted as
    required.

3. Conduct an evaluation of the contractor’s performance within 30 days from the issuance of this
    report.

USAID concurred with the recommendations. Mission management stated that the contractor is regularly
providing quarterly implementation plans, and the cognizant technical officer developed a calendar of
deliverables that both the mission and the contractor share. Also, USAID conducted the evaluation as
recommended. Final action had been implemented on these recommendations as of March 31, 2008.




                                                   91
              Audit of the Office of Foreign Disaster Assistance
                               Program in Iraq
                            (No. E-267-07-006P)


Date:                             July 11, 2007

Implementing Partners:            Various

Audit Period:                     October 1, 2004, through September 30, 2006

Funding:                          During the period covered by the audit, the Office of Foreign
                                  Disaster Assistance had obligated $77.5 million and expended
                                  $61.8 million for activities in Iraq.

Background—Summary of Findings

For the 4 years ending September 2006, the              achieved intended outputs included the
USAID Office of Foreign Disaster Assistance             provision of water, shelter, and sanitation and
(OFDA) provided $190.7 million in                       the distribution of nonfood items, such as
humanitarian       assistance   to    internally        blankets, plastic sheeting, and stoves. The
displaced persons and other vulnerable                  digging of wells was the one activity that did
populations. Assistance included water and              not achieve its intended output.
sanitation, health, livelihood support, and
emergency relief commodities. The majority              OIG determined that OFDA did not
of activities achieved their intended outputs.          designate cognizant technical officers (CTOs)
Of the 61 activities initiated during the audit         properly. CTOs are required to maintain
period, 38 (62 percent) achieved their                  contact with recipients and ensure compliance
intended outputs, 22 (36 percent) lacked                with the terms and conditions of the
sufficient supporting documentation to                  agreements.     Although the office named
determine whether intended outputs had                  CTOs in the original award agreements, the
been achieved, and 1 (2 percent) did not fully          agreements were not modified to reflect
achieve the intended output. Activities that            changes in the designated officers.

Recommendations—Management Decisions

OIG made two recommendations:

1. Develop and implement a system to ensure that performance data provided by its implementing
   partners is supported by readily available documentation.

    OFDA developed a projects monitoring database, which ensures constant communications between
    OFDA/Iraq and its implementing partners. Since the establishment of the projects monitoring database,
    OFDA's implementing partners report regularly using standard tracking formats, which cover all active
    sectors. Security obstacles, however, remain. This recommendation is closed.




                                                   92
2. Issue designation letters for CTOs and modify its cooperative agreements and grants to
   incorporate language allowing the officers to be designated separately for the cooperative
   agreements and grants.

   OFDA developed and implemented the use of the CTO designation letters for all active OFDA/Iraq
   agreements. In addition, OFDA modified each active agreement to incorporate the CTO designated for
   each activity. This recommendation is closed.




                                                93
    Audit of USAID/Iraq’s Activity Planning and Its Process Under
                Section 2207 of Public Law 108–106
                        (No. E-267-07-005P)

Date:                            June 6, 2007

Implementing Partner:            The Regional Inspector General in Baghdad

Audit Period:                    September 4 through December 18, 2006

Funding:                         During fiscal years 2004, 2005, and 2006, USAID/Iraq obligated
                                 and disbursed approximately $3 billion in IRRF II funds.

Background—Summary of Findings

On November 6, 2003, Congress approved                 reporting on selected activities.       USAID
Public Law 108–106, the Emergency                      followed its Automated Directives System’s 12
Supplemental Appropriations Act for Defense            preobligation requirements when planning its
and for the Reconstruction of Iraq and                 activities and completed the 5 required steps
Afghanistan, 2004, which provided funding              for activity planning. For example, USAID
for the Iraq Relief and Reconstruction Fund            ensured that (1) there was an illustrative
II (IRRF II). Section 2207 of this law requires        budget for the activity, providing a reasonably
the Director of the Office of Management and           firm estimate of the cost to the U.S.
Budget to submit to the House and Senate               Government, and (2) there was a plan for
Committees on Appropriations a report on               monitoring the performance of the activity.
the proposed uses of all funds under IRRF II.          USAID also ensured that it had a
During fiscal years 2004, 2005, and 2006,              procurement plan and an activity approval
USAID/Iraq obligated and disbursed                     document and that the activity was formally
approximately $3 billion in IRRF II funds.             approved.
The section 2207 report is prepared quarterly
and covers the use of all appropriated funds           USAID reported quarterly on its activities
under IRRF II on a project-by-project basis.           that are funded under the Iraq Relief and
The report also covers the proposed use of             Reconstruction Fund II to the Iraq
anticipated obligations for the quarter                Reconstruction Management Office (IRMO).
following the report. The law further requires         Quarterly reporting of project expenditures is
that this report be updated and submitted              a requirement of section 2207 of Public Law
quarterly to the House and Senate                      108–106, the Emergency Supplemental
Committees on Appropriations.                          Appropriations Act for Defense and for the
                                                       Reconstruction of Iraq and Afghanistan,
The Inspector General’s Office in Baghdad              2004, but section 2207 does not define what a
conducted an audit to determine whether                project is. USAID defines a project, for the
USAID had planned and reported on selected             purpose of section 2207, as all subsectors
activities in accordance with applicable               covered by an obligating instrument. IRMO
guidance.                                              defines a project as any activity covering one
                                                       subsector.
The audit found that USAID had followed
applicable guidance when planning and




                                                  94
Recommendations—Management Decisions

Although IRMO was aware that USAID used a definition of a project different from IRMO’s when
preparing its quarterly report, IRMO accepted USAID’s section 2207 quarterly reports. Therefore,
OIG did not make a recommendation.




                                              95
            Audit of USAID/Iraq’s Telecommunications Activities
                           (No. E-267-07-004P)

Date:                               May 3, 2007

Implementing Partner:               Bechtel National, Inc.

Audit Period:              January 2005 through June 2006

Funding:                            $46.1 million disbursed (31.1 million direct funding and
                                    $15 million in distributable costs)

Background—Summary of Findings

USAID was tasked by the Iraq Reconstruction                 telecommunications facilities, the $46.1
Management Office (IRMO) to participate in                  million project had yet to benefit the millions
this project to construct a functioning                     of Iraqis as intended. Although Bechtel
consolidated fiber network for the                          completed its work on        June 30, 2006, the
Government of Iraq. The project, which                      project had not achieved all intended results
involved multiple partners, was intended to                 because the United Nations Development
provide fiber optic material and construction               Program and the Ministry of Electricity had
equipment, employ 1,000 citizens, and                       not completed their portions. OIG believes
improve the data and voice transmission                     that the Iraqis may not receive the full benefit
network to provide future benefits to                       of a consolidated fiber network because the
approximately 10 million Iraqi people.                      effort lacked someone to oversee and
                                                            coordinate the project.        Also, the Iraqi
The audit found that, even though USAID                     Ministry of Electricity, one of the participants
had provided equipment, employed some                       and a beneficiary of the project, disagreed
Iraqis, and expanded some of Iraq’s                         with it from the outset.

Recommendations—Management Decisions

The audit recommended that USAID in Iraq work with IRMO and the Ministry of Electricity to
develop a plan to allow the full impact of the project to be realized by installing necessary equipment
and making it operational. It further recommended that USAID develop a system to ensure that
preliminary planning for future construction or rehabilitation projects include obtaining a written
agreement from key partners regarding essential responsibilities.

USAID disagreed with the two audit recommendations but said that it has continued to work with IRMO (now
ITAO) and other key participants to collectively identify and remove constraints and assist in developing a plan
so that the full impact of the network can be realized. Specifically, USAID reported that it had deobligated and
transferred $22.4 million to IRMO in contract funds that supported the network and that IRMO had
transferred some of those funds to the U.S. Army Corps of Engineers for the sustainability of the network. This
recommendation is closed.




                                                      96
            Followup Audit of USAID/Iraq’s Education Activities
                           (No. E-267-07-003P)
Date:                           February 4, 2007

Implementing Partner:           Creative Associates, International

Audit Period:                   July 1, 2004, through September 30, 2006

Funding:                        As of June 30, 2006, cumulative obligations totaled about $52
                                million while disbursements were about $49 million.

Background—Summary of Findings

The Support to Iraqi Basic Education                  USAID/Iraq develop a plan to ensure that the
Program works closely with the Ministry of            Ministry of Education gets the necessary
Education and local Directors General of              computer equipment to operate the education
Education throughout Iraq. The program                management information system being
seeks to build the capacity and increase the          developed by USAID’s implementing partner.
quality of the country’s educational system.          USAID addressed the recommendation by
                                                      identifying the needed hardware and
A 2005 audit on education activities                  developing an implementation plan. The
examined the basic education activities               recommendation was closed by the time the
implemented by Creative Associates to                 audit report was issued.
determine whether they had progressed
toward their 82 intended outputs. The audit           This 2007 audit found that 7 out of 16
found that basic education activities had             selected intended outputs (44 percent) were
progressed toward 33 of the planned 82                achieved and had appropriate documentation
outputs (40 percent). Work had not started            to support the achievements. The status of
on 22 outputs (27 percent) and the remaining          two outputs (12 percent) could not be
27 (33 percent) were deleted from the plan            determined because of the lack of supporting
because of a lack of funding, which resulted          documentation.       The remaining seven
from security costs’ almost doubling and the          intended outputs (44 percent) were not
Iraq Reconstruction Management Office’s               achieved. In addition, the audit found that
reprogramming much of the funds originally            the actions taken to address the
planned for this project. The audit noted that        recommendation from the previous audit
the Ministry of Education did not have                were not satisfactory.       The computer
appropriate computer equipment to operate             equipment needed to be installed, and the
an educational management information                 education management information system
system being developed by Creative                    needed to be operational.
Associates.      OIG recommended that




                                                 97
Recommendations—Management Decisions

OIG recommended that the mission coordinate with its implementing partner to ensure that the
servers are installed and the education management information system is operational.

USAID/Iraq verified through a review of documentation that the servers were delivered and installed. For the
EMIS, IRMO (now ITAO) took over and issued a contract to Primus to continue work on the system.
Therefore, USAID no longer has management oversight responsibility for the EMIS. This recommendation is
closed.




                                                    98
        Followup Audit of USAID/Agricultural Reconstruction and
                         Development Program
                          (No. E-267-07-002P)

Date:                                January 22, 2007

Implementing Partner:                Development Alternatives, Inc.
                                     (DAI) (RAN-C-OO-04-00002)

Audit Period:               October 2003 through August 2006

Funding:                             As of June 30, 2006, DAI’s contract obligations totaled
                                     $101 million, of which $80 million had been disbursed. As of
                                     January 31, 2007, $101 million had been obligated and disbursed.

Background—Summary of Findings

In October 2003, USAID initiated a                           crop production, livestock, high-value
comprehensive national plan to revitalize the                agriculture, soil and water resource
agriculture sector. The program was to run                   management,              government-to-market
through December 2006.           The program                 transition, and marshland rehabilitation.
sought to significantly increase production                  Significant activities that reached intended
levels and incomes and to strengthen the                     outputs included the procurement of seed-
private sector in crop production, livestock,                cleaning equipment and support for date
high-value agriculture, soil and water resource              palm infrastructure.
management,              government-to-market
transition, and marshland rehabilitation.                    Operational requirements were given priority,
                                                             and administrative requirements were not
Of the 29 agricultural activities selected for               always accomplished.         As a result,
review, 16 (55 percent) achieved their                       USAID/Iraq did not properly administer its
intended outputs, 12 (41 percent) were on                    contract with DAI with regard to payment
schedule for doing so, and one was likely not                vouchers, documentation of key events, and
to achieve its intended outputs. The 29                      annual evaluations of contractor performance
program activities reviewed included at least 1              reporting.
activity from each of the 6 program areas—

Recommendations—Management Decisions

OIG recommended that the USAID/Iraq Office of Acquisition and Assistance verify that cognizant
technical officers (CTOs) are documenting significant events and key decisions impacting on the
design and monitoring of activities.

On July 15, 2007, USAID/Iraq developed and issued a management plan that, among other things, requires
CTOs and all other program staff members to maintain electronic copies of all significant technical documents or
written communications. The plan also requires the contracting officer’s designee to conduct periodic verification
checks for compliance with the management plan. Subsequently, the contracting officer conducted a verification
check and found that program documentation in place at the Economic Growth and Agriculture Office is in
compliance with the mission’s management plan. Final action is complete.



                                                       99
                  Audit of USAID/Iraq’s Civil Society Activities
                               (E-267-07-001-P)

Date:                             November 5, 2006

Implementing Partner:             America’s Development Foundation (ADF),
                                  GEW-C-00-04-00001

Audit Period:                     August 2004 through March 2006

Funding:                          At the time of audit (March 2006) obligations totaled $43 million
                                  and disbursements totaled $32 million, and as of January 2007,
                                  obligations totaled $61 million and disbursements $46 million.

Background—Summary of Findings

USAID/Iraq’s civil society activities focused           of documentation and nonspecific reported
on fostering growth and development of civil            outputs. ADF’s performance monitoring plan
society organizations in the areas of civic             was not complete or achievable. The plan did
education, women’s advocacy, anticorruption,            not have intended outputs listed for all
and human rights. ADF established four civil            indicators, and there were security issues that
society resource centers, implemented a small-          caused delays in the implementation of the
grants program, and worked to develop a                 program. For instance, ADF did not report
professional independent media sector in                an output for an indicator involving the
Iraq.                                                   adaptation, development, and validation of
                                                        human rights training modules. Regarding
The audit found that USAID/Iraq’s civil                 security, ADF and partner staff were
society activities implemented by ADF met               kidnapped, a partner office was bombed, and
17 intended outputs out of 35 (49 percent),             there was an attempted bombing at the ADF
while ADF reported not meeting 8 (23                    headquarters in Baghdad. Given the security
percent). Auditors were not able to determine           issues, some of the performance-monitoring
the status of 10 (28 percent) because of a lack         plan indicators were not achievable.

Recommendations—Management Decisions

OIG recommended that (1) USAID/Iraq review each indicator in ADF’s performance monitoring
plan for its civil society activities to provide reasonable assurance that each indicator has a
measurable intended output and that the intended outputs are achievable in the timeframe specified
in the plan and (2) USAID/Iraq develop procedures for its civil society activities to provide
reasonable assurance that specific and accurate outputs are reported for each intended output and
that adequate supporting documentation is maintained to substantiate the reported outputs.

Management decisions and final action were taken on both recommendations by the time the audit report was
issued.




                                                  100
Mission management reviewed the indicators and proposed outputs. In addition, a schedule was created for
regular reviews of the performance monitoring plan through the end of the contract.

USAID/Iraq developed a schedule for the review of its performance monitoring reports through the end of the
contract. Both recommendations are considered closed.




                                                   101
102
                            Performance Audits
                                   Fiscal Year 2006
                   Audit of USAID Transition Initiatives in Iraq
                               (E-267-06-004-P)

Date:                             August 16, 2006

Implementing Partner:             Development Alternatives, Inc.

Audit Period:                     January 2003 to December 2005

Funding:                          $390 million had been obligated and $338 million (87 percent)
                                  disbursed as of December 31, 2005.

Background—Summary of Findings

USAID’s Office of Transition Initiatives                 The audit found that a projected $146 million
(OTI) played the role of “gap-filler” in Iraq by         in grants did not have supporting
providing fast-paced assistance to meet critical         documentation to verify the achievement of
needs that other U.S. Government agencies                intended outputs, and a projected $294
could not provide. USAID concentrated on                 million in grants did not have sufficient
meeting immediate needs that fell within its             documentation of monitoring. However, for
mandate, which included providing short-                 the site visits and interviews the auditors were
term employment, restoring basic government              able to perform for 32 selected activities,
and community services, increasing Iraqi                 intended outputs were met for 31 activities.
access to information and communication,                 Outputs consisted of a wide range of activities
preventing violence and protecting human                 such as repairing roads, providing equipment
rights, and increasing Iraqi participation in            to schools, providing local employment
social, political, and economic life.                    opportunities, and providing equipment to
                                                         ministries.
The audit was not able to determine whether
the transition initiatives program in Iraq had           The audit also found that a lack of
achieved its intended outputs because of                 coordination caused duplication of efforts.
security restrictions that limited the number            The Office of Transition Initiatives in Iraq
of site visits auditors could make and because           coordinated with the U.S. military and had
OTI and its implementing partner did not                 previously coordinated with other USAID
maintain sufficient documentation to verify              offices in Iraq. However, the audit found that
activities.                                              during the past year, the Office of Transition
                                                         Initiatives did not coordinate with other
                                                         USAID offices sufficiently.




                                                   103
Recommendations—Management Decisions

The OTI program in Iraq had ended by the time the audit report was issued, so no
recommendations were made.




                                               104
             Audit of USAID/Iraq’s Local Governance Activities
                             (E-267-06-003-P)


Date:                           July 10, 2006

Implementing Partner:           Research Triangle Institute International

Audit Period:                   March 2003 through May 2005

Funding:                        $242 million was obligated at the time of the audit (January 2006).
                                Disbursements in January 2006 totaled $240 million (99 percent).

Background—Summary of Findings

During its first year, the local governance            contractor performance evaluations, or review
program focused on restoring basic services,           payment vouchers submitted by RTI.
developing transparent and accountable local
governments, and strengthening civil society           Reported accomplishments not verified by the
organizations. During the second year, the             audit included (1) forming or strengthening
program focused on facilitating Iraq’s                 approximately 745 councils at various levels of
transition to a sovereign state. OIG could not         government and within communities, (2)
determine whether the local governance                 training more than 20,000 council members,
activities had achieved their intended outputs         (3) rehabilitating schools, health clinics, city
because USAID had not required Research                office buildings, and community centers, and
Triangle Institute (RTI) International to              (4) conducting more than 20,000 civic
submit all reporting and monitoring                    program events for 750,000 Iraqi citizens
documents specified in the contract.                   covering elections, human rights, and
Furthermore, USAID did not properly                    democracy.
approve all rapid-response grants, prepare

Recommendations—Management Decisions

OIG recommended that USAID:
1.    Require RTI to submit quarterly work plans that include intended outputs and associated
      milestones.

2.    Require RTI to submit semiannual performance monitoring reports in accordance with
      contract requirements and that the performance measurement plan be revised when program
      objectives are changed.

3.    Establish procedures to ensure that grants issued under contracts are approved by authorized
      USAID personnel.
4.    Adopt procedures to ensure that contractor performance evaluations are prepared as required
      by the Federal Acquisition Regulation and USAID’s Automated Directives System.




                                                 105
5.   Establish procedures to ensure contractor and grantee vouchers are reviewed for accuracy and
     reasonableness in comparison to the work performed.


     Final action has been taken on all five recommendations. Details surrounding the actions taken by
     USAID are below.

     Mission management modified the contract to require (1) quarterly implementation plans that include an
     activity-based budget for each of the significant activities designated in the contract; and (2) quarterly
     activity reports from the contractor that include a report of expenditures, by activity, as compared to the
     activity-based budget. In February 2006, USAID sent RTI a letter reminding the contractor that its work
     plans are to be submitted quarterly and should include intended outputs and associated milestones based
     on USAID requirements and those of the PRTs.

     Mission management modified the contract to require the contractor to submit semiannual performance
     monitoring reports on December 10 and June 10 of each year and added language that would allow
     revisions to the performance measurement plan as necessary. Further, USAID/Iraq required RTI to
     participate in the mission-sponsored weeklong performance monitoring program workshop in May 2006 to
     provide them with input in the development of the performance monitoring program.

     Mission management modified the contract to the effect that all grants exceeding $250,000 and any
     amendments to existing grants shall be approved by the administrative contracting officer (ACO).
     Further, the contractor’s grants manual will be approved by the ACO and incorporated by reference into
     the contract. Mission management also stated that no funds will be transferred from the contractor
     account to host government or state-owned enterprises under LGP II program. However, the mission’s
     response did not address the approval of grants under contracts when the grants are less than $250,000.
     According to ADS 302.3.5.6, the actual selection of grant recipients under contracts must be approved by
     USAID; this requirement is not limited to grants exceeding $250,000.

     USAID/Iraq’s Office of Acquisition and Assistance (OAA) has requested and the Executive Office has
     agreed to revise the end-of-assignment checkout list to add a section on contractor performance evaluations,
     which has to be signed off by the OAA as a means to ensure compliance in this area. In addition, to
     correct the deficiency, the mission has prepared the contractor performance report for the period May
     2005 to May 2006.

     Mission management stated that (1) it would not be necessary to establish mission-specific procedures,
     given that cost principles of the Federal Acquisition Regulation, part 31.2, already apply to the contract,
     (2) the contract had been modified to require a SF-1034, detailing items billed as direct costs during the
     report period (prior to this modification, the contractor used the SF-269 to obtain funds through a letter of
     credit arrangement rather than on a reimbursement basis), and (3) the contractor has been providing
     financial statements since the modification. The mission provided documentation demonstrating that
     submitted vouchers were being reviewed.




                                                     106
               Audit of USAID/Iraq’s Nonexpendable Property
                             (E-267-06-002-P)

Date:                            February 16, 2006

Implementing Partner:            N/A

Audit Period:                    July 27, 2003, to September 30, 2005

Funding:                         Not applicable

Background—Summary of Findings

USAID/Iraq was established on July 27,                  nonexpendable       property.        Property
2003, to manage USAID’s reconstruction and              management consisted of purchasing,
humanitarian relief assistance. In order to             receiving, inventorying, warehousing, issuing,
operate in the country, the mission                     and     disposing    of    expendable     and
constructed extensive facilities consisting of          nonexpendable office and residential property
an office building, housing for personnel, and          in accordance with USAID and Federal
a warehouse. USAID also supported regional              regulations and policies.
offices in Hillah, Basrah, and Erbil.
                                                        The audit found that USAID/Iraq property,
USAID/Iraq operated in an unusual                       valued at $23.5 million in its nonexpendable
environment, with a large turnover of staff,            property database, was not managed in
including three executive officers in the first         accordance with USAID guidance. Of this
year of operation.         The mission also             amount, auditors could not verify that a
experienced a staff shortage, which resulted in         projected $21.3 million was correctly valued,
contracting with the International Resources            because amounts were not supported by
Group (IRG) for 1 year, effective in May                documentation. Additionally, auditors could
2003, for procurement and management of                 not verify the existence of a projected $2.9
nonexpendable property.                                 million    in    nonexpendable      property.
                                                        Furthermore, mission vehicles valued at $2.3
After the IRG contract ended in June 2004,              million were not properly safeguarded, and
USAID/Iraq’s Executive Office took over                 questions of ownership existed regarding
direct responsibility for the procurement,              nonexpendable property shared with another
maintenance,          management,      and              U.S. Government agency.
accountability     of    expendable   and

Recommendations—Management Decisions

The audit determined that USAID/Iraq cannot use its current database to effectively manage
nonexpendable property, which increases the potential for fraud, waste, and abuse. In order to
correct the database and to prevent inaccuracies from occurring in the future, auditors made the
following recommendations:

1.    That USAID/Iraq perform a full inventory of all USAID/Iraq locations, tagging and
      recording each nonexpendable property item, to create a complete database.



                                                  107
2.   That USAID/Iraq perform a detailed reconciliation between the database as of October
     31, 2005, and the new database to be created in order to account for the identified
     exceptions.

3.   That USAID/Iraq develop mission-specific written policies and procedures for its
     management of nonexpendable property.

4.   That USAID/Iraq provide training to employees responsible for the management of its
     nonexpendable property.

5.   That USAID/Iraq conduct a review to determine the status of the missing vehicles and
     refer the matter for investigation if appropriate.

     Vehicles are often left unlocked so that personnel can easily enter the vehicle and start the
     engine to keep the battery from failing. Leaving the cars unlocked and failing to keep every key
     for the motor pool fleet in a secure location significantly increased the risk of theft or
     unauthorized use of a vehicle. Auditors therefore made the following recommendation:

6.   That USAID/Iraq adopt policies and procedures directing mission personnel to keep all
     unattended vehicles locked and to store unused keys in a secure location.

     Until the ownership of all property under USAID/Iraq’s control is verified and the assets are
     properly tagged, the mission cannot ensure that it maintains control over its nonexpendable
     property. To address this problem, auditors made the following recommendation:

7.   We recommend that USAID/Iraq verify the ownership of commingled property and
     remove its property tags from all nonexpendable property that it does not own.

     Management decisions were reached on all seven recommendations by the time the audit was completed.
     Actions taken by the mission are discussed below. Final action has been taken on all recommendations.

     As of March 20, 2006, USAID/Iraq completed a full inventory of all USAID/Iraq locations, tagging
     and recording each expendable property item to create a database.

     USAID/Iraq's property management supervisor has created and implemented a new database. The
     catalog table was transferred to the new database and the validated inventory was migrated into the new
     database.

     In October 2005, USAID/Iraq issued mission order MO-05-534-017 regarding the delegation of
     authority for property management and control of USAID/Iraq mission property. In addition to the new
     mission order, written mission-specific policies and procedures regarding nonexpendable property
     management, residential furnishings, and the inventory systems have been established.

     Training was provided to local staff involved in the management of nonexpendable property. Future
     training has also been developed and will be provided to the employees throughout 2006.




                                                   108
USAID/Iraq located the missing vehicles in Kuwait, where they were awaiting repairs. On February 7,
2006, USAID/Iraq issued mission order 06-536-006, which sets forth the mission policies and
procedures for USAID/Iraq motor pool operations.

As of March 20, 2006, USAID/Iraq completed a full inventory of all USAID/Iraq locations, tagging
and recording each expendable property item to create a database. This inventory verified the property
owned by USAID only. Commingled property in the field offices no longer exists.




                                             109
               Audit of USAID/Iraq’s Basic Education Activities
                             (E-267-06-001-P)

Date:                            December 20, 2005

Implementing Partner:            Creative Associates International, Inc.

Audit Period:                    July 1, 2004, through July 31, 2005

Funding:                         This second contract for $56.5 million was from July 1, 2004, to
                                 June 30, 2006; as of July 31, 2005, $51.8 million had been
                                 obligated with $15.5 million disbursed.

Background—Summary of Findings

The Support to Iraqi Basic Education                   on 22 outputs (27 percent), and the
Program works closely with the Ministry of             remaining 27 (33 percent) were deleted from
Education and local Directors General of               the plan because of lack of funding, which
Education throughout Iraq. The program                 resulted from security costs’ almost doubling
seeks to build the capacity and increase the           and the Iraq Reconstruction Management
quality of the country’s educational system.           Office’s reprogramming much of the funds
                                                       originally planned for this project.
The audit looked at the basic education
activities implemented by Creative Associates          The audit report noted that the Ministry of
to determine whether they had progressed               Education did not have appropriate computer
toward their 82 intended outputs. The audit            equipment to operate an educational
found that basic education activities had              management information system being
progressed toward 33 of the 82 planned                 developed by Creative Associates.
outputs (40 percent). Work had not started

Recommendations—Management Decisions

OIG recommended that USAID/Iraq develop a plan to ensure that the Ministry of Education gets
the necessary computer equipment required to operate the education management information
system being developed by USAID’s implementing partner.

USAID addressed the recommendation by identifying the needed hardware and developing an implementation
plan. The recommendation was closed by the time the audit report was issued.




                                                 110
      Audit of the Accuracy of Biographical Datasheets Provided by
     International Resources Group to USAID for Contracts in Iraq
                            (9-267-06-001-P)

Date:                             November 6, 2005

Implementing Partner:             International Resources Group (IRG)

Audit Period:                     February 5, 2003, to December 31, 2004

Funding:                          The combined cumulative value of contracts is $57,993,046.

Background—Summary of Findings

On May 1, 2003, President Bush announced                  USAID had two contracts with International
that major combat operations in Iraq had                  Resources Group (IRG) to provide
ended. At the same time, USAID deployed a                 experienced personnel in helping USAID to
number of technical staff to prepare for                  manage reconstruction and rehabilitation
immediate reconstruction requirements. The                activities in Iraq. IRG, established in 1978, is
USAID Mission in Iraq implements programs                 a for-profit, international professional services
supporting four objectives: (1) restoring                 firm that helps governments, the private
essential infrastructure; (2) supporting                  sector, communities, and households manage
essential education, health, and social services;         critical resources to build a cleaner, safer, and
(3) expanding economic opportunity; and (4)               more prosperous world. In addition to
improving government efficiency and                       providing       general    management         and
accountability.      These activities include             institutional strengthening services to public
reconstruction and rehabilitation of ports,               and private sector clients in the United States
roads, bridges, airports, communications                  and around the world, IRG provides
networks, water systems, sewage systems,                  professional services through contracts to
sanitation systems, housing and community                 USAID.
facilities, schools, hospitals and clinics, and
electricity generation, transmission, and                 This audit was conducted in response to OIG
distribution. They also provide clean water               concerns that inaccuracies on IRG’s
and health services for Iraqis affected by                biographical data sheets may be a systemic and
disaster.                                                 widespread problem.


Recommendations—Management Decisions

No significant discrepancies were noted on the biographical data-sheet information that was tested
during the audit. Additionally, the audit noted that IRG ensured this accuracy by verifying
information⎯such as education, salary, and citizenship⎯shown on the form. In consideration of
the results of this audit, no recommendations were made.




                                                    111
112
                            Performance Audits
                                   Fiscal Year 2005
                Audit of USAID/Iraq’s Cash Control Procedures
                              (E-267-05-005-P)

Date:                             September 27, 2005

Implementing Partner:             N/A

Audit Period:                     January 1 to May 31, 2005, with unannounced cash counts on July
                                  11, 2005, and August 24, 2005

Funding:                          Not applicable

Background—Summary of Findings

U.S. Department of State officials and U.S.              established   regulations,   policies,    and
disbursing officers may create imprest funds,            procedures and (2) properly calculated and
also called petty cash funds that cashiers               disbursed cash payroll payments to its Foreign
operate in order to pay small, routine                   Service National workforce in accordance
operating expenses. Cashiers are officers or             with established regulations, policies, and
employees of the Federal Government who                  procedures.
are authorized to disburse cash or carry out
other cash operations.                                   USAID/Iraq properly managed its cashiering
                                                         operations, and it properly calculated and
As of July 2005, USAID/Iraq was operating a              disbursed its Foreign Service National cash
$350,000 imprest fund.           USAID/Iraq’s            payroll payments. However, auditors noted
cashier was authorized to disburse cash for a            that the mission did not require its regional
variety of reasons, including petty cash,                representatives to sign a form to confirm that
procurement,        payroll,      travel-related         they had received the petty cash funds sent to
reimbursements, and travel advances. The                 them.     This unnecessarily exposed the
mission also used its imprest fund to establish          mission, and the staff responsible for
small petty cash funds—ranging from $500 to              transporting and receiving the cash, to the risk
$2,000—at its regional offices in Erbil, Hillah,         that someone could misappropriate the funds
and Basrah.                                              and deny having any responsibility for them
                                                         because of the uncertainty surrounding when
This audit was conducted to determine                    accountability for the cash was transferred.
whether the mission (1) managed its
cashiering operations in accordance with




                                                   113
Recommendations—Management Decisions

Auditors made one recommendation for USAID/Iraq to finalize and implement its draft policy
requiring regional offices to accept, in writing, petty cash funds delivered to them by the mission’s
cashier’s office. The mission agreed with the recommendation and final action was taken by the time
the audit report was issued.

Mission management finalized a new policy, “Petty Cash Administrator’s Handbook,” which explains the
normal operating cycle of petty cash and the use of the emergency salary advance. Incorporated in the new policy
is the requirement that the regional office director must sign for the receipt of funds. Additionally, the original
signed copy for the receipt of funds must be returned to the mission’s cashier.




                                                       114
                   Audit of USAID/Iraq’s Water and Sanitation
                             Rehabilitation Activities
                              (No. E-267-05-004-P)

Date:                             June 30, 2005

Implementing Partner:             Bechtel National, Inc.
                                  Parsons Infrastructure & Technology Group
                                  Army Corp of Engineers

Audit Period:             April 17, 2003, through January 31, 2005

Funding:                          As of January 31, 2005, about $2.4 billion had been obligated and
                                  $1 billion disbursed.

Background—Summary of Findings

Under the Iraq Infrastructure Reconstruction              exceptions. Of the 34 projects reviewed, 30
Program, USAID issued two contracts to                    achieved, or were achieving, their intended
Bechtel. The first contract included repair of            outputs (88 percent). All four projects (12
power generation facilities, electrical grids,            percent) not achieving intended outputs
and water and sanitation. Regarding water                 encountered performance problems because
and sanitation, Bechtel was to rehabilitate,              they were located in areas that were deemed
repair, and reconstruct water treatment                   “nonpermissive” because of precarious
plants, distribution systems, pump stations,              security conditions. Some of the four projects
wastewater collection systems and treatment               were hampered by the lack of cooperation
plants, and solid-waste collection equipment              from the local government, who would not
and disposal facilities.                                  provide safe access during implementation.

The audit answered two questions: (1) Were                The audit also found that USAID was
water and sanitation projects achieving their             addressing capacity building by providing
intended outputs, and (2) was USAID                       training and operational manuals and by
addressing institutional capacity-building in its         taking steps to institute operations and
projects to rebuild and rehabilitate Iraq’s               maintenance support and training at the plant
water and sanitation sector infrastructure?               level in order to preserve the U.S.
The audit determined that the projects were               Government’s investment.
achieving their intended outputs with some

Recommendations—Management Decisions

None.




                                                    115
          Audit of USAID/Iraq’s Electrical Power Sector Activities
                            (E-267-05-003-P)

Date:                               June 29, 2005

Implementing Partner:               Bechtel National, Inc.

Audit Period:                       April 17, 2003, through January 31, 2005

Funding:                            As of January 31, 2005, combined cumulative obligations for the
                                    contracts were approximately $2.4 billion, while total disbursements
                                    were approximately $1 billion.

Background—Summary of Findings

Two contracts to Bechtel were issued under                  planned outputs were affected by the U.S.
the Iraq Infrastructure Reconstruction                      Government’s decision to reprogram more
Program to repair, rehabilitate, or rebuild                 than $1 billion from the electrical sector to
Iraq’s infrastructure. Most of the money went               security and other priority areas, resulting in
to the electrical power sector.                             the cancellation of the two projects. Several
                                                            other projects were experiencing delays in part
The audit focused on 22 electrical projects                 because of a non-USAID contractor, a lack of
implemented under both contracts with a                     cooperation from the Ministry of Electricity
combined funding level of $1.1 billion. The                 staff at the plants, and security.
audit found that 7 of the 22 power sector
projects (32 percent) had not achieved or were              The audit also found that the mission was
not achieving planned outputs. The audit                    addressing institutional capacity building
also determined that the problems preventing                through training and instruction manuals.
planned outputs from being achieved were                    However, much more has to be done to
beyond the mission’s control. For example,                  address the existing problems and challenges
two of the seven projects not achieving                     in this area.

Recommendations—Management Decisions

The audit recommended that USAID develop a multiyear strategy outlining its long-range plan of
activities to strengthen the Ministry of Electricity’s institutional capacity to properly operate and
maintain the electrical power infrastructure rebuilt or rehabilitated by the U.S. Government.

USAID initiated corrective action and began developing a 3-year transition strategy for institutional capacity
building. As of May 1, 2006, USAID/Iraq approved and put into place a strategic plan for 2006-2008 that
includes key approaches to address the Iraq infrastructure sectors. The plan includes the operation and
maintenance of the electrical power sector infrastructure rebuilt and refurbished by the U.S. Government. This
recommendation is considered closed, on the basis of final action completed in May 2006.




                                                     116
             Audit of USAID/Iraq’s Health System Strengthening
                     Contract Activities (E-267-05-002-P)


Date:                               February 28, 2005

Implementing Partner:               Abt Associates, Inc.

Audit Period:                       April 2003 through November 2004

Funding:                            At the time of the audit, $23 million had been obligated and $21
                                    million disbursed.

Background—Summary of Findings

In general, the goals of the health                         as scheduled and that deliverables were
strengthening contract activities were to help              produced. A reduction in January 2004 of
strengthen the overall health system and                    the contract’s cost ceiling from $44 million to
ensure the rapid normalization of health                    $23 million prompted the contractor to
services. Specific activities included technical            cancel or curtail a number of its activities.
assistance to the Ministry of Health in                     These canceled activities included some that
connection with the provision of health                     USAID had expected to complete prior to the
services, education, information, and                       ceiling reduction.
technical assistance.
                                                            Although the contract had expired, which
The audit found that activities under the                   prevented USAID from taking action to
contract had not achieved their intended                    address the unachieved outputs, the audit
outputs. A review of documentation on file at               found that USAID needed to improve its
USAID and furnished by the contractor                       process for reviewing and approving requests
showed that 60 percent of the activities (28 of             for modifications to future contracts.
47) did not achieve their intended outputs.                 Specifically, USAID needed to develop
This occurred, in part, because the contractor              written procedures to ensure the timely
did not ensure that activities were completed               disposition of such requests.

Recommendations—Management Decisions

OIG recommended that USAID/Iraq develop written procedures covering the review and approval
of contractor and cognizant technical officer requests for modifications to future health sector
contracts to ensure timely and efficient disposition of these requests.

A management decision was reached when the audit report was issued, and final action was taken. Mission
management issued an acquisition and assistance notice, which went into effect on January 11, 2005,
establishing written procedures covering the mission’s process for responding to contract modification requests.
The mission furnished a copy of this notice, which specified the procedures to be followed by the cognizant
technical officer and contracting officer in responding to such requests, including the timeframes that specific
tasks are to be completed within to ensure that requests are addressed promptly. This recommendation is closed.




                                                      117
             Audit of USAID/Iraq’s Community Action Program
                              E-267-05-001-P

Date:                              January 31, 2005

Implementing Partners:             Mercy Corps
                                   International Relief and Development
                                   Agricultural Cooperative Development International and
                                   Volunteers in Overseas Cooperative Assistance
                                   Cooperative Housing Foundation
                                   Save the Children

Audit Period:                      May 2003 to August 2004

Funding:                           $120 million obligated at time of audit (August 2004) and $271
                                   million obligated as of January 2007 under these same cooperative
                                   agreements, which cover the follow-on program, CAP II.
                                   Disbursements in August 2004 totaled $38 million (32 percent).
                                   Disbursements for all agreements total $233 million.

Background—Summary of Findings

The Community Action Program (CAP) was                    including       citizen         participation,
designed to aid Iraq’s capacity to provide                intercommunity        cooperation,       local
quality social services that had declined                 government cooperation, local employment
because of three wars, unemployment,                      generation,    and      consideration       of
economic decline, and lack of investment.                 environmental concerns.
Examples of projects funded under this
program include repair to local sewerage                  The audit identified an internal control that
systems and roads, rehabilitation of schools,             needed to be strengthened to improve the
and renovations of health clinics. The audit              program’s    monitoring     and      reporting
found that the program had achieved                       processes. This internal control concerned
intended outputs. Tests performed on 89                   the data contained in the project list used by
statistically selected sample projects (out of a          USAID for monitoring and reporting
universe of 1,411 projects) show that the CAP             purposes, which did not always agree with
achieved 98 percent of its intended outputs,              supporting documentation.

Recommendations—Management Decisions

The audit recommended that USAID develop and implement a plan of action to improve the
integrity of the data in the CAP’s project list to make it a more effective monitoring tool and a more
accurate and reliable data source for reporting purposes.
A management decision was reached when the audit report was issued. USAID/Iraq developed and
implemented a plan to improve the integrity of the data in the Community Action Program's project list. This
recommendation is closed.




                                                    118
\        Audit of USAID’s Compliance with Federal Regulations in
        Awarding the Contract for Security Services in Iraq to Kroll
        Government Services International, Inc. (A-267-05-005-P)


Date:                              January 6, 2005

Implementing Partner:              Kroll Government Services International, Inc.

Audit Period:                      March 31 to December 31, 2004

Funding:                           Cumulative disbursements totaled $20,301,879.

Background—Summary of Findings

In August 2003, USAID took steps to obtain                 additional authorizing letters were given to
security services for its personnel and facilities         Kroll, increasing the amount of costs that
in Iraq—including the purchase of 17 vehicles              could be incurred to $12.5 million, even
(14 of them armored)—after multiple attacks                though Kroll had never signed the letter
on mission staff. Using other than full and                contract. On March 31, 2004, USAID
open competition, USAID selected Kroll                     executed and Kroll signed a $12.1 million
Government Services International, Inc.                    fixed-price contract for commercial items for
(Kroll), to provide these services. On August              Kroll to provide facility security and
23, 2003, USAID authorized the use of a                    protection services and vehicles for
letter contract to Kroll for up to $4.5 million,           USAID/Iraq. Three contract modifications
which would allow the contractor to begin                  increased the total contract price to
immediately performing services, and                       $29,742,389 and extended the contract an
submitted its proposed letter contract to Kroll            additional 9 months to December 31, 2004.
for signature. This contract would have
authorized costs of up to $1 million. The                  OIG conducted an audit to determine
letter contract did not contain most of the                whether USAID had complied with Federal
required clauses specified in the Federal                  regulations in awarding a contract for security
Acquisition Regulation (FAR), and Kroll                    services in Iraq. The audit determined that
never signed it.                                           USAID (1) had not adequately documented
                                                           the use of less than full and open competition
Over the next 7 months, USAID negotiated                   or explained its contractor choice, (2) had
price and contract terms with Kroll while                  obtained security services using a letter
Kroll provided the requested security services             contract that did not meet FAR requirements,
in Iraq. At Kroll’s request, USAID agreed to               (3) had incurred multiple potential funds-
change the contract type from a cost                       control violations, and (4) had purchased 14
reimbursement        contract—as    originally             armored vehicles that did not meet U.S.
proposed—to a fixed-price contract for                     Government armoring standards and had no
commercial items.        During the period                 documentation to support the $1.9 million
September 1, 2003, to March 31, 2004, four                 cost of the vehicles.




                                                     119
Recommendations—Management Decisions

OIG made the following four recommendations:

1.    That USAID’s Chief Acquisition Officer issue a notice reminding all personnel of the Bureau
      of Management’s Office of Acquisition and Assistance, that adequate and complete
      documentation must be prepared and retained in all procurements when using less than full
      and open competition. This documentation should adequately explain the contractor
      selection and why multiple contractors could not or were not considered for the procurement.

2.    That USAID’s Chief Acquisition Officer issue a notice to all personnel of the Bureau of
      Management’s Office of Acquisition and Assistance, reminding them that procurements for
      USAID activities are subject to all Federal procurement requirements. Specifically, the
      reminder should cover the proper preparation of letter contracts in accordance with the
      Federal Acquisition Regulation along with examples of fully compliant letter contracts
      prepared in the past by USAID.

3.    That USAID’s financial officer initiate an inquiry of this series of potential funds-control
      violations as required by ADS 634.3.5.3 and prepare the appropriate report on the results of
      the inquiry as required by ADS 634.3.5.4 to also include identifying corrective measures to be
      taken to address the applicable internal control weaknesses.

4.    That the Office of Security initiate action to amend ADS 563 to extend its application to all
      USAID-financed armored vehicle purchases, including purchases by USAID’s contractors.

USAID agreed with the recommendations, and all actions were completed by March 31, 2006.

1.    On March 30, 2006, the procurement executive issued (via email) a reminder to all contracting officers,
      stating that adequate and complete documentation must be prepared and retained in all procurement files
      when using less than full and open competition. The notice also reminded the contracting officers of the
      requirements of FAR 6.303 (justifications).

2.    On March 30, 2006, the procurement executive issued (via email) a reminder to all contracting officers,
      reaffirming the agency's position regarding the use of letter contracts and the need to follow the guidelines
      in part 16.603 of the FAR. The notice included an example of a contract that satisfies FAR 16.603.

3.    The Office of Financial Management conducted an inquiry and issued a report on March 23, 2005.
      The report disclosed that since a valid contract was in place, no funds-control violation had occurred
      regarding the establishment of an obligation without the required minimum. Since the original contract
      had unexpended funds remaining in an amount sufficient to cover services received in the initial days in
      April, and no voluntary services were being provided, no funds-control violation occurred regarding the
      modification of the contract without providing funding to pay for the extended services. Also, because
      funds were available in the mission's unobligated budget allowance, no funds-control violation occurred
      when the first amendment was not fully obligated.

4.    On November 20, 2006, the Office of Security revised ADS 563, which established the policy directives
      and required procedures for armored vehicles purchased directly or funded by USAID and certain
      purchases by USAID contractors and subcontractors.




                                                      120
                             Performance Audits
                                    Fiscal Year 2004
        Audit of USAID’s Compliance with Federal Regulations in
          Awarding the Iraq Basic Education Phase II Contract
                           (A-000-04-004-P)
Date:                             September 23, 2004

Implementing Partners: Creative Associates International, Inc. (CAII)

Audit Period:                     May 2 through October 31, 2003

Funding:                          2-year contract (with three 1-year options) issued
                                  June 30, 2004, for $191.4 million

Background—Summary of Findings

In response to the emergency situation in                 to CAII. The contract’s purpose is to support
Iraq, USAID awarded $1.5 billion in                       the Iraqi Ministry of Education in its efforts
contracts to carry out the initial phase of               to improve the quality of Iraqi education in
reconstruction work within the country.                   the areas of procurement and distribution of
Among these contracts was a $62.6 million                 educational materials, community education
contract awarded to CAII to provide technical             grants, teacher training, early childhood
and other assistance to facilitate rapid school           development, model schools, and the
enrollment and retention in primary and                   development and establishment of a modern
secondary schools. This contract was awarded              decentralized education system. This contract
on April 11, 2003, as a cost-plus-fixed-fee level         covers a 5-year period, including a 24-month
of effort term contract using other than full             base period plus three 1-year option periods.
and open competition.                                     The total value of the contract is $191.4
                                                          million.
To conform to congressional wishes, and to
promote full and open competition, USAID                  OIG conducted an audit to determine
did not exercise the renewal option with                  whether USAID complied with Federal
CAII.     Instead, USAID awarded a new                    regulations in awarding the Iraq Basic
contract as part of the second phase of                   Education Phase II Contract.              OIG
contracts awarded for work in Iraq. On June               determined that USAID complied with
30, 2004, USAID completed its procurement                 applicable Federal regulations in the awarding
process and awarded a $56.5 million (base                 of this contract.
period cost) cost-plus-fixed-fee term contract

Recommendations—Management Decisions

None.




                                                    121
             Audit of USAID/Iraq’s Economic Reform Program
                            (E-266-04-004-P)

Date:                                September 20, 2004

Implementing Partner:                BearingPoint, Inc.

Audit Period:                        July 18, 2003, through July 17, 2004

Funding:                             Obligated funds as of June 21, 2004, totaled $79.6 million
                                     and disbursements totaled $53.8 million. The contract has
                                     been fully disbursed.

Background—Summary of Findings

During the postwar period in Iraq, the                       and the remaining 22 (58 percent) were still
Coalition Provisional Authority established                  in progress as of May 31, 2004 Most of the 22
multiple economic objectives, such as                        activities in progress had not been completed
promoting conditions that would encourage                    because of challenges beyond USAID’s
sustainable economic growth, development of                  control, such as the limited control USAID
a private sector, and raising living standards.              had in managing this program in the design
In support of these objectives, USAID                        and implementation stages.         The other
awarded a contract to BearingPoint to provide                challenge was security. BearingPoint’s ability
economic reform, stimulate international                     to monitor activities was severely restricted,
trade engagement, increase employment, and                   and its security costs rose from $894,000 to
create broad-based prosperity.                               about $37 million. The audit found that
                                                             USAID needed to improve its recordkeeping
The audit found that USAID’s program had                     procedures      for    documenting    actions,
partially achieved its intended outputs. A                   decisions, and status of activities. Also,
review of documentation at the mission and                   USAID needed to revise its contractor
with the contractor showed that only 10 of                   reporting requirements so that it could
the 38 planned activities (26 percent) were                  monitor progress more effectively.
completed, while 6 were canceled (16 percent)

Recommendations—Management Decisions

USAID should implement documented procedures dealing with decisions that impact the design
and status of activities. Also, it should develop procedures to ensure that contractors furnish
monthly financial reports that present a breakdown of the actual level of effort billed for the month
by activity.

Management decisions and final action were taken by the time the audit report was issued. The actions taken
by USAID are discussed below.

The mission's Office of Economic Growth established and implemented new documentation management
procedures. These new procedures require all activity managers and cognizant technical officers within the office
to maintain a work file that documents all significant actions associated with each contract. The procedures also




                                                      122
require all electronic communications to be printed and stored in the work file in accordance with ADS 502. In
addition to providing a copy of an internal memo outlining these new procedures, the mission’s response included
guidance sent to the mission’s Office of Economic Growth reminding the cognizant technical officers of their
responsibility for establishing and maintaining adequate work files and specified the minimum documentation
these files must contain.

Also, the mission's Office of Economic Growth developed new reporting requirements that have been
implemented for all new contractors. These new requirements include monthly financial reports with a revised
reporting format that provides more detailed information on the contractor’s activities. Some of the additional
information that will now be required to be furnished by the contractor includes the following:

1.    Narrative on results achieved by activity, including benchmarks and results achieved

2.    Advisers by activity and work location

3.    Level of effort expended under each activity

4.    Overall expenditures and expenditures at the activity level




                                                      123
      Audit of USAID’s Compliance with Federal Regulations in
     Awarding the Iraq Phase II Reconstruction and Rehabilitation,
             Program Advisors and Oversight Contract
                          (E-266-04-003-P)
Date:                           August 6, 2004

Implementing Partners: International Resource Group, Ltd. (IRG)

Audit Period:                   Award process that culminated in a contact on
                                March 30, 2004

Funding:                        18-month contract for $86.8 million with two 1-year options

Background—Summary of Findings

USAID awarded $1.5 billion in contracts to            about other than full and open competition
carry out the initial phase of reconstruction         contracts let in Iraq.) On March 30, 2004,
work within Iraq. Among these contracts was           USAID completed its procurement process
a $27.1 million contract awarded to IRG to            and awarded an $86.8 million cost-plus-fixed-
provide experienced personnel for the                 fee term contract to IRG to provide
implementation of emergency relief and short-         experienced       personnel     for       the
term rehabilitation activities. This contract         implementation of development assistance
was awarded on February 7, 2003, as a cost-           promoting the reconstruction effort in Iraq.
plus-fixed-fee contract using other than full         This contract covers a 42-month period that
and open competition.                                 includes an 18-month base period plus two 1-
                                                      year option periods.
USAID later determined that the statement of
work under the IRG contract needed to be              OIG conducted an audit to determine
revised to address the changing situation and         whether USAID had complied with Federal
needs of the mission. USAID decided not to            regulations in awarding the Iraq Phase II
extend the contract but to award a new                Reconstruction and Rehabilitation, Program
contract as part of the second phase of               Advisors and Oversight Contract.      OIG
contracts awarded for work in Iraq.                   determined that USAID had complied with
(Previously, Congress had expressed concern           applicable Federal regulations.

Recommendations—Management Decisions

None.




                                                124
         Audit of USAID/Iraq’s Infrastructure Reconstruction and
                 Rehabilitation Program (E-266-04-002-P)
Date:                               June 3, 2004

Implementing Partner:               Bechtel National, Inc.

Audit Period:                       April 16, 2003, through April 15, 2004

Funding:                            As of March 31, 2004, approximately $450,000 had been
                                    disbursed from the $1.03 million contract.

Background—Summary of Findings

The contract with Bechtel was for the repair,               Of the 72 activities reviewed, the audit found
rehabilitation, or reconstruction of vital                  that Bechtel had completed, or was scheduled
elements of Iraq’s infrastructure. The audit                to complete, 64 projects (89 percent) by the
examined 72 activities totaling $686 million                scheduled due date.        Eight (11 percent)
performed by Bechtel to determine whether                   activities were completed late or were behind
they were on schedule to achieve planned                    schedule. The audit noted that USAID was
outputs.       The activities included the                  taking aggressive actions to address these
assessment and repair of power plants,                      scheduling issues. However, the audit also
municipal water systems, sewage treatment                   found that USAID’s management controls
plants, the Umm Qasr seaport, government                    related to the infrastructure projects were in
and public facilities, telecommunications                   need of improvement. For instance, the
facilities,   and   surface     transportation              contractor did not always conduct
components.                                                 environmental reviews, and job order plans
                                                            were not always submitted as required.

Recommendations—Management Decisions

Four recommendations were made by the audit: (1) establish procedures regarding the
documentation of environmental reviews and assessments; (2) develop and document procedures to
ensure that specific plans are submitted with job orders, and obtain specific plans for the eight job
orders that did not have specific plans; (3) develop procedures that address excess charges of
approved job orders; and (4) complete and implement job-order closeout procedures.

USAID addressed all four recommendations, which were closed by the time the audit report was issued.

1.    USAID and the U.S. Army Corps of Engineers (USACE) implemented procedures to notify the USACE
      environmental engineer when a draft job order was requested so that planning for an environmental
      review could begin before the official job order was approved. The standard operating procedures (SOP)
      entitled “Environmental Reviews and Assessments-Submission and Approval” define USACE’s
      responsibilities and the process for monitoring, tracking, and reporting environmental review requirements;
      and (b) the mission provided an environmental checklist tracking sheet.

2.    USAID and USACE, in consultation with Bechtel, developed procedures to ensure that job-order-specific
      plans are submitted and approved. These procedures define the process and the responsibilities for




                                                      125
     submitting, distributing, modifying, and approving the plans. The mission also developed a tracking
     worksheet maintained by the USACE reporting the acceptance dates for all required plans.

3.   The mission provided an SOP that states that sector managers will perform an in-depth analysis after
     USAID submits payment to Bechtel. If USAID identifies cost discrepancies in excess of $5,000 of the
     approved job order amount, it will be noted in the subsequent recommendation letter, and BNI will be
     informed by USAID/Iraq and USACE to make an adjustment to either increase the amount of the
     rough order of magnitude for the job order or credit future invoices for the amount of the excess cost. If the
     cost discrepancy is less than $5,000, it will be noted in the subsequent recommendation letter. No
     adjustments will be necessary until the job order is closed, when the rough order of magnitude will be
     increased in line with the actual cost.

4.   The mission provided a copy of Bechtel's March 12, 2004, job order closeout procedure. The procedure
     defines the process for USAID final inspection and acceptance of job order performance requirements.
     The procedure applies to job orders issued under USAID's contract for the Iraq Infrastructure
     Reconstruction Project.




                                                      126
    Capping Report on Audit of USAID’s Compliance with Federal
        Regulations in Awarding the Iraq Phase 1 Contracts
                         (A-000-04-003-P)

Date:                          May 19, 2004

Implementing Partner:          N/A

Audit Period:                  April 29, 2003, to February 27, 2004

Funding:                       Combined cumulative value of contracts is $1.5 billion.

Background—Summary of Findings

This capping report, prepared at the request         compliance with the FAR was not achieved
of the USAID Administrator, summarizes the           and improvements that could be made in the
results of OIG’s audits of USAID’s                   awards process. The individual audits found
compliance with Federal regulations in               instances in which USAID did not follow the
awarding 10 contracts under USAID’s                  FAR and the individual memorandum reports
reconstruction efforts in Iraq. These 10             made specific recommendations for these
procurements had an approximate cost of              issues, which included:
$1.5 billion and included awards for
                                                        •   Adequately documenting market
economic governance, personnel support,
                                                            research related to contractors
seaport administration, local governance,
                                                            available to perform work being
education, infrastructure reconstruction,
                                                            sought.
monitoring and evaluation, health, airport
administration, and agriculture.                        •   Obtaining and documenting legal
                                                            analysis regarding apparent or
Between June 2003 and March 2004, OIG                       possible conflicts of interest with
issued 10 individual memorandum reports on                  contractors.
the awards process. The audits found that
USAID generally complied with the Federal               •   Notifying and debriefing bidders who
Acquisition Regulation (FAR) in authorizing                 were not awarded a contract.
the expedited award of these contracts using
other than full and open competition and
                                                        •   Documenting the mitigation of an
that the contracts, valued at about $1.5
                                                            unfair competitive advantage noted
billion, were valid and legal. However, the
                                                            on one award.
report pointed out instances in which




                                               127
Recommendations—Management Decisions

OIG’s previously issued individual memorandum reports discussed in detail its findings and
recommendations relating to the 10 contracts. The capping report includes findings and
recommendations that OIG believed had Agency-wide applications. For contracts awarded under
less than full and open competition, the report recommends that USAID (1) develop and maintain a
procurement process checklist to ensure that important procurement steps and procedures specified
in the regulations are not overlooked, and (2) develop a standardized illustrative budget to be used in
its requests for procurement and require the use of this standardized format in the cost proposals
submitted to USAID by its offerors.

The Administrator requested that OIG determine whether the contracts were awarded in accordance
with the FAR and review and make recommendations where improvements in the awards process
could be made for future awards. To that end, OIG also suggested improvements in the following
areas:

1.    Documenting presolicitation meetings.

2.    Developing guidance for determining whether “requests for proposals” should specify a
      facilities clearance requirement (a security clearance for the firm).

3.    Standardizing the treatment of security costs in bidders’ cost proposals overall and especially
      for Iraq contracts.

4.    Developing support for the level of effort or technical assistance to be procured under a
      contract.

Management agreed with the recommendations and took final action on the recommendations.

1.    On September 13, 2005, the procurement executive issued Procurement Executive’s Bulletin (PEB) 2005-
      06 entitled “File Standardization Pilot” to all USAID/Washington contracting/award officers. The
      PEB contains mandatory guidance and six checklists that cover each phase of the acquisition and
      assistance process. Within the checklist, specific reference is made to justification for other than full and
      open competition in Section I, “Pre-Solicitation Documents–Contract.” Additionally, a sample action
      memorandum for justification for other than full and open competition has been posted on the
      Management Bureau’s Office of Acquisition and Assistance Web site for contracting/award officers
      worldwide. Specific reference within the checklist is also made to organizational conflict of interest issues
      in Section III, “Pre-Award Documentation–Contracts.” This section includes a mandatory field that
      must be annotated with an “X” by each contracting/award office that it seeks advice of General Counsel
      and formally document substantive issues.

2.    On March 30, 2006, the procurement executive reissued Procurement Executive’s Bulletin (PEB) 2005-
      09 entitled “Template for Budget Line Item Headings in Solicitations for Cost Reimbursement
      Contracts.” The PEB established a standardized format for cost elements for cost proposals. The
      reissuance of PEB 2005–09 included a supplemental section on budget line-item definitions and
      illustrations.




                                                      128
        Audit of USAID’s Compliance with Federal Regulations in
            Awarding the Iraq Infrastructure Reconstruction
           Program Phase II Contract (AIG/A Memo 04-006)

Date:                            April 20, 2004

Implementing Partner:            Bechtel National, Inc.

Audit Period:                    Award process that culminated in a contact on
                                 January 5, 2004

Funding:                         $1.8 billion

Background—Summary of Findings

OIG conducted an audit to determine                     Business Opportunities Web site for the Iraq
whether USAID complied with Federal                     Infrastructure Reconstruction Program Phase
regulations in awarding the Iraq Infrastructure         II.    Questions regarding the RFP were
Reconstruction Program Phase II contract.               submitted by five firms and addressed in a
                                                        subsequent amendment to the RFP. The
This is the first contract awarded by USAID             firms were given until October 31, 2003, to
in the second phase of contracts to be                  respond, and an RFP amendment changed
awarded for reconstruction work in Iraq. In             the closing date to November 6, 2003.
the initial phase of work in Iraq, USAID
awarded contracts for $1.5 billion for                  Three firms submitted proposals by the
economic governance, personnel support,                 closing date. A technical evaluation panel
seaport administration, local governance,               reviewed the proposals and determined that
education, infrastructure reconstruction,               all three were acceptable. These three firms
monitoring and evaluation, health, airport              submitted final revised technical and cost
administration, and agriculture. USAID has              proposals by the closing date of December 9,
also awarded grants, cooperative agreements,            2003. After reducing the competition to the
and interagency agreements in connection                two higher ranked firms, additional
with Iraq reconstruction efforts. This contract         discussions were held with both firms
to Bechtel was competitively awarded using              regarding their cost proposals. On January 5,
full and open competition.                              2004, USAID awarded Bechtel a cost-plus-
                                                        fixed-fee term contract for approximately
On October 2, 2003, USAID published a                   $1.823 billion for the period of January 5,
request for proposal (RFP) on the Federal               2004, through December 31, 2005.

Recommendations—Management Decisions

OIG reviewed USAID documentation and conducted interviews to determine the events that took
place and decisions made supporting the award of the contract. In our opinion, USAID complied
with applicable Federal regulations in making the award. No recommendations were made.




                                                  129
   Audit of USAID’s Results Data for Its Education Activities in Iraq
                          (E-266-04-001-P)

Date:                             March 19, 2004

Implementing Partner:             Creative Associates International, Inc., Bechtel National, Inc.,
                                  UNESCO, UNICEF, and five nongovernmental organizations

Audit Period:                     May 2, 2003, through October 31, 2003

Funding:                          USAID obligated $116 million for education activities in
                                  Iraq as of October 31, 2003.

Background—Summary of Findings

The Revitalization of Iraq Schools and                   math and science textbooks (48), and printed
Stabilization of Education Program (RISE)                textbooks (5,452,204).
was an emergency program that emphasized
getting children to return to school. USAID              The audit found that USAID did not
entered into three contracts and issued nine             accurately report data and results for its
grants to rehabilitate and supply Iraqi schools          educational activities, as seven out of eight
with educational material and supplies.                  items reported by USAID differed from the
USAID rehabilitated schools (1,356),                     numbers verified by the audit. Six of the
delivered student kits (1,660,240), delivered            seven items were underreported (i.e., more
teacher kits (81,735), delivered chalkboards             was accomplished than reported). One item
(28,182), delivered furniture (198,474), edited          exceeded the amount verified by the audit.

Recommendations—Management Decisions

The audit recommended that USAID develop procedures to verify data included in reports prior to
the issuance of the reports to ensure that the data reported are accurate.

USAID agreed with the recommendation and established tighter monitoring systems by having an outside party
act as a clearinghouse for information reported to outside audiences. The recommendation was closed by the
time the audit report was issued.




                                                   130
                                Iraq Investigative Case Work and Fraud Prevention Briefings
               Criminal Law                                                                                                      Department of
                                                                                         Program Integrity (PI)
      Case     Enforcement                                                                                         Savings and      Justice
                                       Source                     Allegation                      or                                                                Results
     Number   Records System                                                                                        Recoveries   Civil/Criminal
                                                                                         Employee Integrity (EI)
                 Number                                                                                                             Actions
                                                                                                                                                       DOJ criminal referral, declined for
     A03092                             Audit             Bribery/gratuity/kickbacks               PI                                CRM
 1                                                                                                                                                               prosecution
 2   A03120                      Walk in; employee            Pay and allowance                    PI
 3   A04036                            Other             Theft of government property              PI
 4   A04039                       USAID employee                   False claim                     PI
 5   A04043                          Contractor           Bribery/gratuity/kickbacks               PI
 6   A04079                       USAID employee           Conflict of interest/ethics             PI                                                        Employee resignation
 7   A04091                       USAID employee          Bribery/gratuity/kickbacks               PI
 8   A04106                          Contractor                    False claim                     PI
 9   A04112                     Confidential informant             False claim                     PI
10   A04148                            Spinoff                     False claim                     PI                                                            Policy change
11   A04163                       USAID employee                   False claim                     EI
12   A05005                            Hotline                        Other                        EI
13   A05014                         Related case           False statement/perjury                 EI
14   A05054                          Contractor               Procurement fraud                    PI
15   A05060                            Other              Bribery/gratuity/kickbacks               PI
16   A06004                            Other                          Other                        PI
                                                                                                                                                  Referred for criminal prosecution; declined
     A06010                       USAID employee          Bribery/gratuity/kickbacks               PI                              CRM-Iraq
17                                                                                                                                                              for prosecution
18   A06017                          Contractor               Procurement fraud                    PI
                                                                                                                                                      DOJ criminal referral; declined for
     A06018                       USAID employee            Administrative matter                  EI                $7,500        CRM-DC         prosecution; collection ($7,500); personnel
19                                                                                                                                                                 suspension
                                                                                                                                                  Administrative recovery ($2,685); personnel
     A06058                       USAID employee                 False claim                       EI                $2,685
20                                                                                                                                                                  reprimand
21   A06070                             Other                    False claim                       PI
22   A06071                            Audit              Bribery/gratuity/kickbacks               PI
23   A06073                           Other               Bribery/gratuity/kickbacks               PI
24   A06089                           Other                 Administrative matter                  PI                                                        Personnel reprimand
25   A06108                       USAID employee         Theft of government property              PI
26   A07008                       USAID employee                   False claim                     PI
27   A07012                       USAID employee                 False claim                       EI                $1,576                             Administrative savings ($1,576)
28   A07013                       USAID employee                  False claim                      PI
                                                          Collusive bidding; program
     A07031   AF-BA-08-0042-I     USAID employee                                                   PI
29                                                          fraud; wire/mail fraud
                                                                                                                                                    Referred to Immigration and Customs
     A07034                       USAID employee            Travel/per diem fraud                  PI
30                                                                                                                                                               Enforcement




                                                                                            131
                                Iraq Investigative Case Work and Fraud Prevention Briefings
               Criminal Law                                                                                                      Department of
                                                                                         Program Integrity (PI)
      Case     Enforcement                                                                                         Savings and      Justice
                                       Source                     Allegation                      or                                                                 Results
     Number   Records System                                                                                        Recoveries   Civil/Criminal
                                                                                         Employee Integrity (EI)
                 Number                                                                                                             Actions
31   A07055                         Contractor                    False claim                      PI
32   A07070                            RIG                 False statement/perjury                 PI                                                        Employee termination
33   A08016                       USAID employee                  False claim                      PI
34   D03059                          Proactive                       Other                         PI
35   D03060                            Other                   False statement                     PI
36   L06066                            Other                      False claim                      PI
                                                          Bribery/gratuity/kickbacks;
     A08011   AF-BA-08-0030-I        Contractor             conspiracy; extortion;                 PI
37                                                           program fraud; theft
                                                                                                                                                   Restitution ($388,262); referred for criminal
     A04018   AF-H1-08-0076-I           Other                    False claim                       PI               $388,262       CRM-DC
                                                                                                                                                  prosecution; declined for criminal prosecution
38
                                                                                                                                                   Employee terminations (2); administrative
                                                          Bribery/gratuity/kickbacks;
                                                                                                                                                      recovery ($3,633,300) and savings
     A04042   AF-CA-08-0007-1   Confidential informant   false claim; false statement;             PI               $5,566,237   CRM-FL/Civil
                                                                                                                                                  ($932,937); civil and criminal referrals; civil
                                                                 program fraud
39                                                                                                                                                          settlement ($1,000,000)
                                                                                                                                                  DOJ civil and criminal prosecution referrals;
                                                         False claim, false statement;
     A07011   AF-H1-08-0023-I     USAID employee                                                   PI                            CRM-DC/Civil       warrant executed, declined for criminal
                                                                wire/mail fraud
40                                                                                                                                                                 prosecution
                                                         False claim; false statement;
     A07019   AF-BA-08-0048-I          Security                                                    PI
41                                                              program fraud
                                                         False claim; false statement;
                                                                                                                                                   DOJ criminal referral, declined for criminal
     A07044   AF-BA-08-0043-I     USAID employee           wire/mail fraud; program                PI                              CRM-DC
                                                                                                                                                                  prosecution
42                                                                   fraud
                                                                                                                                                   DOJ criminal referral; declined for criminal
     A07060   AF-BA-08-0049-I        Contractor           Bribery/gratuity/kickbacks               PI                              CRM-Iraq
43                                                                                                                                                   prosecution, indictment, conviction
                                                         False claim; false statement;
     A07082   AF-BA-08-0044-I           Audit                                                      PI
44                                                              wire/mail fraud
                                                         False claim; false statement;                                                            DOJ criminal and civil referrals; declined for
     A08007   AF-BA-08-0029-I           Other                                                      PI                            CRM-DC/Civil
45                                                              wire/mail fraud                                                                               criminal prosecution
                                                                                                                                                   DOJ criminal referral; arrest; indictment,
                                                                                                                                                    guilty plea; conviction; sentenced to 33
     L06032   LA-MA-08-0003-I           Other            Conspiracy; wire/mail fraud               PI               $150,100       CRM-NC
                                                                                                                                                      months in jail and fined $150,000;
46                                                                                                                                                debarment; special fee assessment ($100)




                                                                                            132
                                  Iraq Investigative Case Work and Fraud Prevention Briefings
               Criminal Law                                                                                                          Department of
                                                                                             Program Integrity (PI)
      Case     Enforcement                                                                                             Savings and      Justice
                                        Source                       Allegation                       or                                                                 Results
     Number   Records System                                                                                            Recoveries   Civil/Criminal
                                                                                             Employee Integrity (EI)
                 Number                                                                                                                 Actions
                                                             Bribery/gratuity/kickbacks;                                                              Local arrest warrant issued; referred to local
              AF-BA-08-0010-I    Contractor employee           collusive bidding; false                PI                              CRM-Iraq       authorities for criminal prosecution; declined
47
                                                             statement; program fraud                                                                            for criminal prosecution

                                                                                                                                                      Local arrest warrant issued; referred to local
                                                             False statement; program
              AF-BA-08-0008-I          Contractor                                                      PI                              CRM-Iraq       authorities for criminal prosecution; declined
                                                                       fraud
48
                                                                                                                                                                 for criminal prosecution

                                                            False claim; false statement,
              AF-BA-08-0074-I      USAID employee                                                      PI
                                                                theft; program fraud
49
                                                            False claim; false statement;                                                                DOJ criminal referral; bill of collection
              AF-H1-08-0058-I Former contractor employee      program fraud; wire/mail                 PI               $1,052,000     CRM-DC             ($1,052,000), declined for criminal
50                                                                      fraud                                                                                        prosecution
51            LA-H1-08-0090-R    Hotline; private citizen          Wire/mail fraud                     PI
                                                                False claim; collusive                                                                    Arrest (3) - Iraqi pardon issued; (1)
     A07032   AF-BA-08-0100-I      USAID employee               bidding; Procurement                   PI                            CRM-Iraq (2)         conviction; indictment, declination;
52                                                          Integrity Act; program fraud                                                                          sentencing 39 days
                                                             Bribery/gratuity/kickbacks;
              AF-BA-08-0170-I    Other agency referral                                                 PI                             CRM-DC (2)          DOJ criminal referral (2); arrests (2)
53                                                             conspiracy; false claim
54            AF-BA-08-0177-R    Other agency referral       Procurement Integrity Act                 PI                                                           Audit scheduled
55            AF-H1-08-0181-R    Hotline; private citizen           Program fraud                      PI
                                                                False claim; conflict of
                                                                                                                                                      DOJ criminal and civil referral, declined for
              AF-CA-09-0074-I      USAID employee              interest/ethics; program                PI                            CRM-DC/Civil
                                                                                                                                                            criminal and civil prosecution
56                                                          fraud; Procurement Integrity
57            AF-BA-09-0089-I      USAID employee             Procurement Integrity Act                EI
              AF-BA-09-0125-I          Proactive            False claim; false statement               PI
58
                                                                                                                                                         DOJ criminal referral; bill of collection
              AF-BA-09-0126-I          Proactive            False claim; false statement               PI               $9,546,958     CRM-DC             ($9,546,958), declined for criminal
59                                                                                                                                                                   prosecution
60            AF-BA-09-0127-I          Proactive             Bribery/gratuity/kickbacks                PI
                                                            False claim, false statement,
              AF-BA-09-0128-I          Proactive                                                       PI
61                                                                collusive bidding
62            AF-BA-09-0129-I          OIG audit                     False claim                       PI
63            AF-BA-09-0144-I    Other agency referral        Bribery/gratuity/kickbacks               PI
                                                             Bribery/gratuity/kickbacks;
                                                            collusive bidding; conspiracy;
              AF-BA-09-0167-I    Other agency referral                                                 PI               $296,560                              Bill of collection ($296,560)
                                                             Procurement Integrity Act;
64                                                                  program fraud




                                                                                                133
                                  Iraq Investigative Case Work and Fraud Prevention Briefings
               Criminal Law                                                                                                        Department of
                                                                                           Program Integrity (PI)
      Case     Enforcement                                                                                           Savings and      Justice
                                         Source                     Allegation                      or                                                           Results
     Number   Records System                                                                                          Recoveries   Civil/Criminal
                                                                                           Employee Integrity (EI)
                 Number                                                                                                               Actions
65            AF-H1-09-0173-I         Private citizen        Bribery/gratuity/kickbacks              PI
66            AF-BA-09-0200-I         Private citizen      Bribery/gratuity/kickbacks                PI
                                                           Bribery/gratuity/kickbacks;
              AF-BA-09-0204-I     Contractor employee                                                EI
67                                                          conflict of interest/ethics
                                                          False claim; false statement;
                                Government Accountability
              AF-BA-09-0205-I                                 program fraud; theft;                  PI
                                         Office
68                                                               wire/mail fraud
              AF-PR-09-0196-I       USAID employee          False claim; false statement             PI
69
70            AF-H1-10-0046-I     Other agency referral      Conflict of interest/ethics             PI
71            AF-BA-10-0058-I       USAID employee                  False claim                      PI
72            AF-BA-10-0066-R       USAID employee           Conflict of interest/ethics             EI
73            AF-BA-10-0067-R            Spinoff             Procurement Integrity Act               EI
74            AF-BA-10-0073-I         Private citizen             Program fraud                      PI
75            AF-BA-10-0144-I           Proactive                 False statement                    EI
76            AF-BA-10-0143-I           Proactive           Procurement Integrity Act                PI
                                                           False claim, false statement,
              AF-BA-10-0158-I     Other agency referral                                              PI
77                                                                program fraud
78            AF-BA-10-0195-I         Private citizen             Program fraud                      PI
79            AF-H1-10-0177-I         Private citizen             Program fraud                      PI
80            AF-BA-10-0263-I     Contractor employee             Program fraud                      PI
81            AF-H1-11-0025-I         Private citizen             Program fraud                      PI
                                                                                                                                                    DOJ criminal referral, declined for
82            AF-CA-11-0012-I Former contractor employee            False claim                      PI                              CRM-DC
                                                                                                                                                              prosecution
83            AF-BA-11-0042-I     Contractor employee        Bribery/gratuity/kickbacks              PI
84            AF-BA-11-0044-I     Contractor employee        Bribery/gratuity/kickbacks              PI
85            AF-BA-11-0041-G         Private citizen        Bribery/gratuity/kickbacks              PI
                                                                                                                                                    DOJ criminal referral, declined for
              AF-BA-11-0050-I       USAID employee                False statement                    PI                              CRM-DC
86                                                                                                                                                            prosecution
87            AF-BA-11-0051-I             Audit              Bribery/gratuity/kickbacks              PI
88            AF-BA-10-0152-G         Private citizen             Program fraud                      PI
89            AF-H1-10-0192-G         Private citizen             Program fraud                      PI
90            AF-H1-10-0212-G         Private citizen               False claim                      PI
91            LA-MA-10-0263-G     Contractor employee             Program fraud                      PI
92            AF-BA-10-0282-G     Confidential informant   Theft of government property              PI
93            AF-BA-10-0315-G     Other agency referral           False statement                    PI
94            AF-H1-11-0065-P Former contractor employee          Program fraud                      PI




                                                                                              134
                                           Iraq Investigative Case Work and Fraud Prevention Briefings
                  Criminal Law                                                                                                                         Department of
                                                                                                              Program Integrity (PI)
       Case       Enforcement                                                                                                           Savings and       Justice
                                                   Source                             Allegation                       or                                                                 Results
      Number     Records System                                                                                                          Recoveries    Civil/Criminal
                                                                                                              Employee Integrity (EI)
                     Number                                                                                                                               Actions
 95              AF-BA-11-0117-G               Private citizen                      Program fraud                       PI
 96              AF-BA-11-0139-G             USAID employee                   Conflict of interest/ethics               EI
                                                                             Conspiracy, false statement,
                                                                                                                                                                        Arrests (6), indictments (6), convictions (6),
                 AF-H1-08-0067-I          Other agency referral                 program fraud, theft,                   PI                              CRM-MO (7)
                                                                                                                                                                                suspension, debarment (5)
 97                                                                                wire/mail fraud
                                                                                                                                                                        Arrests (2), indictments (2), convictions (2),
                                                                             Conspiracy, false claim, false                                             CRM-NJ (3),
                 AF-H1-08-0033-I          Other agency referral                                                         PI              $105,500,000                         recovery ($4,300,000); judgment
                                                                              statement, program fraud                                                    Civil
 98                                                                                                                                                                      ($50,600,000), settlement ($50,600,000),
 99              AF-BA-11-0171-I             USAID employee                            False claim                      PI
100              AF-BA-11-0187-G              Private citizen                        Program fraud                      PI
101              AF-BA-11-0237-I               Anonymous                       Conflict of interest/ethics              PI
102              AF-BA-11-0244-I             USAID employee                            False claim                      EI
103              AF-BA-11-0252-I             USAID employee                  Theft of government property               PI
                                                                                                                                        $122,511,878


                                                                                     3rd and 4th
                                           Investigative Activity                                              Cumulative Results*
                                                                                   Quarter FY 2011
                                         Investigations opened                             5                           103
                                         Investigations closed                             5                            85
                                         Department of Justice
                                                                                           1                            36
                                               referrals
                                                   Arrests                                 0                            14
                                          Indictments/Criminal
                                          Complaints/Criminal                              0                            11
                                               Information
                                            Convictions/Pleas                              0                            10

                                        Administrative actions**                           0                            36
                                           Fraud awareness
                                                                                           0                            57
                                                briefings
                                           Attendees at fraud
                                                                                           0                           1,045
                                          awareness briefings

               * 2003 through September 2011
           ** Terminations, suspensions, reprimands, bills for collection,




                                                                                                                 135
 




    136 
`
                    Investigative Summaries
                           Fiscal Years 2004–11
      Phantom Contractor Employee in Iraq Paid Over $10,000

Allegation

A USAID contractor in Iraq was determined to have a phantom employee on its payroll. An
investigation revealed that the individual worked at a local bank and served as an unofficial
expediter to circumvent normal channels and procedures. Such a position was not allowed under
the contract and was not revealed to either USAID or to most of the contractor’s own staff.

Status

An administrative referral concerning this matter was sent to USAID/Iraq in May, 2011. The
agency responded that because the employee was not under the direct supervision of the contractor
the individual probably should not have been classified as an employee. Further, even though the
contractor’s documentation of the employee’s services was not consistent with the manner in which
the services were provided, the services, as requested by the contractor, were directly related to
program goals. This matter is now closed.


      USAID Debars 5 People Belonging to an Islamic Charitable
            Entity With Ties to Terrorist Organizations

Allegation

Following a multiagency investigation, USAID debarred six individuals with links to the Islamic-
American Relief Agency, an entity previously designated by the Treasury Department as a global
terrorist organization because it provided financial support to Osama bin Laden, Al-Qaida, and the
Taliban. One of the individuals was a former U.S. member of Congress.

Status

In the course of the investigation by OIG, the FBI, and the Internal Revenue Service, officials
uncovered evidence that the suspects conspired to illegally transfer more than $1 million to Iraq in
violation of the International Emergency Economic Powers Act.




                                                137
                Investigation of Alleged Kickbacks Leads to
                           $1 Million Civil Action

Allegation

OIG initiated an investigation on the basis of allegations that an employee of a USAID contractor
had accepted kickbacks to direct the award of a security subcontract. The contractor had received
orders under the U.S. Air Force Augmentation Program contract for work on a USAID project to
provide potable water for the populace of Baghdad, Iraq.

The investigation revealed that a security subcontractor had offered a $1.2 million kickback to the
contractor employee in exchange for being awarded a $10 million security subcontract. The
investigation further determined that the contractor employee received at least $125,000 of the $1.2
million kickback offer.

Status

As a result of the investigation, the Department of Justice reached a settlement agreement with the
USAID contractor for $1 million in damages.



     Estonian Pleaded Guilty Pursuant to Investigation of Major
            Fraud Against the U.S.; Sentenced to Prison

Allegation

A former USAID contractor, who had worked from May through October 2003 on the $239
million USAID governance contract, pleaded guilty to major fraud against the United States. He
was sentenced to 33 months in prison and fined $150,000. The subject was the first Estonian
national ever extradited to the United States.

Status

The investigation revealed that the subject had unlawfully directed two subcontract agreements
worth $1 million to a Dubai firm in return for hundreds of thousands of dollar’s worth of goods
and services, including improvements to a home in North Carolina and the purchase of two
condominiums in Miami, Fla. He was also debarred from future government contracts by USAID.


                  OIG Investigation Leads to Claim Against
                         a Vendor for $9.5 million

Allegation

In May 2009, OIG initiated an investigation on the basis of allegations that a vendor, who was
providing technical assistance to USAID, had submitted false claims or statements.


                                                138
Status

The case involved a $223 million economic governance contract to provide technical assistance to
help Iraqis overcome problems involving legal, fiscal, institutional, and regulatory frameworks that
complicate private investment and trade flows.

The investigation revealed that the vendor may have overbilled USAID by falsely certifying that it
had completed unfinished work. In collaboration with OIG’s Office of Audit, an analysis was
performed that led to a claim for $9.5 million in disallowed contract costs.


          USAID Grantee Issued $1.1 Million Bill of Collection
Allegation

OIG received an allegation in March 2008 that a USAID-funded grantee organization was making
unallowable purchases, amounting to approximately $37,000, with USAID funds.

Status

The investigation determined that the organization had made additional unauthorized purchases
worth $1.1 million. Administrative remedies were sought during the course of the investigation:
The organization was officially notified by USAID that retroactive approval for the procurements
would not be granted and that a bill of collection, totaling $1.1 million, would be issued in the form
of a demand letter.


              Investigation Results in Recovery of $5.5 Million
Allegation

In January 2004, OIG received allegations that officials employed by a USAID contractor were
involved in embezzlement and solicited and received kickbacks.

Status

The complainant was able to obtain proof that the officials were involved in the alleged misconduct.
As a result of OIG’s investigative efforts, the contractor credited USAID
$3.6 million for delivered equipment that did not meet specifications. The contractor also agreed
not to bill USAID for shipping costs, which resulted in savings of over $900,000. In October 2009,
the contractor entered into a civil settlement agreement with the U.S. Government, and the firm
was required to repay an additional $1 million.




                                                 139
